APPENDIX

ii
TABLE OF CONTENTS

Page

Opinion of the United States Court of Appeals
for the Federal Circuit, LaTurner, etc. v. United
States, Nos. 2018-1509 & 2018-1510 (Aug. 13,
2019) .......................................................................... 1a
Opinion and Order of the United States Court
of Federal Claims, LaTurner, etc. v. United
States, No. 13-1011C (Dec. 1, 2017) ....................... 24a
Opinion and Order of the United States Court
of Federal Claims, LaTurner, etc. v. United
States, No. 13-1011C (Aug. 8, 2017) ....................... 34a
Opinion and Order of the United States Court
of Federal Claims, Estes, etc. v. United States,
No. 13-1011C (Aug. 20, 2015) ............................... 101a
Order of the United States Court of Appeals
for the Federal Circuit Denying Rehearing,
LaTurner, etc. v. United States, Nos. 2018-1509
& 2018-1510 (Dec. 11, 2019) ................................. 141a
Statutes and Regulations Involved ...................... 143a
Kan. Stat. Ann.:
§ 58-3979 ..................................................... 143a
§ 58-3980 ..................................................... 144a
31 C.F.R. (2014):
§ 315.20 ....................................................... 144a
§ 315.25 ....................................................... 145a
§ 315.29 ....................................................... 146a
§ 315.71 ....................................................... 146a
Letter from Supreme Court Clerk regarding
grant of extension of time for filing a petition
for a writ of certiorari (Feb. 26, 2020) .................. 150a

1a
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
__________
Nos. 2018-1509 & 2018-1510
JAKE LATURNER, TREASURER OF THE
STATE OF KANSAS, ANDREA LEA, IN HER
OFFICIAL CAPACITY AS AUDITOR OF THE
STATE OF ARKANSAS,
Plaintiffs-Appellees,
v.
UNITED STATES,
Defendant-Appellant.
__________
[Decided: August 13, 2019]
__________
Before Dyk, Chen, and Hughes, Circuit Judges.
Dyk, Circuit Judge:
During the Great Depression, President Franklin
D. Roosevelt signed legislation allowing the U.S.
Department of Treasury (“Treasury”) to issue savings
bonds, a type of debt security designed to be affordable and attractive to even the inexperienced investor.
Under longstanding federal law, savings bonds never
expire and may be redeemed at any time after maturity. See, e.g., 31 U.S.C. § 3105(b)(2)(A); 31 C.F.R.
§ 315.35(c). Federal law also limits the ability to
transfer bonds. 31 C.F.R. § 315.15. Kansas and
Arkansas (the “States”) passed so-called “escheat”
laws providing that if bond owners do not redeem
their savings bonds within five years after maturity,

2a
the bonds will be considered abandoned and title will
transfer (i.e., “escheat”) to the state two or three
years thereafter. Kan. Stat. Ann. §§ 58-3935(a)(16),
58-3979(a) (2000); Ark. Code Ann. § 18-28-231(a)-(b)
(2015).
Pursuant to these escheat laws, the States sought
to redeem a large but unknown number of bonds,
estimated to be worth hundreds of millions of dollars.
When Treasury refused, the States filed suit in the
Court of Federal Claims (“Claims Court”). The
Claims Court agreed with the States, holding that
Treasury must pay the proceeds of the relevant
bonds—once it has identified those bonds—to the
States. The cases were certified for interlocutory
appeal to this court.
We reverse for two independent reasons. First, we
hold that federal law preempts the States’ escheat
laws. That means that the bonds belong to the original bond owners, not the States, and thus the States
cannot redeem the bonds. Second, even if the States
owned the bonds, they could not obtain any greater
rights than the original bond owners, and, under
Federal law, 31 C.F.R. § 315.29(c), a bond owner must
provide the serial number to redeem bonds six years
or more past maturity, which includes all bonds at
issue here. Because the States do not have the physical bonds or the bond serial numbers, Treasury
properly denied their request for redemption.
BACKGROUND
This case concerns the ability of states to acquire
U.S. savings bonds through escheat, the centuriesold right of the states to “take custody of or assume
title to abandoned personal property.” Delaware v.
New York, 507 U.S. 490, 497, 113 S.Ct. 1550, 123
L.Ed.2d 211 (1993). A savings bond is a contract

3a
between the United States and the bond owner, and
Treasury regulations are incorporated into the bond
contract. See Treasurer of New Jersey v. U.S. Dep’t of
the Treasury, 684 F.3d 382, 387 (3d Cir. 2012), cert.
denied, 569 U.S. 1004, 133 S.Ct. 2735, 186 L.Ed.2d
192 (2013).
Treasury “regulations do not impose any time limits for bond owners to redeem the[se] savings bonds.”
Id. at 388; see also 31 U.S.C. § 3105(b)(2)(A) (authorizing Treasury to adopt regulations providing that
“owners of savings bonds may keep the bonds after
maturity”). In addition, Treasury regulations provide
that savings bonds are generally “not transferable
and are payable only to the owners named on the
bonds.” 31 C.F.R. § 315.15. When the sole owner of
a bond dies, “the bond becomes the property of that
decedent’s estate.” 31 C.F.R. § 315.70(a). Federal law
imposes no time limit on the redemption of savings
bonds, and numerous savings bonds in the country
have matured but have not yet been redeemed by their
owners. Generally, in order to redeem bonds not in
the physical possession of the owner—for example,
bonds that have been lost or destroyed—the owner
must supply the serial numbers of the bonds to
Treasury. 31 C.F.R. §§ 315.25, 315.26(a), 315.29(c).
The States do not have the serial numbers of the
bonds in question.
This case is related to an earlier litigation that
resulted in a decision by the Third Circuit. In the
2000s, several states attempted to acquire the proceeds of unredeemed savings bonds through so-called
“custody escheat” laws. See New Jersey, 684 F.3d at
389-90. These laws provided that if bond owners with
last known addresses in the state did not redeem
their bonds within a certain time after maturity

4a
(such as five years), the bonds would be deemed
abandoned property. The state could then obtain
legal custody of (but not title to) the bonds. When
several states asked Treasury to redeem bonds obtained through these custody escheat laws, Treasury
refused. Treasury explained that for the bonds to be
paid, a state “must have possession of the bonds” and
“obtain title to the individual bonds”—neither of
which the states had. J.A. 507 (2004 letter to North
Carolina); accord J.A. 509 (letter to Illinois); J.A. 511
(letter to D.C.); J.A. 513 (letter to Kentucky); J.A. 515
(letter to New Hampshire); J.A. 517 (letter to South
Dakota); J.A. 519 (letter to Connecticut); J.A. 521
(letter to Florida).
A number of states filed suit in the District of New
Jersey, seeking an order directing the government to
pay the bond proceeds. The district court upheld
Treasury’s denial of payment, holding that the states’
custody escheat laws were preempted. See New Jersey, 684 F.3d at 394. The Third Circuit affirmed,
explaining that the states’ laws “conflict[ed] with
federal law regarding United States savings bonds
in multiple ways.” Id. at 407. The court reasoned
that unredeemed bonds are “not ‘abandoned’ or ‘unclaimed’ under federal law because the owners of the
bonds may redeem them at any time after they
mature.” Id. at 409. “The plaintiff States’ unclaimed
property acts, by contrast, specify that matured
bonds are abandoned and their proceeds are subject
to the acts if not redeemed within a [certain] time
period” after maturity. Id. at 407-08. “There simply
is no escape from the fact that the Federal Government does not regard matured but unredeemed
bonds as abandoned even in situations in which
[state law] would do exactly that.” Id. at 409. However, the Third Circuit declined to address whether

5a
the outcome would be different if states obtained title
to savings bonds, as opposed to mere custody. Id. at
413 n.28 (“We simply are not faced with that possibility and thus we do not address it.”).
After the New Jersey litigation, Kansas and Arkansas acted to obtain title to the bonds using “title
escheat” laws—precisely the circumstance the Third
Circuit’s New Jersey decision did not reach. Kansas’s
title escheat law provides that a savings bond will
be considered “abandoned” if it is not redeemed
within five years of maturity. Kan. Stat. Ann. § 583935(a)(16). If the bond remains unredeemed for
three more years—that is, for a total of eight years
after maturity—Kansas may obtain a state court
judgment that title to the bond has escheated to the
state. Id. § 58-3979(a). Arkansas’s law is similar,
providing that savings bonds will be considered
abandoned five years after maturity and that the
state can obtain title to the bonds two years after
that. Ark. Code Ann. § 18-28-231(a)-(b).
Kansas and Arkansas obtained state court judgments purporting to give them title to the category of
bonds deemed abandoned under these title escheat
laws—that is, all unredeemed bonds that were sufficiently past maturity and were registered to owners
with last known addresses in Kansas or Arkansas.1
See J.A. 251 (Kansas); J.A. 1244 (Arkansas). These

1 For Kansas, the relevant bonds are 40-year Series E bonds
issued between 1941 and December 31, 1961; 30-year Series E
bonds issued between 1965 and December 31, 1972; and Series
A-D, F, G, H, J, and K bonds issued before December 31, 1972.
J.A. 245. For Arkansas, the relevant bonds are ‘‘all unredeemed
series A through D, F, G, J, and K bonds, and all series E and H
bonds that were issued on or before October 16, 1978.’’ J.A.
1243.

6a
bonds were not in the States’ possession.2 Kansas
and Arkansas estimated that the allegedly abandoned bonds were worth $151.8 million and $160
million, respectively.
The States then attempted to redeem these bonds,
asking Treasury to redeem bonds whose registered
owners had last known addresses in the state,
relying on its general authority to escheat debts owed
to individuals whose last known addresses were in
the state. See generally Texas v. New Jersey, 379
U.S. 674, 680-81, 85 S.Ct. 626, 13 L.Ed.2d 596 (1965)
(holding that as to abandoned intangible property—
there, various debts—“the right and power to escheat
the debt should be accorded to the State of the
creditor’s last known address”).3 Treasury declined,
stating that “[u]nless some exception or waiver in
[its] regulations applies, Treasury is only authorized
to redeem a savings bond to the registered owner,”
J.A. 368, who retains the right “to redeem their
savings bonds at any time, even after maturity,” J.A.
369.
The States sued for damages under the Tucker Act,
28 U.S.C. § 1491, alleging that the States were the
2

The States also escheated and asked Treasury to redeem a
much smaller number of bonds that they did possess. Treasury
did so, relying on its authority under 31 C.F.R. § 315.90 to waive
its other regulations. See Regulations Governing United States
Savings Bonds, 80 Fed. Reg. 37,559, 37,560 (U.S. Dep’t of
Treasury July 1, 2015). The bonds in the States’ possession are
not at issue in this case.
3 Below, the government challenged the States’ authority to
escheat based on the last known address of the registered bond
owners, since some bond owners may have moved out of state.
The government does not make this argument on appeal, and
we assume without deciding that the States have the authority—absent preemption—to escheat savings bonds based on the
last-known address of the registered owner.

7a
owners of the absent bonds and that the government
had breached the terms of the savings-bonds contracts
by refusing to redeem the bonds. On cross-motions
for summary judgment, the Claims Court sided with
the States, holding that Treasury was liable to the
States and had an obligation to identify the absent
bonds. The Claims Court reasoned that there was no
preemption because “federal law itself (i.e., 31 C.F.R.
§ 315.20(b)) requires Treasury to recognize claims
of ownership based on title-based escheatment statutes.” Laturner v. United States, 133 Fed. Cl. 47, 71
(2017).
The court also concluded that the States have
the “right[ ] as an owner of the bonds to make a claim
for their proceeds based on the theory that they are
‘lost.’ ” Id. at 70. It determined that “Treasury
breached the [bond] contract when it refused to
provide [the States] with information about the
bonds and demanded that [the States] produce the
bond certificates as a condition of redeeming their
proceeds.” Id. at 65. Thus, the Claims Court held
that the States were “entitled to receive from the
government the information necessary to allow it to
make a request to redeem the bonds,” including the
serial numbers of the absent bonds. Id. at 77; see
also id. at 70; Laturner v. United States, 135 Fed. Cl.
501, 505 (2017).
The Claims Court certified its summary judgment
orders for interlocutory appeal under 28 U.S.C.
§ 1292(d)(2),4 noting that identifying the absent
bonds would be time-intensive and expensive and
4 The language of section 1292(d)(2) ‘‘is virtually identical to
28 U.S.C. § 1292(b) . . . which governs interlocutory review by
other courts of appeals.’’ United States v. Connolly, 716 F.2d
882, 883 n.1 (Fed. Cir. 1983) (en banc).

8a
that there are eight other pending cases in which
other states are asserting similar claims. The court
also stayed the proceedings pending appeal.
We granted the government’s petitions for leave to
appeal and consolidated the appeals. We have jurisdiction under 28 U.S.C. § 1292(d)(2).
DISCUSSION
I
We first address whether, as the government
contends, the Treasury regulations governing U.S.
savings bonds preempt the States’ escheat laws
regarding unredeemed savings bonds. The parties
assume that the regulations in effect before December 24, 2015, are the relevant regulations.5 We proceed
on that assumption.
A
The Constitution limits state sovereignty “by
granting certain legislative powers to Congress while
providing in the Supremacy Clause that federal law
is the ‘supreme Law of the Land . . . any Thing in the
Constitution or Laws of any State to the Contrary
notwithstanding.’ ” Murphy v. NCAA, ––– U.S. –––,
138 S. Ct. 1461, 1476, 200 L.Ed.2d 854 (2018) (quot5 The government’s position is that the relevant regulations
are those ‘‘that were in effect at the time the requests were
made’’—that is, in May 2013 (for Kansas) and in November
2015 (for Arkansas), respectively. Gov’t Open. Br. at 7 n.3.
(There was no change in the regulations between these dates.)
The Claims Court indicated that it was applying the regulations
in effect when the States filed their complaints—that is, in
December 2013 (for Kansas) and in November 2015 (for Arkansas), respectively. The States’ position is somewhat unclear,
though they agree that the pre-amendment regulations apply
to this case. Given the parties’ agreement as to the relevant
regulations, we assume that the regulations in effect at the time
the bonds were issued were not materially different.

9a
ing U.S. Const. art. VI, cl. 2) (internal citation omitted). “This means that when federal and state law
conflict, federal law prevails and state law is
preempted.” Id. The Supreme Court has “identified
three different types of preemption—‘conflict,’ ‘express,’
and ‘field,’ but all of them work in the same way:
Congress enacts a law that imposes restrictions or
confers rights on private actors; a state law confers
rights or imposes restrictions that conflict with the
federal law; and therefore the federal law takes precedence and the state law is preempted.” Id. at 1480
(internal citation omitted). For example, in Arizona
v. United States, 567 U.S. 387, 132 S.Ct. 2492, 183
L.Ed.2d 351 (2012), the Court held that federal
statutes “provide a full set of standards governing
alien registration” and therefore “foreclose any state
regulation in the area.” Id. at 401, 132 S.Ct. 2492.
In Murphy, the Court elaborated that “[w]hat this
means is that the federal registration provisions not
only impose federal registration obligations on aliens
but also confer a federal right to be free from any
other registration requirements.” 138 S. Ct. at 1481.
Authorized Federal regulations can preempt just as
federal statutes can. See Hillsborough Cty. v. Automated Med. Labs., Inc., 471 U.S. 707, 713, 105 S.Ct.
2371, 85 L.Ed.2d 714 (1985).
The Supreme Court’s decision in Free v. Bland,
369 U.S. 663, 82 S.Ct. 1089, 8 L.Ed.2d 180 (1962)
illustrates how preemption applies in the context of
the U.S. savings bond program. In that case, Treasury regulations provided that when one bond owner
died, the surviving co-owner (there, the decedent’s
husband) became the sole owner of the bond. Id. at
664-65, 82 S.Ct. 1089. Under Texas state community
property laws, however, the principal beneficiary

10a
under the decedent’s will (there, the decedent’s son)
was entitled to a one-half interest in the bonds—
despite not being a co-owner of the bond under
Treasury regulations. Id. The Court held that the
state law was preempted because it prevented bond
owners “from taking advantage of the survivorship
provisions” of the Treasury regulations. Id. at 66970, 82 S.Ct. 1089. The Court reasoned that “Federal
law of course governs the interpretation of the nature
of the rights and obligations created by the Government bonds,” id. at 669-70, 82 S.Ct. 1089 (quoting
Bank of Am. Tr. & Sav. Ass’n v. Parnell, 352 U.S. 29,
34, 77 S.Ct. 119, 1 L.Ed.2d 93 (1956)), and a state
may not “fail[ ] to give effect to a term or condition
under which a federal bond is issued,” id. at 669, 82
S.Ct. 1089. In other words, Treasury regulations
conferred a right on bond holders which Texas state
law impermissibly restricted.
Here there is a similar conflict between state and
Federal law. Federal law confers on bond holders the
right to keep their bonds after maturity. Congress
specifically authorized Treasury to prescribe regulations providing that “owners of savings bonds may
keep the bonds after maturity,” 31 U.S.C. § 3105(b)(2)(A),
as well as regulations setting forth “the conditions,
including restrictions on transfer, to which they will
be subject,” id. § 3105(c)(3), and the “conditions governing their redemption,” id. § 3105(c)(4). Treasury
regulations impose no time limit on the redemption
of savings bonds. See, e.g., 31 C.F.R. § 315.35(c) (“A
series E bond will be paid at any time after two
months from issue date at the appropriate redemption value . . . .” (emphasis added)); New Jersey, 684
F.3d at 409 (“[U]nder federal law . . . the owners of
the bonds may redeem them at any time after they

11a
mature . . . .”). And 31 C.F.R. § 315.15 provides that
“[s]avings bonds are not transferable and are payable
only to the owners named on the bonds, except as
specifically provided in these regulations and then
only in the manner and to the extent so provided.”
See also id. § 315.5(a) (providing that savings bonds
“are issued only in registered form” and “must
express the actual ownership of ” the bond, and that
“registration is conclusive of ownership” with limited
exceptions). Federal law thus confers on bond holders “a federal right to engage in certain conduct”—
the right to keep their bonds after maturity without
the bonds expiring—“subject only to certain (federal)
constraints.” See Murphy, 138 S. Ct. at 1480.
The States’ escheat laws on the other hand impermissibly restrict the bond holder’s right to retain
ownership of the bonds. Under the escheat laws,
if bond holders do not redeem their bonds promptly
enough (as decided by the States), they lose ownership and the bonds will transfer to the state. Absent
Federal law authorizing such a state law restriction,
the result is clear: “the federal law takes precedence
and the state law is preempted.” Id.
B
The States do not contest that Federal law would
preempt their escheat laws absent Federal authorization for the state legislation. But they contend that
here there is no conflict between Federal law and the
States’ escheat laws because Treasury regulations
themselves permit the transfer of ownership under
escheat laws. They rely on 31 C.F.R. § 315.20(b),
which provides that “Treasury will recognize a claim
[of bond ownership by a third party] . . . if established
by valid, judicial proceedings, but only as specifically
provided in this subpart” (emphasis added)—i.e.,

12a
subpart E (§§ 315.20-23). The States contend that
their escheat proceedings constitute “valid, judicial
proceedings” under this regulation. Although the
Third Circuit in the New Jersey litigation did not
decide the question before us, the States quote
language from the Third Circuit’s opinion that “as
provided in the federal regulations and as recognized
by the Treasury, third parties, including the States,
may obtain ownership of the bonds—and consequently the right to redemption—through ‘valid[ ] judicial
proceedings,’ 31 C.F.R. § 315.20(b).” 684 F.3d at
412-13 (alteration in original).
The States also argue that Treasury has made
repeated statements interpreting § 315.20(b) to allow
escheat-based claims so long as the state has title
(which the States allegedly have here). The States
rely on two sets of statements: first, statements
Treasury made in denying past escheat claims by
various states; and second, portions of Treasury’s
briefing in the New Jersey litigation. Treasury
responds that its prior statements are entirely
consistent with its present position that it “considers
escheat-based redemption claims as an exercise of its
discretionary waiver authority under provisions such
as 31 C.F.R. § 315.90, rather than under § 315.20(b),”
and that it grants such a waiver only when a state
has both title and possession. Gov’t Open. Br. at 16
& n.8.
Paradoxically, the States disclaim any reliance on
Auer deference, but offer no other basis for deferring
to Treasury’s supposed interpretation of its regulations. In any event, there is no basis for Auer deference here. As the Supreme Court recently clarified,
“a court should not afford Auer [v. Robbins, 519 U.S.
452, 117 S.Ct. 905, 137 L.Ed.2d 79 (1997)] deference

13a
unless the regulation is genuinely ambiguous,” Kisor
v. Wilkie, ––– U.S. –––, 139 S. Ct. 2400, 2415, 204
L.Ed.2d 841 (2019), even after applying “all the
‘traditional tools’ of construction,” id. (quoting Chevron
U.S.A. Inc. v. Nat. Res. Def. Council, Inc., 467 U.S.
837, 843 n.9, 104 S.Ct. 2778, 81 L.Ed.2d 694 (1984)).
Even if the regulation is genuinely ambiguous, Auer
deference is not appropriate unless “an independent
inquiry into . . . the character and context of the
agency interpretation” shows that the interpretation
(1) constitutes the agency’s “authoritative” or “official
position,” (2) implicates the agency’s “substantive
expertise,” and (3) reflects the agency’s “fair and
considered judgment” of the issue. Id. at 2416-18.
Although we are dubious that the statements here
(particularly those made in the New Jersey briefs)
reflect Treasury’s “fair and considered judgment” on
the question of whether 31 C.F.R. § 315.20(b) requires
Treasury to recognize escheat claims, id. at 2417
& n.6, we need not decide that question. Nor need
we decide whether Treasury’s earlier interpretations
were overridden by its more recent interpretations
of the regulations. That is so because using “the
‘traditional tools’ of construction,” the Treasury regulations are not “genuinely ambiguous,” and thus Auer
deference is inappropriate. Id. at 2415.
The regulation on which the States rely,
§ 315.20(b), states that Treasury will recognize the
“judicial proceedings” “only as specifically provided
in this subpart” (emphasis added). The only judicial
proceedings specifically provided in the subpart are
those for bankruptcy (§ 315.21), divorce (§ 315.22),
and proceedings finding a person to be entitled to the
bond “by reason of a gift causa mortis” (a gift made
in contemplation of impending death) “from the

14a
sole owner” (§ 315.22). Escheat proceedings are not
mentioned. Accordingly, the general prohibition on
transfers of ownership contained in § 315.15 applies.
The States advance a contrary interpretation of the
regulation, arguing that § 315.20(b)’s “only as specifically provided in this subpart” limitation refers to
“the manner in which judicial proceedings will be
recognized, not the sorts of proceedings that will be
recognized.” Kansas Resp. Br. at 31 (emphasis in
original). This is not a tenable reading of the regulation. A different provision, § 315.23, already specifies
how to prove the validity of a proceeding, such as by
providing certified copies of the judgment. The “only
as specifically provided in this subpart” language in
§ 315.20(b) plainly refers to the types of judicial
proceedings that will be recognized.
The States also assert that § 315.20(a), not
§ 315.20(b), exclusively defines the transfers of
ownership that Treasury will not recognize. Section
315.20(a) states that Treasury “will not recognize
a judicial determination that gives effect to an
attempted voluntary transfer inter vivos of a bond”
or that “impairs the rights of survivorship conferred
by these regulations upon a coowner or beneficiary.”
Contrary to the States’ argument, § 315.20(a) simply
lists additional transfers that Treasury will not
recognize. It hardly suggests that all other transfers
are valid.
In short, we reject the States’ contention that
Treasury regulations permit the transfer of ownership under escheat laws. To the contrary, the plain
language of the regulations confers on bond holders
the right to retain their bonds without losing ownership if they do not redeem the bonds within a time
limit set by the States.

15a
While we do not rely on it, we note that Treasury
in December 2015 confirmed this interpretation of its
regulation when it amended § 315.20 to specifically
provide that “[e]scheat proceedings will not be recognized under this subpart.” Treasury also added a
new regulation, section 315.88, providing that Treasury “will not recognize an escheat judgment that
purports to vest a State with title to a bond that the
State does not possess”—as is the case here—“or a
judgment that purports to grant the State custody of
a bond, but not title”—as was the case in the New
Jersey litigation.6
II
There is an additional reason that the States cannot prevail. The States concede that even if Federal
law recognized them as the rightful bond owners,
they could have no greater rights than the original
bond owners. See Oral Arg. at 35:45-36:00. In
general, a bond owner must “present the bond to an
authorized paying agent for redemption.” 31 C.F.R.
§ 315.39(a). The States cannot do so here since

6 In Estes v. U.S. Dep’t of the Treasury, the states argued that
the amended regulations were arbitrary and capricious because
they represented a change in policy without an explanation for
that change. See 219 F. Supp. 3d 17, 27-28; Encino Motorcars,
LLC v. Navarro, ––– U.S. –––, 136 S. Ct. 2117, 2125, 195
L.Ed.2d 382 (2016) (‘‘Agencies are free to change their existing
policies so long as they provide a reasoned explanation for the
change.’’) The district court rejected this argument, holding
that the amended regulation was not a policy change but rather
‘‘a clarification of prior guidance’’ and ‘‘simply elaborated on
the standards’’ followed by Treasury before. Estes, 219 F. Supp.
3d at 27-31. The court also rejected the states’ Constitutional
challenges (based on the Appointments Clause and Tenth
Amendment) to the amended regulations, id. at 37-41, and the
States do not renew those arguments here.

16a
they do not have physical possession of the bonds.7
However, the States advance several reasons for why
they need not present the physical bonds for redemption.
A
The States maintain that they need not present the
physical bonds because the bonds should be considered “lost” and the States can meet the requirements
for redeeming lost bonds. The Claims Court agreed.
Under 31 C.F.R. § 315.25, “[r]elief, by the issue of a
substitute bond or by payment, is authorized for the
loss . . . of a bond after receipt by the owner.” When
a bond is lost, “the savings bond must be identified
by serial number and the applicant must submit
satisfactory evidence of the loss.” Id. There is an
exception to the serial number requirement: “If the
bond serial number is not known, the claimant must
provide sufficient information to enable” the government “to identify the bond by serial number.” 31
C.F.R. § 315.26(b). But if an owner seeks to redeem
the bond “six years or more after the final maturity
of a savings bond”—which applies to all bonds at
issue here—“[n]o claim . . . will be entertained, unless
the claimant supplies the serial number of the bond.”
31 C.F.R. § 315.29(c). In other words, the regulations
foreclose the option of redeeming a bond by providing
other identifying information when the bonds at
issue are six years or more past maturity.
7 As discussed above, there is no issue here regarding bonds
that the States possess. Treasury allowed the States to redeem
such bonds, invoking its authority under 31 C.F.R. § 315.90
to waive the provisions that only the original bond owner may
redeem the bond, e.g., 31 C.F.R. § 315.15. And when a state
possesses the bonds, it is of course able to present the physical
bonds for payment.

17a
The government contends that the bonds here are
not “lost” within the meaning of the regulations,
because here there is no evidence that the bonds
have been lost by the original owners. We need not
resolve this issue, because even if the bonds here
are considered lost, the States do not have the bond
serial numbers as required by 31 C.F.R. § 315.29(c).
B
Kansas argues that it is entitled to relief under the
regulation governing “nonreceipt of a bond,” 31 C.F.R.
§ 315.27, which does not require the bond owner to
provide the serial number. That regulation provides
that “[i]f a bond issued on any transaction is not
received, the issuing agent must be notified as
promptly as possible and given all information available about the nonreceipt.” Id. “If the application
is approved, relief will be granted by the issuance
of a bond bearing the same issue date as the bond
that was not received.” Id. This regulation does not
apply here. It is directed at the situation where an
individual purchases a bond but does not receive it—
in other words, where Treasury fails to deliver the
bond to the original owner. Indeed, Arkansas (unlike
Kansas) recognizes that this provision governs “those
cases where a bond ‘is not received’ by the original
owner in the first place”—which is not the situation
here. Arkansas Resp. Br. at 50.
C
Arkansas contends that if it can properly claim
ownership of the bonds under 31 C.F.R. § 315.20—
an argument rejected earlier in part I—it need
not present the physical bonds or the bond serial
numbers. There is no basis for this contention in the
regulations. The provisions in 31 C.F.R. §§ 315.20-23
lay out requirements for establishing ownership

18a
when ownership transferred due to proceedings such
as bankruptcy or divorce. They also establish certain
circumstances in which Treasury will not recognize
the transfer of ownership, such as when judicial proceedings are still pending. See 31 C.F.R. § 315.20(c)
(stating that Treasury “will not accept a notice of an
adverse claim or notice of pending judicial proceedings”). But the general requirements for redeeming a
bond—such as presenting the physical bond, or, if the
bond is lost, providing the serial number—still apply,
and the States cannot meet them.8
D
Finally, both States argue that even if they must
provide the bond serial numbers, the government
has the obligation under the Freedom of Information
Act (“FOIA”) to disclose those serial numbers to
the States, or, alternatively, that the government
8

Alternatively, Arkansas argues that since Treasury has
exercised its waiver authority under 31 C.F.R. § 315.90(a) to
allow states to redeem bonds where the states had both title
and possession, its refusal to extend such a waiver here ‘‘violates
its duty of good faith and fair dealing’’ implicit in the bond
contract. Arkansas Resp. Br. at 53-54. We disagree. When a
state has possession and title, Treasury has been willing to
waive the prohibition on transfers of ownership and the requirement that only the registered owner may redeem a bond. See
31 C.F.R. § 315.15. But Treasury does not waive the requirement that the owner must present the physical bond (or, if
applicable, the bond serial number). See 31 C.F.R. §§ 315.39(a),
315.25, 315.29(c). Treasury’s refusal to waive those requirements here does not violate the provisions of the bond contract,
and the ‘‘implied duty of good faith and fair dealing cannot
expand a party’s contractual duties beyond those in the express
contract or create duties inconsistent with the contract’s provisions.’’ Dobyns v. United States, 915 F.3d 733, 739 (Fed. Cir.
2019) (quoting Precision Pine & Timber, Inc. v. United States,
596 F.3d 817, 831 (Fed. Cir. 2010)).

19a
through discovery may be compelled to ascertain the
serial numbers.
The States suggest that the government is obligated to provide serial numbers in response to a FOIA
request, citing 31 C.F.R. § 323.2(b). But that regulation merely restricts who may obtain information
through a FOIA request, providing that securities
records “will ordinarily be disclosed only to the
owners of such securities.” Id. (emphasis added). It
does not specify what information may be obtained
and under which circumstances. In any event,
whether the States have the right to obtain serial
numbers of bonds through a FOIA request is not
before us. Kansas filed such a FOIA request, which
Treasury denied.9 Kansas did not pursue further
review in court, which it would have had to seek
in district court. See 5 U.S.C. § 552(a)(4)(B). The
Claims Court therefore properly declined to rely on
FOIA, noting that it has no jurisdiction over denials
of FOIA requests. See Laturner, 135 Fed. Cl. at 505
n.3.
Alternatively, the States argue that they should be
entitled to obtain the bond serial numbers through
the ordinary discovery process. While the Claims
Court opinion is not entirely clear, it appears to have
agreed. However, the court recognized in certifying
its orders for interlocutory appeal that “the burdens
of discovery going forward (both in terms of effort
9 Treasury’s denial of Kansas’s FOIA request rested on two
grounds. First, Treasury stated that it lacked responsive
records because its records are not compiled or searchable by
the state listed in the bond’s registration. Second, it determined
that disclosing bond records to someone other than the registered owner would, under the circumstances, constitute an
unwarranted invasion of personal privacy pursuant to FOIA
Exemption 6. See 5 U.S.C. § 552(b)(6).

20a
and expense) will undoubtedly be formidable given
the state of Treasury’s savings bond records.” J.A. 5.
Treasury’s bond records are not digitized and therefore not computer-searchable. Nor are they organized
by the state listed in the bond’s registration. For
that reason, locating the serial numbers of the bonds
would require manually searching approximately
3.8 billion savings bonds records to identify those
whose registered owners had an address in Kansas
or Arkansas. Treasury estimates that locating these
bonds here would cost $100 million and take over
2,000 years of employee time. J.A. 817.
We need not decide whether locating the bond serial
numbers would be unduly burdensome such that it
would be an abuse of discretion to grant the States’
discovery request. That is so because requiring the
government to disclose the bond serial numbers as a
matter of discovery would impermissibly circumvent
the requirement in 31 C.F.R. § 315.29(c) that the
bond owner provide the serial number to redeem
a bond six or more years past maturity. Adopting
the States’ position would effectively eliminate this
requirement, as a bond holder could always file suit
and then obtain the serial number through discovery.
This would contravene the principle that the Federal
Rules of Civil Procedure cannot “enlarge or modify
any substantive right.” 28 U.S.C. § 2072(b); see
Shady Grove Orthopedic Assocs., P.A. v. Allstate Ins.
Co., 559 U.S. 393, 423, 130 S.Ct. 1431, 176 L.Ed.2d
311 (2010) (Stevens, J., concurring) (“A federal rule
. . . cannot govern a particular case in which the rule
would displace a state law that . . . functions to define
the scope of the state-created right.”); Semtek Int’l
Inc. v. Lockheed Martin Corp., 531 U.S. 497, 503-04,
121 S.Ct. 1021, 149 L.Ed.2d 32 (2001) (noting that

21a
if state law granted a particular right, “the federal
court’s extinguishment of that right” through application of a Rule of Civil Procedure “would seem to
violate this limitation” contained in § 2072(b)).
The Second Circuit’s decision in Federal Treasury
Enterprise Sojuzplodoimport v. SPI Spirits Ltd., 726
F.3d 62 (2d Cir. 2013), provides an illustration.
There, the plaintiff sought to sue for trademark
infringement under the Lanham Act, but could not
meet the Lanham Act’s statutory standing requirement, which “permits only ‘registrants’ to bring
actions for infringement of registered marks.” Id. at
83. The plaintiff was not the registrant but argued
that it could nonetheless bring suit because the real
party in interest had ratified the plaintiff ’s suit as
permitted by Federal Rule of Civil Procedure 17(a).
The Second Circuit held that the corporation could
not use Rule 17(a) “to bypass the standing requirement” in the Lanham Act. Id. at 83. The court
reasoned that “[t]o enlarge standing [by applying
Rule 17] would extend the entitlement to sue to a
new party that is otherwise unauthorized under the”
Lanham Act, and thus “amount to an improper
expansion of the substantive rights provided by the
Act.” Id.; see also Eden Toys, Inc. v. Florelee Undergarment Co., 697 F.2d 27, 32 n.3 (2d Cir. 1982)
(“While [Federal Rule of Civil Procedure 17(a)] ordinarily permits the real party in interest to ratify a
suit brought by another party, the Copyright Law
is quite specific in stating that only the ‘owner of
an exclusive right under a copyright’ may bring
suit.” (internal citation omitted) (quoting 17 U.S.C.
§ 501(b) (1980))), superseded on other grounds by
Fed. R. Civ. P. 52(a).

22a
Similarly, here the States cannot use the discovery
rules to bypass the serial number requirement of
the Treasury regulations. Allowing the States to
do so would improperly expand the substantive right
to payment under the Treasury regulations, since
it would extend the right to receive payment to
circumstances in which the claimant would otherwise
not be entitled to payment.
This is also a situation in which the bond holders
have agreed to the requirements of the Treasury
regulations as part of the bond contract. It is wellestablished that “before suit has been filed, before
any dispute has arisen,” parties may waive various
rights through contract—even those based in the
Constitution, such as due process rights to notice and
a hearing. D. H. Overmyer Co. v. Frick Co., 405 U.S.
174, 184-85, 92 S.Ct. 775, 31 L.Ed.2d 124 (1972);
see also Herman Miller, Inc. v. Thom Rock Realty Co.,
46 F.3d 183, 189 (2d Cir. 1995) (enforcing contract
provision waiving right to a jury trial). It follows
that even if bond holders might otherwise be entitled
to certain discovery, they may limit that right by
agreeing to the terms of the bond contract, which
require them to present the physical bonds or the
bond serial numbers for payment.
III
Finally, the States assert that Treasury’s denial of
their redemption requests was a “taking” of their
property. The essence of a takings claim is that
the government “takes possession of an interest in
property for some public purpose” and must therefore
“compensate the former owner.” Tahoe-Sierra Pres.
Council, Inc. v. Tahoe Reg’l Planning Agency, 535 U.S.
302, 322, 122 S.Ct. 1465, 152 L.Ed.2d 517 (2002). But
here the government has not taken possession of any

23a
interest in the bonds. The bonds remain the property
of the original owners, who under Treasury regulations retain the right to redeem the bonds at any
time. The States simply do not have a property
interest in the bonds, and, even if they did, they can
have no greater property interest than the original
owners. See A & D Auto Sales, Inc. v. United States,
748 F.3d 1142, 1151 (Fed. Cir. 2014) (“[T]he existence of a valid property interest is necessary in
all takings claims.” (quoting Wyatt v. United States,
271 F.3d 1090, 1097 (Fed. Cir. 2001)). Because no
property interest of the States has been impaired,
there can be no taking.
CONCLUSION
Because the States’ escheat laws attempt to transfer ownership of the bonds to the States in contravention of Treasury regulations, they are preempted
by Federal law. In addition, because the States lack
the serial numbers or possession of the bonds at
issue, they could not redeem the bonds even if they
validly owned them.
We reverse the judgment below and remand with
instructions to enter summary judgment for the
government.
REVERSED
COSTS
No costs.

24a
UNITED STATES COURT OF FEDERAL CLAIMS
__________
No. 13-1011C
JAKE LATURNER, TREASURER OF THE
STATE OF KANSAS,
Plaintiff,
v.
UNITED STATES,
__________

Defendant.

[Filed: December 1, 2017]
__________
OPINION AND ORDER
KAPLAN, Judge.
On August 8, 2017, this Court issued an Opinion
and Order (Order) granting the motion for partial
summary judgment filed by Plaintiff Jake LaTurner,
Treasurer of the State of Kansas (Kansas). See LaTurner v. United States, 133 Fed.Cl. 47 (2017); see
also Estes v. United States, 123 Fed.Cl. 74 (2015)
(denying the government’s motion to dismiss). The
Court ruled that under the Department of Treasury’s
regulations, Kansas is the rightful owner of certain
U.S. savings bonds that it does not possess but to
which it asserted title pursuant to a state court
judgment of escheat issued under the authority of
the Kansas Disposition of Unclaimed Property Act
(Unclaimed Property Act). See LaTurner, 133 Fed.Cl.
at 69. The federal government has now filed a motion
under 28 U.S.C. § 1292(d)(2) to certify this Court’s

25a
Order for interlocutory appeal and to stay proceedings pending appeal. See Def.’s Mot. to Certify the
Court’s Order of Aug. 8, 2017 for Interlocutory Appeal
and to Stay Proceedings Pending Appeal (Def.’s Mot.),
ECF No. 108.
For the reasons set forth below, the Court agrees
that its August 8, 2017 opinion involves “a controlling question of law . . . with respect to which there
is a substantial ground for difference of opinion and
that an immediate appeal . . . may materially advance
the ultimate termination of the litigation.” See 28
U.S.C. § 1292(d)(2). Accordingly, the motion to certify
is GRANTED. In addition, the government’s motion
to stay proceedings pending appeal is also GRANTED.
DISCUSSION
I. The Motion to Certify
Section 1292(d)(2) of Title 28 provides, in pertinent
part, as follows:
[W]hen any judge of the United States Court of
Federal Claims, in issuing an interlocutory order,
includes in the order a statement that a controlling question of law is involved with respect to
which there is a substantial ground for difference
of opinion and that an immediate appeal from
that order may materially advance the ultimate
termination of the litigation, the United States
Court of Appeals for the Federal Circuit may, in
its discretion, permit an appeal to be taken from
such order, if application is made to that Court
within ten days after the entry of such order.1
1 The language of section 1292(d)(2) ‘‘is virtually identical to
28 U.S.C. § 1292(b) . . . which governs interlocutory review by
other courts of appeals.’’ United States v. Connolly, 716 F.2d

26a
Thus, to certify an interlocutory appeal of its order,
the Court must find that the order (1) “involves a
controlling question of law,” (2) “as to which there
is substantial ground for difference of opinion,” and
(3) “that an immediate appeal may materially
advance the ultimate termination of the litigation.”
As the Wright and Miller treatise observes, “[t]he
three factors should be viewed together as the statutory language equivalent of a direction to consider
the probable gains and losses of immediate appeal.”
16 Charles Alan Wright et al., Fed. Prac. & Proc.
Juris. § 3930 (3d ed. Apr. 2017 Update) (footnote
omitted).
The Court finds that its Order involves a “controlling question of law.” Thus, the federal government’s
liability in this case turns largely on the proper
interpretation of a Treasury Department regulation
that was in effect at the time Kansas requested
redemption of the bonds at issue. That regulation—
31 C.F.R. § 315.20(b) (2012)—then provided that
Treasury “will recognize a claim against an owner
of a savings bond . . . if established by valid, judicial
proceedings, but only as specifically provided in this
subpart.”2
882, 883 n.1 (Fed. Cir. 1983) (en banc). ‘‘Because the operative
language is identical, the legislative history and case law governing the interpretation of section 1292(b) is persuasive in
reviewing motions for interlocutory appeal under section
1292(d)(2).’’ Abbey v. United States, 89 Fed.Cl. 425, 429 (2009)
(citation omitted).
2 On July 1, 2015 (while the government’s motion to dismiss
in this case was pending), Treasury issued a Notice of Proposed
Rulemaking in which it proposed revising its savings bond
regulations to expressly address state court judgments of escheat
pursuant to title-based unclaimed property laws. See Regulations Governing U.S. Savings Bonds, 80 Fed. Reg. 37,559-01

27a
As described in its prior decisions in this case,
the Court held that the state-law proceedings that
purported to vest Kansas with title to the savings
bonds at issue, which had been deemed abandoned
under state law, were “valid judicial proceedings”
within the meaning of the regulation and that Kansas was therefore the owner of those bonds. In so
holding, the Court rejected the federal government’s
interpretation of the Treasury regulations (which it
found inconsistent with both the language of the
regulations and the position that Treasury had
previously taken regarding the effect of a state court
judgment of escheat on bond ownership). It also
rejected the federal government’s contentions: 1) that
the Unclaimed Property Act was preempted by federal law; 2) that the state court judgment was invalid
under the doctrine of intergovernmental immunity;
and 3) that the state court judicial proceedings
violated the due process rights of the former owners
of the absent bonds. Further, the Court rejected as
premature the federal government’s argument that
even assuming that Kansas owned the bonds pursuant to the state court escheat proceedings, Treasury
regulations precluded it from recovering the proceeds
of bonds that were not in the state’s possession.
(July 1, 2015). After a period of notice and comment, Treasury
issued the final revised regulations on December 24, 2015.
Regulations Governing U.S. Savings Bonds, 80 Fed. Reg.
80,258-01 (Dec. 24, 2015). As relevant to the issue presented
in this case, the revised rule amended 31 C.F.R. § 315.20(b) to
add a sentence stating that ‘‘[e]scheat proceedings will not be
recognized under this subpart.’’ Id. at 80,264. It also added a
new provision, § 315.88, which stated that Treasury ‘‘may, in its
discretion, recognize an escheat judgment that purports to vest
a State with title to a definitive savings bond that has reached
the final extended maturity date’’ but only if the bond ‘‘is in the
State’s possession.’’ Id.

28a
The issues the Court decided in granting-in-part
Kansas’s motion for partial summary judgment were
purely legal ones. The legal issues were “controlling”
because—if the Court had agreed with the federal
government’s position—then the result would have
been judgment as a matter of law in favor of the
government. Instead, the Court has concluded that
title to the absent bonds lies with Kansas, which may
entitle it to an award of damages given Treasury’s
refusal to grant Kansas’s request to redeem the bonds.
The Court reached its decision after careful consideration of the legal issues presented and the parties’
arguments, and is convinced that its decision is
correct. Nonetheless, the questions of regulatory
interpretation presented in this case involve issues
of first impression. Moreover, the Department of
Treasury recently engaged in a formal rulemaking
process in which it promoted an interpretation of its
former regulations that is at odds with the Court’s
views. See 80 Fed. Reg. at 80,258-60.
In addition, in Estes v. United States Department
of the Treasury, 219 F.Supp.3d 17 (D.D.C. 2016),
Judge Cooper—albeit in another context—took a somewhat different view of the Department of Treasury’s
previous pronouncements regarding whether Treasury would recognize state claims of bond ownership
based on state court escheat judgments. This Court
concluded that for more than sixty years, the Department of Treasury had advised inquiring states, the
public, and the federal courts (including the Supreme
Court) that it would recognize claims of ownership
that were based on judgments pursuant to titlebased escheatment statutes like Kansas’s. Judge
Cooper found it less clear than did this Court that
Treasury’s prior statements governing the recognition

29a
of state ownership claims applied when the state did
not have the bonds in its possession. See Estes v.
U.S. Dep’t of the Treasury, 219 F.Supp.3d at 28-30.
Given that this Court relied at least in part on the
Department of Treasury’s historical interpretation of
its regulations, Judge Cooper’s perspective provides
another basis for the Court to conclude that there
exist grounds for a difference of opinion regarding
this Court’s opinion on this controlling legal issue.3
Finally, the Court is of the view that an immediate
appeal of its disposition of these legal issues “may
materially advance the ultimate termination of the
litigation.” The parties differ wildly in their estimates of the time and expense of the discovery that
will be required to resolve the remaining issues in
this case. On the one hand, the government claims
that in order to comply with its discovery obligations,
Treasury will be required to search “approximately
3.8 billion savings bond records, at an estimated cost
exceeding $100 million and a level of effort exceeding
2000 years of employee time.” See Def.’s Mot. App.
at 2, ECF No. 108-1 (Declaration of Michael J.
McDougle) (emphasis in original). Kansas, on the
other hand, argues that the government’s estimates
are “demonstrably false” and that “existing technol3 The federal government contends that this Court decided a
controlling question of law by supposedly ‘‘suggest[ing] that
Kansas was entitled to receive the bond serial numbers . . .
pursuant to 31 C.F.R. §§ 1.5 and 323.2,’’ Treasury’s regulations
implementing the Freedom of Information Act (FOIA). Def.’s
Mot. at 10-12. The Court referenced those regulations only in
summarizing Kansas’s argument. See LaTurner, 133 Fed.Cl.
at 65. It did not make any determination regarding Kansas’s
right to secure such information under FOIA, which the federal
government correctly points out would be beyond this Court’s
jurisdiction. See Def.’s Mot. at 11.

30a
ogies will enable the parties to identify Kansas’s
bonds efficiently and cost-effectively, without the
type of costly and time-consuming reorganization of
records Treasury proposes.” Pl.’s Resp. in Opp’n to
Def.’s Mot. to Certify the Court’s Order of Aug. 8,
2017 for Interlocutory Appeal and to Stay Proceedings Pending Appeal (Pl.’s Opp’n) at 16, ECF No.
111.
As Wright and Miller observe, “[t]he advantages of
immediate appeal increase” with, among other conditions “the length of the district court proceedings
saved by reversal of an erroneous ruling, and the
substantiality of the burdens imposed on the parties
by a wrong ruling.” Wright et al., supra, § 3930.
Regardless of which party’s estimates are more
accurate, the Court does not doubt that considerable
effort and expense will be required to identify the
absent bondholders whose last known addresses were
in Kansas. Thus, at the present time, the savings
bond records are either contained on microfilm or
have been digitized from microfilm but are not readily
searchable by address. Further, there are currently
eight other cases in this Court in which other states
assert claims similar to those asserted by Kansas.4 If
the Court’s decision is found erroneous by the court
of appeals on interlocutory review, it will save both
4 See Sattgast v. United States, No. 15-1364 (South Dakota);
Kennedy v. United States, No. 15-1365 (Louisiana); Lea v. United
States, No. 16-43, 2017 WL 5929229 (Arkansas); Ball v. United
States, No. 16-221 (Kentucky); Fitch v. United States, No. 16-231
(Mississippi); Loftis v. United States, No. 16-451 (South Carolina);
Zoeller v. United States, No. 16-699 (Indiana); Atwater v. United
States, No. 16-1482 (Florida). With the exception of Lea, on
which the Court ruled the same day that it ruled in the present
case, the Court has stayed the other cases pending disposition
of the instant case.

31a
the parties and the Court from bearing the burden of
an enormous and unnecessary expenditure of effort.
In fact, under the circumstances, it is clear to the
Court that an immediate appeal “may materially
advance the ultimate termination of the litigation”
even if the court of appeals agrees with this Court’s
reasoning and affirms its decision. Thus, the government likely will remain reluctant to make the investments that will be needed to identify the relevant
former bond owners and to redeem the absent bonds
to Kansas (or the other states) before the ownership
issue has been finally adjudicated. The Court thus
anticipates that contentious and protracted discovery
and damages phases lie ahead in this case if they
must proceed before an authoritative determination
on that question. On the other hand, the Court
expects that if its ruling is upheld through subsequent appeals, the parties may be able to work on a
cooperative basis to resolve the practical and logistical challenges of the remainder of the litigation.
II. The Government’s Request for a Stay
Section 1292(d)(3) of Title 28 provides that
“[n]either the application for nor the granting of an
appeal under this subsection shall stay proceedings
in the . . . Court of Federal Claims . . . unless a stay
is ordered by a judge of the . . . Court of Federal
Claims or by the United States Court of Appeals
for the Federal Circuit or a judge of that court.” The
government asks the Court to exercise its discretion
to stay the proceedings in this case pending appeal
on the grounds that “further proceedings in this case
would impose massive burdens on Treasury and the
taxpayer, jeopardize fragile bond records, and invade
the privacy rights of U.S. savings bond owners.”
Def.’s Mot. at 12.

32a
“[T]he power to stay proceedings is incidental to
the power inherent in every court to control the
disposition of the causes on its docket with economy
of time and effort for itself, for counsel, and for
litigants. How this can best be done calls for the
exercise of judgment, which must weigh competing
interests and maintain an even balance.” Air Line
Pilots Ass’n v. Miller, 523 U.S. 866, 879 n.6, 118 S.Ct.
1761, 140 L.Ed.2d 1070 (1998) (quoting Landis v. N.
Am. Co., 299 U.S. 248, 254-55, 57 S.Ct. 163, 81 L.Ed.
153 (1936)) (alteration in original).
In this case, the Court concludes that a stay of
proceedings is warranted for the same reasons that
it has decided to certify its decision for interlocutory
appeal in the first instance. As noted above, the
burdens of discovery going forward (both in terms of
effort and expense) will undoubtedly be formidable
given the state of Treasury’s savings bond records for
the years in question. On the other hand, Plaintiff
Kansas will not be materially prejudiced by a stay of
proceedings during the pendency of any appeal. And
the Court is not persuaded by Kansas’s assertion
that in the time it takes for an appeal to be adjudicated “Kansas’s prospects of ever obtaining the bond
information to which it is entitled” will be materially
“endanger[ed].” Pl.’s Opp’n at 17-18 (emphasis in
original).
CONCLUSION
On the basis of the foregoing, the federal government’s Motion to Certify the Court’s Order of August
8, 2017 for Interlocutory Appeal and to Stay Proceedings Pending Appeal is GRANTED. The Court’s
Opinion and Order of August 8, 2017 is therefore
AMENDED to include the following express finding:

33a
The Court finds that this order involves a
controlling question of law with respect to which
there is a substantial ground for difference
of opinion and that an immediate appeal from
the order may materially advance the ultimate
termination of the litigation.
Further, this case is STAYED pending the court of
appeals’ disposition of any appeal.
IT IS SO ORDERED.

34a
UNITED STATES COURT OF FEDERAL CLAIMS
__________
No. 13-1011C
JAKE LATURNER, TREASURER OF THE
STATE OF KANSAS,
Plaintiff,
v.
UNITED STATES,
__________

Defendant.

[Filed: August 8, 2017]
__________
OPINION AND ORDER
KAPLAN, Judge.
In this breach-of-contract case, Plaintiff Jake
LaTurner, Treasurer of the State of Kansas (Kansas)
claims that Kansas has obtained title under the
state’s Disposition of Unclaimed Property Act
(Unclaimed Property Act) to a large but unknown
number of matured, unredeemed United States
savings bonds, and that the federal government has
wrongfully failed to redeem those bonds. The bonds,
issued by the United States Department of the
Treasury (Treasury), carry thirty- or forty-year maturity periods. Although Kansas claims that it owns the
bonds, it does not possess the bond certificates that
Treasury issued when the bonds were purchased.
Nevertheless, pursuant to a state court judgment
of escheat, Kansas contends that it has obtained title
to all unredeemed bonds whose holders’ last known

35a
addresses, as shown on Treasury’s records, are in the
state. These bonds are known as the “absent bonds.”
Kansas has moved for partial summary judgment
as to the government’s liability for failing to redeem
the bonds or to provide Kansas with identifying
information about them. The government has also
moved for summary judgment on all of Kansas’s
claims. It contends that, for several reasons, Treasury did not breach the savings bond contracts when
it refused to redeem the absent bonds. Among other
things, it claims that Treasury’s savings bond regulations do not permit transfers of ownership under
the Unclaimed Property Act, and that Kansas’s lack
of possession of the bond certificates is fatal to its
claims; that the Unclaimed Property Act runs afoul
of principles of federal supremacy; and that the state
court judgment of escheat was constitutionally infirm.
For the reasons discussed below, the Court concludes that the government’s arguments lack merit,
and that the undisputed facts entitle Kansas to
summary judgment with respect to its ownership of
the absent bonds and the government’s liability.
Accordingly, the government’s motion for summary
judgment is DENIED, and Kansas’s motion for partial summary judgment is GRANTED.
BACKGROUND
I. The United States Savings Bond Program
and Implementing Regulations
A. Overview
In the exercise of its power to “borrow Money on
the credit of the United States,” U.S. Const. art. I,
§ 8, cl. 2, Congress has authorized Treasury to “issue
savings bonds and savings certificates,” the proceeds
of which “shall be used for expenditures authorized

36a
by law,” 31 U.S.C. § 3105(a); see also Free v. Bland,
369 U.S. 663, 666-67, 82 S.Ct. 1089, 8 L.Ed.2d 180
(1962). Over the years, Treasury has issued such
bonds in various Series, each designated by a letter
of the alphabet. See, e.g., 31 C.F.R. Part 315 (regulations governing Series A, B, C, D, E, F, G, H, J,
and K bonds). Treasury issued the bonds in paper
form until 2012, when it switched to an all-electronic
system. See Treasury Looks Back at 76 Years of
Paper U.S. Savings Bonds As Move to Online Savings
Bonds to Save Taxpayers $120 Million, TreasuryDirect.
gov (Dec. 27, 2011), https://www.treasurydirect.gov/
news/pressroom/pressroom_comotcend1211.htm.
“It is well established that savings bonds are
contracts between the United States and the owners
of the bonds . . . .” Estes v. United States, 123 Fed.Cl.
74, 81 (2015) (citing Treasurer of N.J. v. U.S. Dep’t of
the Treasury, 684 F.3d 382, 387 (3d Cir. 2012) and
Rotman v. United States, 31 Fed.Cl. 724, 725 (1994)).
The contracts’ terms are set forth in Treasury’s
savings bond regulations, found in Part 315 of Title
31 of the Code of Federal Regulations. See id. As
discussed below, the regulations prescribe (among
other things) “the form and amount of an issue
and series”; “the way in which [the savings bonds]
will be issued”; “the conditions, including restrictions
on transfer, to which they will be subject”; and
“conditions governing their redemption.” 31 U.S.C.
§ 3105(c)(1)-(4).
As noted, the bonds typically carry long maturity
periods—often thirty or forty years. See The History
of U.S. Savings Bonds, TreasuryDirect.gov, https://
www.treasurydirect.gov/timeline.htm?src=td & med=
banner & loc=consumer (last visited August 4, 2017).
Treasury issued millions of savings bonds between

37a
the 1940s and the 1970s. See id. Although most of
the matured bonds have been redeemed, millions
remain unredeemed. See Savings Bonds and Notes
(SBN) Tables and Downloadable Files, TreasuryDirect.gov, https://www.treasurydirect.gov/govt/reports/
pd/pd_sbntables_downloadable_files.htm (last updated Apr. 27, 2012). As of March 2012, the value of
such matured, unredeemed savings bonds was
approximately $16 billion. See id.
B. Issuance and Registration
Under Treasury’s regulations, “[s]avings bonds are
issued only in registered form.” 31 C.F.R. § 315.5(a)
(2014).1 This means that “the names of all persons
named on the bond and the taxpayer identification
number (TIN) of the owner, first-named coowner, or
purchaser of a gift bond are maintained on [Treasury’s] records.” Id. § 315.2(n). According to the regulations, “[r]egistration is conclusive of ownership.”
Id. § 315.5(a). Thus, registration “express[es] the
actual ownership of, and interest in, the bond.” Id.
C. Restrictions on Transfer
The regulations contain numerous conditions restricting the transfer of savings bonds and inhibiting
third-party attempts to assert rights against them.
First, § 315.15 establishes that bonds “are not transferable and are payable only to the owners named
on the bonds, except as specifically provided in these
regulations and then only in the manner and to the
extent so provided.” Id.
Next, subsections 315.20-23 set forth “limitations
on judicial proceedings” applicable to “adverse claims
1 Unless otherwise noted, all references to Treasury’s savings
bond regulations are to the regulations in effect on December
20, 2013, the date Kansas filed its complaint.

38a
affecting savings bonds.”2 Id. § 315.20. In particular,
§ 315.20(b) provides that Treasury “will recognize
a claim against an owner of a savings bond . . . if
established by valid, judicial proceedings, but only as
specifically provided in this subpart.” In that regard,
§ 315.20(a) specifies that Treasury “will not recognize
a judicial determination that gives effect to an
attempted voluntary transfer inter vivos of a bond,
or a judicial determination that impairs the rights
of survivorship conferred by these regulations upon
a coowner or beneficiary.” Id. Further, § 315.23(a)
instructs that “[t]o establish the validity of judicial
proceedings,” a claimant must submit “certified
copies of the final judgment, decree, or court order,
and of any necessary supplementary proceedings.”
Before 2015, the regulations did not expressly
mention state court judgments of escheat of the type
at issue in this case. See Estes, 123 Fed.Cl. at 83-86
(analyzing the regulations); see also id. at 90 n.13
(noting that Treasury had proposed revised regulations expressly tailored to state court escheat judgments); Regulations Governing United States Savings
Bonds, 80 Fed. Reg. 80,258-01 (Dec. 24, 2015) (codified at 31 C.F.R. pts. 315, 353, 360) (final rule promulgating the revised regulations).
D. Redemption and Relief for Lost, Stolen,
Destroyed, or Mutilated Bonds
The regulations specify that, as a general matter,
“[p]ayment of a savings bond will be made to the
person or persons entitled under the provisions of
these regulations.” 31 C.F.R. § 315.35(a). Series E
bonds will be paid “at any time after two months
from issue date at the appropriate redemption value,”
2

These four subsections form Subpart E of the regulations.

39a
while Series H bonds “will be redeemed at face value
at any time after six (6) months from issue date.” Id.
§ 315.35(c), (e). Series A, B, C, D, F, and J bonds
“will be paid at face value,” while Series G and K
bonds “will be paid at face value plus the final semiannual interest due.” Id. § 315.35(b), (d).
Subsection 315.39, entitled “[s]urrender for payment,”
provides that individual owners or co-owners of
Series A-E bonds “may present the bond to an authorized payment agent for redemption.” Id. § 315.39(a).
“[F]or all other cases,” the “owner or coowner, or other
person entitled to payment” must “appear before an
officer authorized to certify requests for payment,
establish his or her identity, sign the request for
payment, and provide information as to the address
to which the check in payment is to be mailed.” Id.
§ 315.39(b).
Subsection 315.25 authorizes relief in the event
of “the loss, theft, destruction, mutilation, or defacement of a bond after receipt by the owner.” Id. Such
relief may include “the issue of a substitute bond or
. . . payment.” Id. “As a condition for granting relief,”
Treasury “may require a bond of indemnity, in the
form, and with the surety, or security [Treasury] considers necessary to protect the interests of the United
States.” Id. Further, “[i]n all cases[,] the savings
bond must be identified by serial number and the
applicant must submit satisfactory evidence of the
loss, theft, or destruction.” Id. If the serial number
of the bond is not known, “the claimant must provide
sufficient information to enable [Treasury] to identify
the bond by serial number.” Id. § 315.26(b) (citing id.
§ 315.29(c)).

40a
E. Additional Relevant Regulations
The savings bond regulations also contain a waiver
provision. Id. § 315.90. Under § 315.90, Treasury
“may waive or modify any provision or provisions of
[the] regulations . . . . [i]f such action would not be
inconsistent with law or equity”; “if it does not impair
any existing rights”; and “if [Treasury] is satisfied
that such action would not subject the United States
to any substantial expense or liability.” Further, the
regulations empower Treasury to “require . . . [s]uch
additional evidence as [it] may consider necessary or
advisable, or [to require] [a] bond of indemnity, with
or without surety, in any case in which [it] may
consider such a bond necessary for the protection of
the interests of the United States.” Id. § 315.91.
Finally, Treasury has issued regulations to govern
the disclosure of records and information related
to outstanding securities, including savings bonds.
See id. § 323.2. Specifically, § 323.2(b) states that
“[r]ecords relating to the purchase, ownership of, and
transactions in Treasury securities . . . will ordinarily
be disclosed only to the owners of such securities,
their executors, administrators or other legal representatives or to their survivors.” Id. The regulation
notes that “[t]hese records are confidential because
they relate to private financial affairs of the owners.”
Id. Further, according to Treasury, these records
“fall[ ] within the category of ‘personnel and medical
files and similar files the disclosure of which would
constitute a clearly unwarranted invasion of personal
privacy’ under the Freedom of Information Act (FOIA).”
Id. (citing 5 U.S.C. § 552(b)(6)). Thus, according to
Treasury, such records are exempt from FOIA requests.
See id.

41a
II. Background on State Unclaimed Property
Laws
All fifty states have statutes governing the disposition of unclaimed or abandoned real and personal
property. See David J. Epstein, 1-1 Unclaimed Property Law § 1.06(1) (2017). These laws are “rooted
in the common-law doctrine of escheat, under which
‘[s]tates as sovereigns may take custody of or assume
title to abandoned . . . property.’ ” Estes, 123 Fed.Cl.
at 77 (citation omitted) (quoting Delaware v. New
York, 507 U.S. 490, 497, 113 S.Ct. 1550, 123 L.Ed.2d
211 (1993)) (alterations in original).
For the most part, state unclaimed property laws
are custodial in nature. See Epstein, supra, § 1.06(2).
When a state with a custody-based unclaimed
property law acquires unclaimed property, it “does
not take title to [the] unclaimed property, but takes
custody only, and holds the property in perpetuity
for the owner.” Estes, 123 Fed.Cl. at 77 (quoting
Unif. Unclaimed Prop. Act, prefatory note (1995),
http://www.uniformlaws.org/shared/docs/unclaimed%
20property/uupa95.pdf). Indeed, Kansas’s Unclaimed
Property Act is custodial in nearly every respect.
See Kan. Stat. Ann. § 58-3936 (“Except as otherwise
provided in this act or by other statute of this state,
property that is presumed abandoned, whether located in this or another state, is subject to the custody of
this state . . . .”).
In 2000, however, the Kansas legislature amended
its Unclaimed Property Act with respect to U.S. savings bonds to allow Kansas to take title (rather than
assert custody over) bonds deemed to be abandoned
under the Act. See id. § 58-3979. Specifically, the
relevant provision provides that “United States savings bonds which are unclaimed property [as defined

42a
by the Act] . . . shall escheat to the state of Kansas
three years after becoming unclaimed property . . .
and all property rights to such United States savings
bonds or proceeds from such bonds shall vest solely
in the state of Kansas.”3 Id. § 58-3979(a). Then,
“[w]ithin 180 days . . . the administrator [of the
unclaimed property scheme, i.e., the state treasurer]
shall commence a civil action in the district court
of Shawnee county for a determination that such
United States savings bonds shall escheat to the
state.” Id. § 58-3979(b).
III. Treasury’s Historical Treatment of States’
Attempts to Redeem Bonds Obtained Via
Their Unclaimed Property Laws
As discussed below, the government argues that
the Court owes deference to the interpretation of
Treasury’s regulations that it has proffered in this
case. Because Treasury’s historical application of
its regulations is relevant to whether the Court
owes deference to Treasury’s proffered interpretation, the Court sets forth below Treasury’s historical
treatment of states’ attempts to redeem U.S. savings
bonds in some detail.
A. The 1952 Escheat Decision Regarding Bonds
in Possession and New York’s Custodial
Unclaimed Property Law
Treasury first confronted a state’s attempt to
redeem bonds obtained under an unclaimed property
law in 1952, when it refused the State of New York’s
3 A number of other states have since enacted similar amendments to their unclaimed property laws. See Ark. Code Ann.
§ 18-28-231; Fla. Stat. §§ 717.1382-.83; Ind. Code § 32-34-120.5; Ky. Rev. Stat. Ann. § 393.022; La. Stat. Ann. § 9:182;
Miss. Code Ann. § 89-12-59; S.C. Code Ann. §§ 27-18-75 to -76;
S.D. Codified Laws § 43-41B-44.

43a
request to redeem four bonds in its possession. See
Def.’s Mot. for Summ. J. (Def.’s Mot.) App. at A1,
ECF No. 86-1 (Bureau of the Public Debt, Public
Debt Bulletin No. 111 (Feb. 27, 1952)) (hereinafter
“the 1952 Escheat Decision”). New York obtained the
bonds pursuant to its unclaimed property law after
their owner died intestate in a state institution. Id.
Treasury noted that under New York’s law, the state
took custody of, but not title to, abandoned property.
Id. at A3-4. According to Treasury, under those
circumstances, payment of the bond’s proceeds into
New York’s custody would violate the bond’s terms
(as set forth in Treasury’s regulations). Id. at A2-3.
Treasury explained that such a payment would alter
the rights of the parties to the bond contract by “substitut[ing]” the bondholder’s right to claim redemption from the United States for a right to “prosecute
a claim against the State Comptroller of New York”;
or, alternatively, by exposing the United States to
“the necessity of making double payment” and then
pursuing “a right to claim relief from the Comptroller” itself. See id. at A2.
In Treasury’s view, “[n]either of th[ose] possible
alterations of contract is contemplated in the agreement by which the United States pledges its faith
on its securities.” Id. And, citing Clearfield Trust
Company v. United States, 318 U.S. 363, 366, 63
S.Ct. 573, 87 L.Ed. 838 (1943), Treasury asserted
the supremacy of the rights created by federal law
over the operation of New York’s unclaimed property
law. See id. at A2-3.
Treasury then contrasted New York’s request with
a hypothetical request for payment made by “one
who succeeds to the title of the bondholder” pursuant
to the regulations, such as “the duly qualified repre-

44a
sentative of the estate of a decedent bondholder.” Id.
at A3 (internal quotation and emphasis omitted). In
that case, Treasury stated, payment “is not regarded
as a violation of the agreement, but, on the contrary,
as payment to the bondholder in the person of his
successor or representative.” Id. (emphasis omitted).
“Thus,” Treasury continued, “although the regulations
do not mention such a case, [Treasury] recognizes the
title of the state when it makes a claim based upon a
judgment of escheat.” Id.
B. Subsequent Decisions Where States Were
In Possession of U.S. Savings Bonds
Treasury reiterated its position on custodial unclaimed property laws in 1970, when the State of
Oklahoma tried to redeem bonds it had obtained
from unclaimed safe deposit boxes. See id. at A5-7.
According to Treasury, one of “the problems involved
in recognizing a State’s right to receive payment of
unclaimed or abandoned Government securities . . . .
relate[d] to the issue as to whether the State has
actually succeeded to title and ownership of the securities, or whether it is acting as a repository.” Id. at
A6. “This is a critical distinction,” Treasury stated,
because “the discharging of the obligation represented by the securities must have validity for all jurisdictions.” Id. “Ordinarily,” Treasury continued, “such
a discharge results only where a valid escheat has
occurred.” Id. Oklahoma’s unclaimed property law,
however, “d[id] not purport to vest title to the abandoned property in the State,” but “[was] quite clear
that the State’s role [wa]s essentially custodial.” Id.
at A7.
Over the next thirty years, Treasury repeatedly
denied claims from states with custodial unclaimed
property laws and bonds in their possession. See

45a
id. at A8 (Indiana, Nov. 19, 1971); id. at A10 (New
Hampshire, May 12, 1976); id. at A12 (South Carolina, May 26, 1976); id. at A15 (Hawaii, July 14, 1976);
id. at A17 (Indiana, Jan. 18, 1977); id. at A19 (North
Dakota, June 24, 1977); id. at A22 (Illinois, Oct. 27,
1980); id. at A39 (Kentucky, Sept. 6, 1983); id. at A40
(Alaska, Oct. 25, 1983); id. at A109 (Alaska, Feb. 6,
1992); id. at A112 (Oklahoma, Aug. 5, 1999). As early
as 1976, Treasury described as “long-standing” its
position that it would “recognize claims by States for
payment of United States securities where the States
have actually succeeded to the title and ownership of
the securities pursuant to valid escheat proceedings.”
Id. at A10.
Treasury apparently first considered a state’s claim
based on a title-based unclaimed property law in
1982, in response to a request for information from
the Commonwealth of Massachusetts. See id. at
A24-38.
The request concerned approximately
$250,000 in savings bonds that Massachusetts
obtained via its unclaimed property law. Id. at A24.
At the time, Massachusetts’s unclaimed property law
provided that “[p]roperty which has been surrendered to the state treasurer under [the unclaimed
property law] shall vest in the commonwealth.” Id.
at A31. In its request, Massachusetts asked Treasury
whether it “would . . . be able to either escheat to
[the Commonwealth] the approximately $250,000 [in]
bonds now accumulated . . . or some how [sic] through
your regulation or ruling be able to return them to
their rightful heirs.” Id. at A24.
In its response, Treasury informed Massachusetts
that it would recognize a state’s claim pursuant to a
title-based unclaimed property law if the law included sufficient due process protections for the named

46a
bondholders. Id. at A37. Specifically, Treasury stated
that:
In accordance with the bond contract, we will
recognize a request for payment on behalf of the
state pursuant to a statute which provides for the
administrative escheat, i.e., vesting of title, of
abandoned property, where the application of
the statute is conditioned upon the furnishing of
adequate notice and reasonable opportunities for
interested parties to be heard.
Id. Further, Treasury elaborated, “[u]nder the terms
of the bond contract, we could make payment to the
Treasurer of the Commonwealth where the Commonwealth, through appropriate court proceedings, takes
the owner’s title to itself.” Id. at A38. “In that event,
[Treasury] would pay the owner in the person of its
successor, the Commonwealth.” Id.
C. Treasury’s Treatment of States’ Requests
to Obtain the Proceeds of Bonds They Did
Not Possess
1. Decisions and Guidance
By the early 2000s, the number of matured,
unredeemed savings bonds ballooned as bonds
purchased in the 1960s and 1970s finally reached
maturity. In 2004, several states requested that
Treasury redeem these bonds in bulk (the “2004
requests”). The states did not possess the vast majority of these bonds, but, according to the states, the
bonds were statistically likely to be in the hands of
their citizens. See, e.g., id. at A127 (March 30, 2004
letter from the treasurer of Kentucky “estimat[ing]
that over $150 million” in unredeemed savings bonds
“rightfully belong[ ] to Kentuckians” and “requesting
. . . that [Treasury] return these funds to . . . Kentucky
so that [the] Unclaimed Property Division . . . can

47a
begin the work of returning this money to its rightful
owner[s]”); id. at A129 (April 2, 2004 letter from
the treasurer of the District of Columbia estimating
that “between $50 and $75 million” in unredeemed
savings bonds belonged to District of Columbia citizens and “seeking to have th[o]se assets and records
transferred to the District of Columbia so that we
can begin to find the rightful owners”); id. at A130
(April 21, 2004 letter from the treasurer of New
Hampshire positing that “somewhere between $35
million and $45 million” in unredeemed savings
bonds “would likely belong to New Hampshire residents” and requesting that Treasury “provide owner
information and deliver funds due” for those bonds).
Treasury denied the 2004 requests. E.g., id. at
A140-41 (Kentucky); id. at A138-39 (District of
Columbia); id. at A142-43 (New Hampshire). In its
denials, Treasury explained that it “d[id] not have
the legal authority” to grant the states’ requests
because “[a] U.S. Savings Bond is a federal contract
between the United States and the registered owner
on the bonds, and under federal regulations payment
may only be made to the registered owner.” E.g., id.
at A140. “In order for the bonds to be paid,” Treasury
continued, the state “must have possession of the
bonds, statutory authority to obtain title to the individual bonds, obtain an order of escheat from a court
of competent jurisdiction vesting title in the [state] to
the individual bonds, and apply to [Treasury] for
payment.” E.g., id.
In 2006, Florida submitted a similar request to
redeem or obtain custody over the proceeds of bonds
that it did not possess. See id. at A148. As with
the 2004 requests, Treasury denied Florida’s request.
Id. Unlike with the denials of the 2004 requests,

48a
however, Treasury did not mention any possession
requirement. See id. Rather, Treasury stated that:
The applicable regulations would permit the
state of Florida to be paid for the bonds, pursuant to an appropriate state statute and after due
process, by obtaining an order of escheat from
a court of competent jurisdiction vesting title
in the state, and then applying for payment to
the Department of the Treasury pursuant to the
procedures established by the regulations that all
bond owners must utilize.
Id.
2. Subsequent Litigation
In September 2004, the State of New Jersey filed
an action in federal district court challenging
Treasury’s denial of its 2004 request to pay over the
proceeds of matured but unredeemed bonds whose
owners’ last known addresses were in the state. See
Treasurer of N.J., 684 F.3d at 392. Several more
states eventually joined that litigation. See id. at
392-93. The district court dismissed the case for
failure to state a claim, reasoning that the states’
custodial unclaimed property laws conflicted with
Treasury’s regulations. Id. at 394-95. Further, the
district court found that applying those laws to
unredeemed bonds that the states did not possess
would violate the principle of intergovernmental
immunity. Id.
The states appealed the decision to the United
States Court of Appeals for the Third Circuit. See
id. at 395. In its brief before the Third Circuit, the
government acknowledged that although Treasury’s
regulations “generally provide that payment on a
U.S. savings bond will be made only to the registered
owner,” they also set forth “exceptions to this rule,

49a
including cases in which a third party obtains ownership of the bond through valid judicial proceedings.”
Br. for Appellees at 6, 2011 WL 6935510, Treasurer
of N.J., 684 F.3d 382 (No. 101963) (citing 31 C.F.R.
§§ 315.20(b) and 315.23). Further, Treasury advised
that “[a] State may satisfy this ownership requirement ‘through escheat, a procedure with ancient
origins whereby a sovereign may acquire title to
abandoned property if after a number of years no
rightful owner appears.’ ” Id. (quoting Texas v. New
Jersey, 379 U.S. 674, 675, 85 S.Ct. 626, 13 L.Ed.2d
596 (1965)). “Accordingly,” the government continued, it had “long advised state governments that, to
receive payment on a U.S. savings bond, [the] State
must go through an escheat process that satisfies due
process and awards title to the bond to the State,
making the State the rightful owner of the bond.” Id.
According to the government’s brief, however, the
states involved in the litigation “d[id] not claim to
have obtained title to any of the U.S. savings bonds
at issue,” and thus “d[id] not assert a right to receive
payment under the federal regulation that authorizes
payment to a third party that obtains ownership of
a bond through valid judicial proceedings.” Id. at 8.
Nowhere in its brief did the government assert the
states’ lack of possession as a factor affecting their
claims. See id.
The Third Circuit affirmed. Treasurer of N.J., 684
F.3d at 413. With respect to preemption, it concluded
that Treasury’s regulations “preempt[ed] the States’
unclaimed property acts insofar as the States
s[ought] to apply their acts to take custody of the
proceeds of the matured but unredeemed savings
bonds” because the acts “conflict[ed] with federal law
regarding [the] bonds in multiple ways.” Id. at 407.
First, paying over the proceeds of the bonds would

50a
inhibit Treasury’s “goal of making the bonds ‘attractive to savers and investors.’ ” Id. at 407-08 (quoting
Free, 369 U.S. at 669, 82 S.Ct. 1089). Congress, the
court noted, had authorized Treasury to “implement
regulations specifying that ‘owners of savings bonds
may keep the bonds after maturity’ ”; the states’
unclaimed property laws, “by contrast, specify that
matured bonds are abandoned and their proceeds
are subject to the acts if not redeemed within a time
period as short as one year after maturity.” Id.
(quoting 31 U.S.C. § 3105(b)(2)(A)).
Second, by “effectively . . . substitut[ing] the respective States for the United States as the obligor on
the affected savings bonds,” the operation of the
unclaimed property laws “would interfere with the
terms of the contracts.” Id. at 408. Instead of
the “federal redemption process . . . set forth . . . in
the relevant statutes and regulations,” bondholders
“would have to comply with [the] procedures set forth
in the various States’ unclaimed property acts.” Id.
The “application of the States’ acts in the redemption
process” would thus impermissibly “alter [the redemption] process as contemplated in the relevant federal
regulations.” Id. at 409.
On the principle of intergovernmental immunity,
the Third Circuit determined that the operation of
the states’ unclaimed property laws would “interfere
with Congress’s ‘[p]ower to dispose of and make all
needful Rules Acts and Regulations respecting the . . .
Property belonging to the United States.’ ” Id. at 410
(quoting U.S. Const. art. IV, § 3, cl. 2) (alterations in
original). “Although the United States must pay
holders of matured bonds the sums due on the bonds
when the owners present them for payment,” the
court reasoned, “until it does so the funds remain
federal property.” Id. at 411. Further, the Third Cir-

51a
cuit determined that the states’ unclaimed property
laws would unlawfully regulate the federal government by requiring it to comply with state accounting,
record-keeping, and reporting requirements.
Id.
In the court’s view, “forcing the Federal Government
to account to the plaintiff States for unredeemed
savings bonds or their proceeds . . . would result in
a direct regulation of the Federal Government in
contravention of the Supremacy Clause.” Id. at 412.
In the wake of the Third Circuit’s ruling, Montana
and four other states filed a petition for a writ of
certiorari to the United States Supreme Court. See
Dir. of the Dep’t of Revenue of Mont. v. Dep’t of
Treasury, 569 U.S. 1004, 133 S.Ct. 2735, 186 L.Ed.2d
192 (2013) (mem.). The Solicitor General opposed
certiorari. See Pl.’s Cross-Mot. for Partial Summ. J.
& Br. in Opp’n to Def.’s Mot. for Summ. J. (Pl.’s Mot.)
App. at A304-37, ECF No. 87-1 [hereinafter “SG’s
Brief ”]. As in the briefing before the Third Circuit,
the Solicitor General acknowledged that under 31
C.F.R. § 315.20(b), third parties may “obtain[ ] ownership of . . . bond[s] through valid judicial proceedings.” Id. at A311. “Accordingly,” the Solicitor
General continued, Treasury had “long advised the
States that to receive payment on a U.S. savings
bond a State must complete an escheat proceeding
that satisfies due process and that awards title to the
bond to the State, substituting the State for the original bondholder as the lawful owner.” Id. at A312.
Further, as with the government’s brief before the
Third Circuit, the states’ lack of possession of the
bonds was not presented as pertinent to the issue
before the Court. See id. at A320-36. The Supreme
Court ultimately denied the petition. Dir. of the
Dep’t of Revenue of Mont., 133 S.Ct. at 2735.

52a
IV. Other Guidance Provided by Treasury
From time to time, Treasury has also provided public guidance on its savings bond redemption policies.
As most relevant to this case, Treasury has posted
information about purchasing and redeeming U.S.
savings bonds on its website, TreasuryDirect.gov.
From 2000 through the initiation of this litigation,
an FAQ page on that website included the following
question regarding states with permanent escheat
laws:
In a state that has a permanent escheat law,
can the state claim the money represented by
securities that the state has in its possession[?]
For example, can a state cash savings bonds that
it’s gotten from abandoned safe deposit boxes?
See Def.’s Mot. App. at A115; see also Estes, 123
Fed.Cl. at 87 n.11. In its answer, Treasury confirmed
that it “recognize[s] claims by States for payment
of United States securities where the States have
succeeded to the title and ownership of the securities
pursuant to valid escheat proceedings.” Def.’s Mot.
App. at A115. “[I]n such [a] case,” Treasury continued, “payment of the securities results in full discharge of . . . Treasury’s obligation and the discharge
is valid in all jurisdictions.” Id.
V. Kansas’s Claim to Ownership Over the
Bonds at Issue in This Case
A. Kansas’s Initial Requests for Information
Regarding Bonds It Did Not Possess
On June 19, 2000, Kansas’s state treasurer sent
Treasury a letter informing Treasury that Kansas
intended to appoint an agent to conduct “an examination of [Treasury’s] books and records” related to
“unredeemed US Savings Bonds subject to escheat”

53a
under its Unclaimed Property Act. Id. at A116.
Kansas’s letter also purported to grant the agent
the authority to “instruct [Treasury] to deliver all
unredeemed US Savings Bonds found due and owing
to a custodian on behalf of, and in trust for, the
State.” Id.
Treasury responded on August 11, 2000. Id. at
A118. In line with its prior guidance, it explained
that it would “recognize claims by States for payment
of United States securities where the States have
actually succeeded to the title and ownership of the
securities pursuant to valid escheat proceedings.” Id.
Treasury acknowledged that Kansas claimed to have
recently “changed its custodial statutes to provide
for the escheat of savings bonds” and suggested that
Kansas’s Attorney General provide Treasury with
“[an] analysis and opinion regarding these statutes.”
Id.
Kansas provided the analysis and opinion on October 30, 2000. Id. at A120. In the analysis, Kansas’s
Attorney General stated that “[c]learly, once applicable court proceedings have been favorably concluded,
Kansas law provides that unclaimed United States
savings bonds escheat to the State of Kansas, and all
property rights to such United States savings bonds
or their proceeds vest solely in the State of Kansas.”
Id. at A122.
Treasury responded on December 27, 2000. Id. at
A124. It observed that under the Kansas Attorney
General’s analysis, “it would appear that . . . title
is not vested in the state of Kansas unless and until
the judgment of the court has been rendered that
the savings bonds have escheated to the state.” Id.
Treasury noted, however, that it had “not received a
court order or similar evidence supporting [Kansas’s]

54a
request to redeem the bonds on behalf of the state.”
Id.
Treasury then asked Kansas a number of
additional questions about the application of its
unclaimed property law to U.S. savings bonds,
and concluded that it would “consider this matter
further” after it received Kansas’s response. Id. at
A124-25. Kansas apparently never responded to the
letter.
More than a decade later, on June 4, 2012, Kansas
sent Treasury a FOIA request “seeking records, or
access to records, concerning unclaimed U.S. savings
bonds that were issued before December 31, 1974[,]
to bondholders with last known addresses in the
state of Kansas.” Pl.’s Mot. App. at A201. Treasury
responded on July 17, 2012. Id. at A208. Treasury
explained that, in its view, “[r]ecords of an individual’s securities” were exempt from FOIA as “files
the disclosure of which would constitute a clearly unwarranted invasion of personal privacy.” Id. (citing
5 U.S.C. § 552(b)(6)). Further, Treasury pointed to
its own regulation, 31 C.F.R. § 323.2, which (as noted
above) states that “[r]ecords relating to the purchase,
ownership of, and transactions in Treasury securities
or other securities handled by the Bureau of the
Public Debt . . . will ordinarily be disclosed only to
the owners of such securities, their executors, administrators or other legal representatives.” Id. Based on
these provisions, Treasury denied Kansas’s request.
Id. at A209.
B. Escheat Proceedings in Kansas State Court
After receiving this denial, on January 3, 2013,
Kansas’s state treasurer filed an escheatment action
in the District Court of Shawnee County “seeking a
determination that all right and legal title in, and
ownership of, certain matured, unredeemed United

55a
States savings bonds, which are unclaimed property
under the Kansas Disposition of Unclaimed Property
Act . . . shall escheat to the State of Kansas.” See
id. at A178. Along with its petition, Kansas filed a
motion seeking leave to effect service by publication
on the “purchasers or owners” of certain U.S. savings
bonds who had “last known addresses in the state of
Kansas according to the records of the U.S. Treasury
Department.”4 Id.
In the motion, Kansas noted that it had in its
possession 1,481 bonds “originally owned by 213
individual apparent owners.” Id. at A181. It had
obtained these bonds “[i]n most cases” when they
were “turned over to the Treasurer’s office because
they had remained unclaimed in bank safe deposit
boxes for a period of at least five years.” Id. at A180.
Kansas believed that it had obtained current
addresses for twelve of these 213 individuals. Id. at
A181. On the other hand, Kansas had been “unable
to locate” the other 201 individuals. Id. at A182.
“Separate and apart” from the bonds in its possession, Kansas stated that “most of the Kansas Unclaimed U.S. Savings Bonds at issue in the . . . case”
were “not in the physical possession of the Kansas
Treasurer.” Id. Rather, according to Kansas, those
bonds “h[ad] been lost, stolen, destroyed, or otherwise
made unavailable.” Id. Kansas described these as
“the absent bonds.” Id. (quotation omitted). Kansas
noted that, as to the absent bonds, it had no infor4 The specific bonds at issue included “40-year Series E bonds
issued between 1941 and December 31, 1964”; “30-year Series E
bonds issued between 1965 and December 31, 1974”; “Series A,
B, C, D, F, G, J and K bonds (all of which were issued prior to
1958)”; and “Series H bonds issued before December 31, 1974.”
Pl.’s Mot. App. at A178.

56a
mation “concerning the identity or location of [the]
apparent owners.” Id. It further advised the Court
that Treasury had “refused to provide such information to [Kansas]” because of its policy against
“provid[ing] such information to anyone other than
the title owner of the bonds.” Id. Thus, according to
Kansas, there was “no way for [it] to search for the
names and addresses of the unknown owners” of the
absent bonds “until [Kansas] obtains title by way of
this escheat proceeding.” Id. at A183. “Under these
circumstances,” Kansas contended, “it is appropriate
for this escheat proceeding to be initiated by service
of process by publication.” Id. at A185.
The court granted Kansas’s motion on January 4,
2013. Id. at A214. Pursuant to Kansas’s Unclaimed
Property Act, Kansas then published notice of the
escheatment action in newspapers across the state
for three consecutive weeks. Id. at A219. It also
published notice on the Kansas state treasurer’s
website. Id. Soon after, on March 29, 2013, the state
court issued a judgment of escheat. Id. at A213-21.
The court found that at the time Kansas filed its
petition, it had “physical custody of approximately
1,481 Kansas Unclaimed U.S. Savings Bonds.” Id. at
A214. Further, it found that “it is estimated, upon
information and belief, that there are approximately
$151.8 million in absent Kansas Unclaimed U.S. Savings Bonds that have been lost, stolen, or destroyed,
and are thus[ ] not currently in the possession of
[Kansas].” Id. at A215. The court also found that
“those unredeemed bonds belonging to Kansas citizens confer a right to collect matured principal and
interest from the U.S. Treasury,” and that “[t]his
right is intangible property subject to” Kansas’s
Unclaimed Property Act. Id. at A216-17.

57a
Based on these findings, the court determined that
Kansas was “seeking to take ownership of and title to
the subject bonds and the right to proceeds thereof
through this state’s valid judicial escheat proceedings
as the sole owner of and ultimate heir to such
bonds and proceeds.” Id. at A217-18. Further, the
court concluded that “all of the above-described
Kansas Unclaimed U.S. Savings Bonds . . . have been
unclaimed and abandoned property pursuant to the
provisions of” Kansas’s Unclaimed Property Act. Id.
at A218. Finally, the court found that “exceptional
efforts ha[d] been undertaken to locate the owners of
[the] bonds and [to] provide notice of these proceedings far in excess of the due diligence and notice
requirements” set forth in Kansas law. Id. at A219.
For these reasons, the court issued a declaratory
judgment stating that the bonds at issue “constitute
abandoned and unclaimed property pursuant to the
laws of the State of Kansas and are therefore subject
to escheatment.” Id. at A220. It further declared that
“such unclaimed and abandoned Bonds . . . include
the Absent Kansas Unclaimed U.S. Savings Bonds,
which have been lost, stolen, or destroyed, and which
have registered owners with last known addresses in
the State of Kansas.” Id. at A220-21. “[P]ursuant to
[its] powers of escheatment,” the court then decreed
that “all rights and legal title to, and ownership of
the above described Kansas Unclaimed U.S. Savings
Bonds and the proceeds thereof . . . shall escheat to
the State of Kansas.” Id. at A221.
C. Kansas’s Request to Redeem the Purportedly Escheated Bonds
On May 13, 2013, Kansas sent Treasury a “twofold” redemption request for the bonds that were the
subject of the state court proceedings. Id. at A341.

58a
First, it requested redemption of the bonds in its
possession.5 Id. Second, it requested “payment of
the proceeds of those Absent Kansas Unclaimed U.S.
Savings Bonds which the Kansas District Court, in
its Judgment of Escheatment, declared lost, stolen,
or destroyed, and which had registered owners with
last known addresses in Kansas.” Id. at A341-42.
According to Kansas, “[t]he state of Kansas . . . gained
title to and ownership of the Absent Bonds and their
proceeds by valid judicial escheatment proceedings.”
Id. at A342. “Therefore,” it continued, “Kansas, as
owner of the Absent Bonds, can now redeem these
bonds and collect their proceeds.” Id.
Further, “[w]ith respect to [its] claim for redemption of the proceeds of the Absent Bonds,” Kansas
“request[ed] that [Treasury] either re-issue the
bonds to the state of Kansas as owner or provide
the records, including serial numbers, regarding the
Absent Bonds that U.S. Treasury will require for
redemption of each Absent Bond.” Id. at A343
(emphasis in original). Noting that under 31 C.F.R.
§ 323.2(b) records regarding U.S. Savings Bonds will
“ordinarily be disclosed only to the owners of such
securities,” Kansas claimed that “[t]he information
regarding the securities that have escheated to the
state of Kansas must be made available to the owner
of those securities, Kansas.” Id. (emphasis in original).
On October 9, 2013, Treasury responded to the first
portion of Kansas’s redemption request (regarding
the bonds in its possession). Id. at A358. Treasury
requested that Kansas provide it with a certified
copy of the judgment of escheat, certain information
5 Although the state court proceedings involved 1,481 bonds
in Kansas’s possession, the state requested that Treasury redeem
just 1,445 of those bonds. See Pl.’s Mot. App. at A341.

59a
about the state treasurer, and the bonds themselves,
signed by the state treasurer. Id. “Assuming the
savings bonds you surrender are legitimate and have
not previously been redeemed,” Treasury stated, it
“anticipate[d] redeeming them in the normal course
after receiving” the requested information.6 Id. at
A359.
About a week later, on October 16, 2013, Treasury
responded to the second portion of Kansas’s redemption request (regarding the absent bonds). Id. at
A360-61. Treasury stated that it was “unable to
grant [Kansas’s] request to redeem” the absent
bonds. Id. at A360. Under its regulations, Treasury
claimed, registration was “conclusive of ownership,”
and Treasury was “only authorized to redeem a
savings bond to the registered owner.” Id. According
to Treasury, however, “[e]scheatment claims by states
are not an explicit exception to the conclusive ownership requirements.” Id. (citation omitted). “In the
past,” Treasury acknowledged, it had “interpreted its
regulations to allow some state escheatment claims,
but only when the state possesse[d] the savings
bonds in its claim.” Id. at A360-61. Kansas, however,
was neither “the registered owner of the savings
bonds, nor d[id] it possess them.” Id. at A361.
Treasury also noted that because Kansas did not
possess the bonds, it could not “comply with requirements in the savings bond contract concerning surrender of the Absent Bonds.” Id. “As provided in
[Treasury’s] regulations,” Treasury stated, “an owner
seeking to redeem a savings bond must surrender
it to the Treasury Department . . . unless the owner
can show that the savings bond was lost, stolen,
6 Treasury in fact redeemed the bonds a short time later. See
Pl.’s Mot. App. at A362.

60a
or destroyed.” Id. (footnote omitted). But “Kansas
[could not] present the Absent Bonds for payment,
presumably because the savings bonds are in the
possession of the registered owners or their heirs.”
Id. And, according to Treasury, its “regulations
do not provide that owners abandon their right to
payment simply because they have not redeemed
a matured savings bond.” Id. Rather, the owners’
“contract[s] with the United States allow[ ] them to
redeem their savings bonds at any time, even after
maturity.” Id. (footnote omitted).
Finally, Treasury rejected Kansas’s request for
information about the absent bonds. Id. In its
view, “turn[ing] over the Absent Bond records would
violate the rights of the registered owners” under the
Privacy Act. Id. Further, Treasury noted that it
“does not index its registration records according to
the state of the registered owner.” Id. Treasury thus
“would have to search millions of records by hand to
fulfill Kansas’[s] request,” which “would be prohibitively expensive.” Id.
VI. Commencement of This Action and the
Government’s Motion to Dismiss
After receiving these responses, Kansas filed this
action on December 20, 2013. Compl., ECF No. 1. It
alleges that as a result of the state court judgment of
escheat, it is in privity of contract with the United
States with respect to the absent bonds. Id. ¶¶ 1, 84.
It also alleges that it “made proper presentment under
applicable federal regulations of the U.S. savings bond
contracts” for both sets of bonds. Id. ¶ 90.
Kansas’s complaint incorporates several theories
of liability. First, in Count I, Kansas claims that
Treasury’s “refusal to provide necessary and required
information regarding the Absent Bonds, and its

61a
further refusal to accept presentment and redeem
the Absent Bonds” constituted a breach of express
contracts between it and the United States—i.e., the
savings bonds to which it claims title. Id. ¶¶ 93, 95.
It requests damages “believed to be in excess of
$151,800,000” based on “the matured value . . . of all
lost, stolen, destroyed or otherwise abandoned U.S.
savings bonds . . . now owned by [Kansas] which are
registered with [Treasury] and having last known
addresses in the State of Kansas.”7 Id. at 24. Relatedly, in Count III, Kansas claims that the government has breached fiduciary duties in connection
with the express contracts, and that it is entitled to
damages as a result. Id. ¶¶ 109-115. And in Count
VII, Kansas claims that the government’s refusal to
redeem the bonds constitutes a taking of private property without just compensation in violation of the
Fifth Amendment’s Takings Clause.8 Id. ¶¶ 141-43.
7

In Count II of its complaint, Kansas alternatively claims
that the bonds constitute implied-in-fact contracts between it
and the United States, and that the government has breached
those contracts. See Compl. ¶¶ 96-108. And in Count V of its
complaint, it alternatively claims that it is a third-party beneficiary of the savings bond contracts, and that the government’s
breach of those contracts entitles it to damages. See id. ¶¶ 12532.
8 As a corollary to these claims, Kansas also asserts, in Count
IV, that the government “should be equitably estopped from
asserting that [its] claims for relief are wrongful.” Id. ¶ 117; see
also id. ¶ 118 (contending that the government “misled” Kansas
by “making statements and taking action indicating that it would
redeem Kansas’s absent Bonds,” including the government’s
“recognition of Kansas’s ownership of the Bonds in Possession
and redeeming the proceeds thereof upon request”); id. ¶ 120
(asserting that the government “concealed material facts” by
“engag[ing] in self-serving refusals to honor FOIA and other
requests that would reveal necessary and requested information
about . . . Kansas[’s] Absent Bonds”).

62a
Finally, in Count VI, Kansas also seeks a declaratory judgment that the government has breached
its obligations on the savings bond contracts. Id.
¶¶ 133-40. In particular, it asks the Court to enter an
order declaring (among other things) that the government has “no right, title, or interest to the Absent
Bonds”; that the government has “wrongfully asserted custody and/or ownership over [Kansas’s] Absent
Bonds”; and that the government has “failed to turn
over to [Kansas] required and necessary information
regarding the Absent Bonds, namely serial numbers,
addresses, and other information which would identify
those bonds with last known addresses in the State
of Kansas.” Id. at 35. Kansas also asks the Court to
order the government to “provide [Kansas with] the
information necessary to identify those Absent Bonds
registered with last known addresses in the State of
Kansas” and to “accept [Kansas’s] presentment and
redemption of the subject Absent Bonds.” Id.
As discussed in Estes, the government moved to
dismiss Kansas’s claims other than its takings claims
for lack of subject matter jurisdiction, and to dismiss
its takings claim for failure to state a claim. 123
Fed.Cl. at 80. The Court determined, however, that
it had subject matter jurisdiction over Kansas’s
contract, estoppel, and declaratory judgment claims
because “the government’s argument—that Kansas
was not a party to the contract[s] because under
Treasury’s [r]egulations it was not the owner of the
Absent Bonds—[went] to the merits of Kansas’s . . .
claims, not th[e] Court’s jurisdiction over them.” Id.
at 82-83. Therefore, the Court treated the government’s entire motion as a motion to dismiss for
failure to state a claim, and concluded that Kansas
had stated a plausible claim for relief with respect
to its contract, estoppel, declaratory judgment, and

63a
takings claims. Id. at 85, 90-91. On the other hand,
it dismissed Kansas’s third-party beneficiary claim.
Id. at 90.
The Court’s ruling on Kansas’s contract and declaratory judgment claims turned on a narrow issue of
regulatory interpretation around which the parties
framed their briefs. See id. at 81-85; see also Def.’s
Mot. to Dismiss at 10-16, ECF No. 9; Pl.’s Resp. to
Def.’s Mot. to Dismiss at 22-29, ECF No. 15. In
particular, the government centered its arguments
on Subpart E of Treasury’s regulations, 31 C.F.R.
§§ 315.20-.23, which (as discussed above) sets forth
“[l]imitations on [j]udicial [p]roceedings” with respect
to U.S. savings bonds. See Def.’s Mot. to Dismiss at
11-12.
Advancing a restrictive interpretation of 31 C.F.R.
§ 315.20(b)—which states that Treasury “will recognize a claim against an owner of a savings bond . . . if
established by valid, judicial proceedings, but only as
specifically provided in this subpart”—the government contended that escheat judgments could never
form the basis of claims of ownership under the regulations because such judgments were not specifically
provided for elsewhere in Subpart E. Id. at 11-13.
Rather, according to the government, Subpart E only
specifically provided for two types of claims: “claims
under a divorce decree (§ 315.22(a)) and gift causa
mortis claims (§ 315.22(b)).”9 Id. at 12. Thus, the
government contended, “[e]scheatment actions are
9 In supplemental briefing ordered by the Court, the government expanded its argument to include the additional types of
judicial proceedings listed in 31 C.F.R. § 315.21, which concern
payments to judgment creditors and the treatment of U.S.
savings bonds in bankruptcy proceedings. See Def.’s Suppl. Br.
in Supp. of Its Mot. to Dismiss at 5, ECF No. 28.

64a
not one of the ‘valid judicial proceedings’ recognized
in the regulations.” Id. And because “the only ‘valid
judicial proceedings’ are the ones set forth in the
regulations,” the government reasoned, “[i]t makes
no difference whether the states’ escheatment statute
purports to take title to or custody of the bonds.” Id.
at 13; see also Def.’s Suppl. Br. in Supp. of Its Mot. to
Dismiss at 4 (“Only certain judicial proceedings are
covered by 31 CFR 315.20, and escheat proceedings
are not among them.”).
The government then sought to explain away
Treasury’s past statements regarding state claims
to bonds obtained by escheatment proceedings by
contending that those statements “were made in
the context of states claiming title for bonds in their
possession.” Def.’s Mot. to Dismiss at 13 (emphasis in
original). The government maintained that position
even after Kansas pointed out that the Treasurer
of New Jersey litigation involved state claims for
redemption of absent bonds. See Def.’s Reply Br.
in Supp. of Its Mot. to Dismiss at 5-7, ECF No. 20.
Further, in supplemental briefing, the government
argued that its prior statements did not reflect its
“considered judgment” on the meaning of its regulations; that its current litigating position did, in fact,
reflect its considered judgment; and that the Court
was thus required to defer to its litigating position
under Auer v. Robbins, 519 U.S. 452, 117 S.Ct. 905,
137 L.Ed.2d 79 (1997). See Def.’s Suppl. Brief at 1011, 15.
The Court was not persuaded by the government’s
arguments. See Estes, 123 Fed.Cl. at 85-90. First, it
rejected the government’s reading of § 315.20(b) as
incompatible with the text of Subpart E as a whole.
Id. at 85-86. The Court noted that in § 315.20(a),

65a
Treasury expressly disavowed recognition of two
types of judicial determinations. See 31 C.F.R.
§ 315.20(a) (stating that Treasury “will not recognize
a judicial determination that gives effect to an
attempted voluntary transfer inter vivos of a bond,
or a judicial determination that impairs the rights of
survivorship conferred by these regulations upon a
coowner or beneficiary”); see also Estes, 123 Fed.Cl. at
85. Accepting the government’s reading of § 315.20(b),
however, would render superfluous this express disavowal. Estes, 123 Fed.Cl. at 85. Further, the Court
found that the government’s reading “ignore[d] what
appear[ed] to be [the] actual purpose” of the restrictions found in §§ 315.21 and 315.22: “to address
specific considerations and concerns attendant to the
types of judgments referenced” in those subsections.
Id. at 86.
In an extended discussion, the Court also rejected
the government’s position regarding the import of
its prior statements and the deference owed to its
litigating position. See id. at 86-90. First, it found
that the government’s litigating position actively
conflicted with Treasury’s prior statements regarding
escheat, especially statements made in connection
with the Treasurer of New Jersey litigation. See id.
at 87-88. That litigation, the Court noted, involved
claims for custody over the proceeds of absent bonds,
undercutting the government’s contention that all
of its prior statements were made in the context
of bonds-in-possession. Id. at 88. Further, in the
Court’s view, possession had never served as an
essential characteristic in Treasury’s prior statements regarding title-based escheat, without which
an escheat judgment would not have been “valid”
under the regulations. See id. at 88-89. And the
government’s litigating position was internally in-

66a
consistent: it claimed (without any apparent factual
basis) that it had exercised its waiver authority
under 31 C.F.R. § 315.90 when it redeemed the bonds
in Kansas’s possession; and it argued in supplemental briefing that escheat judgments were invalid
under the regulations because they were proceedings
in rem. See id. at 88-90. The Court thus concluded
that the government’s ever-evolving litigating position
did not reflect its considered judgment, and thus
was not entitled to Auer deference. See id. at 90 (“If
anything, deference is due to the interpretation that
Treasury expressed for over sixty years until the
instant controversy arose.”).
Accordingly, the Court rejected the government’s
contention that all escheat judgments—whether
under a title-based or custody-based state law scheme
—fell outside the category of “valid, judicial proceedings” under § 315.20(b). See id.
With respect to Kansas’s takings claim, the Court,
following the Federal Circuit’s lead, observed that a
party may properly “alleg[e] in the same complaint
two alternative theories for recovery against the
Government . . . one for breach of contract and one
for a taking under the Fifth Amendment to the
Constitution.” Id. at 91 (quoting Stockton E. Water
Dist. v. United States, 583 F.3d 1344, 1368 (Fed. Cir.
2009)). It therefore denied the government’s motion
to dismiss Kansas’s claims under the Takings
Clause. See id.
VII. Treasury’s Revision of the Regulations and
Kansas’s APA Challenge
In the meantime, on July 1, 2015 (while the government’s motion to dismiss was pending), Treasury
issued a Notice of Proposed Rulemaking in which
it proposed revising its savings bond regulations to

67a
expressly address state court judgments of escheat
pursuant to title-based unclaimed property laws. See
Regulations Governing United States Savings Bonds,
80 Fed. Reg. 37,559-01 (July 1, 2015). After a period
of notice and comment, Treasury issued the final revised regulations on December 24, 2015. Regulations
Governing United States Savings Bonds, 80 Fed. Reg.
at 80,258-01. In the preamble to the revised regulations, Treasury stated that it intended for the
revisions to “clarify its prior statements on escheat
and to describe more formally the criteria Treasury
will use to evaluate escheat claims.” Id. at 80,259.
Further, by promulgating a “uniform federal rule
governing title escheat claims,” Treasury would
“provide formal notice to all states about the escheat
claims it will recognize and how it will protect the
rights of bond owners still in possession of their
savings bonds.” Id.
As relevant to the issue presented in this case, the
revised rule amended 31 C.F.R. § 315.20(b) to add a
sentence stating that “[e]scheat proceedings will not
be recognized under this subpart.”10 Id. at 80,264.
Treasury also added a new provision, § 315.88, to
govern “[p]ayment to a State claiming title to abandoned bonds.” Id. Under the new provision, Treasury
“may, in its discretion, recognize an escheat judgment that purports to vest a State with title to
a definitive savings bond that has reached the
final extended maturity date and is in the State’s
possession.” Id. But Treasury “will not recognize an
escheat judgment that purports to vest a State with
title to a bond that the State does not possess.” Id.

10 Thus, the revised § 315.20(b) expressly conformed to the
arguments the government made in its motion to dismiss.

68a
Kansas and four other states challenged the rule
under the Administrative Procedure Act (APA), 5
U.S.C. § 706. Estes v. U.S. Dep’t of Treasury, 219
F.Supp.3d 17, 22, 27 (D.D.C. 2016). They argued
(among many other things) that the rulemaking was
arbitrary and capricious because the new provisions
“marked a change of agency policy, without any
acknowledgment of that change.” Id. at 27.
The District Court for the District of Columbia disagreed. Id. at 28-33. After noting that the questions
it faced and the issues before this Court were
“distinct in numerous respects,” it concluded that the
possession requirement expressed in the revised rule
was not inconsistent with any clearly established
prior policy.11 Id. at 28 n.4, 31. Alternatively, the
District Court concluded that even if the new rule did
work a policy change, Treasury had not violated the
APA in promulgating it because Treasury did not
“depart from [its] prior policy sub silentio or simply
disregard rules that are still on the books.” Id. at
33 (quoting FCC v. Fox Television Stations, Inc.,
556 U.S. 502, 514, 129 S.Ct. 1800, 173 L.Ed.2d 738
(2009)). Rather, it “extensively explained its Rule
and its view as to why that Rule did not contradict
prior statements.” Id. There was thus “no basis for
concluding that [Treasury] casually ignored prior
policies and interpretations or otherwise failed to
provide a reasoned explanation for its [Rule].” Id.
11 Thus, the District Court found that although Treasury’s
prior statements reflected a “longstanding policy that payment
requests for escheated bonds will not be honored unless a state
has title ownership over those bonds,” they “d[id] not express a
policy that a state may redeem bonds without possessing them.”
Estes v. U.S. Dep’t. of Treasury, 219 F.Supp.3d at 29 (emphasis
in original).

69a
(quoting Cablevision Sys. Corp. v. FCC, 649 F.3d 695,
710 (D.C. Cir. 2011)) (second alteration in original).12
VIII. The Pending Cross-Motions
After the Court denied the government’s motion to
dismiss, the parties engaged in targeted discovery
regarding “the history of the Department of Treasury’s recordkeeping, registration, and redemption
practices regarding the types of U.S. savings bonds
involved in this case, as well as information regarding the nature of how the Department’s relevant
savings bond records are catalogued and may best be
searched.” See Order (Dec. 18, 2015), ECF No. 51.
Once discovery concluded, the government moved for
summary judgment. ECF No. 86. Kansas then filed
a cross-motion for partial summary judgment on
liability, “which it asserted would fully resolve Count
VI of Kansas’s Complaint and partially resolve
Counts I, II, III, and VII.” Pl.’s Mot. at 3. The Court
heard oral argument on June 22, 2017.13

12

Kansas has appealed the District Court’s ruling. See
Docketing Statement, LaTurner v. U.S. Dep’t of Treasury,
No. 17-5015 (D.C. Cir. Mar. 2, 2017).
13 Since Kansas filed its complaint, eight other states with
title-based escheat regimes have filed similar lawsuits seeking
redemption of bonds they do not possess. See Sattgast v. United
States, No. 15-1364 (South Dakota); Kennedy v. United States,
No. 15-1365 (Louisiana); Lea v. United States, No. 16-43
(Arkansas); Ball v. United States, No. 16-221 (Kentucky); Fitch
v. United States, No. 16-231 (Mississippi); Loftis v. United
States, No. 16-451 (South Carolina); Zoeller v. United States,
No. 16-699 (Indiana); Atwater v. United States, No. 16-1482
(Florida). With the exception of Lea, the Court has stayed these
cases pending this decision. The Court is issuing a separate
Opinion and Order on cross-motions for summary judgment in
Lea.

70a
DISCUSSION
I. Standard For Summary Judgment
In accordance with RCFC 56(a), summary judgment
may be granted “if the movant shows that there is
no genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.”
See Celotex Corp. v. Catrett, 477 U.S. 317, 322, 106
S.Ct. 2548, 91 L.Ed.2d 265 (1986). A fact is material
if it “might affect the outcome of the suit under the
governing law.” Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 248, 106 S.Ct. 2505, 91 L.Ed.2d 202 (1986).
A dispute is genuine if it “may reasonably be resolved
in favor of either party.” Id. at 250, 106 S.Ct. 2505.
The material facts in this case are not in dispute.
Further, Kansas’s breach of contract claim depends
upon the resolution of questions of law—namely, the
interpretation of Treasury’s regulations, the interplay
between those regulations and Kansas’s Unclaimed
Property Act, and the constitutional principles raised
by the government in opposition to Kansas’s claims.
Therefore, Kansas’s breach of contract and other
claims are appropriate for resolution by summary
judgment.
II. Merits
In its motion for partial summary judgment, Kansas seeks a ruling that the government is liable for
breach of contract. To succeed on this claim, Kansas
must first demonstrate that it is in privity of contract
with the government with respect to the absent
bonds—i.e., it must establish that it owns the absent
bonds. See Cienega Gardens v. United States, 194
F.3d 1231, 1239 (Fed. Cir. 1998); Rotman, 31 Fed.Cl.
at 725. Further, it must also show that in refusing to
recognize its ownership of the bonds and in declining
to redeem the proceeds of the bonds, the government

71a
materially breached the terms of the bond contracts.
See Bell/Heery v. United States, 739 F.3d 1324, 1330
(Fed. Cir. 2014); San Carlos Irrigation & Drainage
Dist. v. United States, 877 F.2d 957, 959 (Fed. Cir.
1989).
Kansas’s contention that it is the owner of the
absent bonds is predicated on 31 C.F.R. § 315.20(b),
which it argues obligates the United States to recognize the state-law judgment of escheat that purported
to vest it with title to the bonds. Kansas asks the
Court to direct the Department of Treasury to provide it with the information it is entitled to receive
pursuant to 31 C.F.R. §§ 1.5 and 323.2 as the owner
of the bonds. It further requests a ruling that—
notwithstanding that it currently lacks information
about the whereabouts of the bond certificates—
Treasury was required to redeem the bonds upon
presentation of a certified copy of the state court
judgment under 31 C.F.R. §§ 315.20 and 315.23, or
pursuant to 31 C.F.R. § 315.25, which provides a
method for owners to redeem bonds where the certificates have been lost. Kansas contends that Treasury’s refusal to redeem the bonds constitutes both a
breach of contract and a compensable taking of its
property under the Fifth Amendment.
The government asserts, on the other hand, that
Kansas has not obtained ownership of the absent
bonds and that, as a result, the United States is
entitled to an entry of summary judgment. It briefly
reprises its contention that 31 C.F.R. § 315.20(b)
does not require Treasury to recognize ownership
claims arising out of state court judgments under
title-based escheat statutes. Further, it argues that
even if Kansas Treasury’s regulations permit transfers of ownership pursuant to title-based escheat

72a
statutes, the government was not required to redeem
the absent bonds because Kansas has not and cannot
submit the paper bond certificates, which the government argues is a prerequisite to its obligation to
pay Kansas their proceeds. Finally, it contends that,
in any event, ownership of the bonds cannot be transferred to Kansas under the circumstances of this case
because: (1) the state law on which the judgment
rests is preempted by federal law; (2) the underlying
state law violates the principle of intergovernmental
immunity; and (3) the state court proceedings did not
comport with the due process clause of the Fourteenth Amendment.
For the reasons set forth below, the Court agrees
that Kansas is the owner of the absent bonds pursuant to Treasury’s regulations and that Treasury’s
refusal to recognize Kansas’s ownership of the bonds
is a breach of contract. It further finds that Treasury
breached the contract when it refused to provide
Kansas with information about the bonds and demanded that Kansas produce the bond certificates as
a condition of redeeming their proceeds. Accordingly,
the Court grants Kansas’s motion for partial summary judgment as to liability for breach of contract.
A. Whether Treasury is Required to Redeem
the Absent Bonds Under Treasury’s Regulations
As discussed, 31 C.F.R. § 315.20(b) provides that
Treasury “will recognize a claim against an owner of
a savings bond . . . if established by valid, judicial
proceedings, but only as specifically provided in this
subpart.” And 31 C.F.R. § 315.23(a) states that
“[t]o establish the validity of judicial proceedings,” a
claimant must submit to Treasury “certified copies of
the final judgment, decree, or court order, and of any
necessary supplementary proceedings.”

73a
The facts material to the application of these
regulations with respect to the absent bonds are
not disputed. Thus, the parties do not dispute that
Kansas obtained the state court escheat judgment,
Pl.’s Mot. App. at A213-22; that the judgment concerned ownership of the absent bonds, id. at A215;
and that, when it attempted to redeem the absent
bonds, Kansas supplied certified copies of the judgment to Treasury in accordance with § 315.23(a), id.
at A342.
In its motion for summary judgment, the government revives (albeit briefly) the arguments which
this Court rejected in Estes regarding the proper
interpretation of § 315.20(b). Thus, it contends that
the ownership recognition requirements of § 315.20(b)
do not under any circumstances apply to judgments
entered pursuant to state escheatment laws. See
Def.’s Mot. at 19-20 & n.3; Def.’s Reply at 30-32. It
also appears to argue that—even if title to the absent
bonds has passed to Kansas—the state may not
redeem the proceeds of the bonds because it has not
presented the bond certificates to Treasury. Both of
these arguments lack merit.
1. Whether Treasury is Required to Recognize Kansas’s Ownership Claims Based on
the State Escheat Judgment
As discussed briefly above, and in greater detail in
Estes, the government’s argument in support of its
initial motion to dismiss was that under § 315.20(b),
Treasury would recognize only those claims of ownership that arise out of the specific types of judgments
referenced elsewhere in Subpart E of Part 315.
Because state court escheat judgments were not
referenced in the regulations, Treasury argued, they
were not subject to § 315.20(b) at all. Treasury

74a
reprises this argument in its motion for summary
judgment, observing once again that “Treasury’s
regulations do not recognize the transfer of savings
bonds via escheat judgment.” Def.’s Mot. at 19.
In Estes, this Court found Treasury’s interpretation
inconsistent with the language and structure of the
regulation. See 123 Fed.Cl. at 85-86 (concluding that
the government’s “construction of the regulations . . .
collides with the well-established canon of interpretation that holds that regulatory text should not be
read in such a way as to render any portion of the
language superfluous” and “ignores [the] actual purpose” of the provisions of Subpart E). The government’s summary judgment briefs do not address the
Court’s textual analysis or provide any basis for it to
depart from its conclusion in Estes that a textual
analysis of the language of § 315.20(b) establishes
that Treasury is required to recognize claims of bond
ownership that are based on state court judgments of
escheat pursuant to valid judicial proceedings.
Nor is there anything in the government’s summary judgment briefs that would alter this Court’s
conclusion in Estes that Treasury’s position in this
litigation conflicts directly with Treasury’s prior
explicit statements interpreting § 315.20(b). These
statements, which go back more than sixty years,
clearly reflect that before this litigation, Treasury
took the position that states could secure ownership
of savings bonds on the basis of title-based escheatment statutes like Kansas’s.
Thus, as the Court explained in Estes, in its brief
filed with the Third Circuit in the Treasurer of New
Jersey litigation, the federal government represented
that “Treasury regulations generally provide that
payment on a U.S. savings bond will be made only to

75a
the registered owner,” but that “[t]he regulations
specify limited exceptions to this rule, including
cases in which a third party obtains ownership of the
bond through valid judicial proceedings.” See Br. for
Appellees at 6, 2011 WL 6935510, Treasurer of N.J.,
684 F.3d 382 (No. 10-1963). In particular, the government explained, “[a] State may satisfy this ownership requirement ‘through escheat, a procedure with
ancient origins whereby a sovereign may acquire title
to abandoned property if after a number of years no
rightful owner appears.’ ” Id. (emphasis added) (quoting Texas, 379 U.S. at 675, 85 S.Ct. 626). In its decision, the Third Circuit went on to endorse Treasury’s
reading of its own regulations. See Treasurer of N.J.,
684 F.3d at 412-13 (observing that “the States[ ] may
obtain ownership of . . . bonds—and consequently
the right to redemption—through ‘valid[ ] judicial
proceedings’ ” as provided in 31 C.F.R. § 315.20(b)
(second alteration in original)).
The Solicitor General made a similar representation regarding Treasury’s interpretation of its regulations to the Supreme Court in 2013, in opposing a
petition for certiorari filed by some of the states that
were parties to the Third Circuit case. See Pl.’s Mot.
App. at A304-37. In that brief, the Solicitor General,
citing 31 C.F.R. §§ 315.20(b), 315.23, and 353.23,
observed that Treasury “has long advised the States
that to receive payment on a U.S. savings bond a
State must complete an escheat proceeding that
satisfies due process and that awards title to the
bond to the State,” and that this “represents the
Department’s considered interpretation of federal
law.” Id. at A311-12.
As the Court also explained in Estes, Treasury has
long assured inquiring states that it would recognize
state claims of ownership based on title-based escheat

76a
statutes. Thus, Treasury explained in the 1952
Escheat Decision that it would “recognize[ ] the title
of the state when it makes claim based upon a judgment of escheat,” because, in that case, the state has
“succeed[ed] to the title of the bondholder.” Def.’s
Mot. App. at A3 (emphasis omitted). And Treasury
continued to emphasize this position throughout the
1970s, 1980s, and 1990s in its responses to states’
requests to redeem or obtain custody over the proceeds of bonds in their possession under custodybased escheat regimes. See id. at A6 (Oklahoma,
June 26, 1970); id. at A8 (Indiana, Nov. 19, 1971); id.
at A10 (New Hampshire, May 12, 1976); id. at A12
(South Carolina, May 26, 1976); id. at A15 (Hawaii,
July 14, 1976); id. at A17 (Indiana, Jan. 18, 1977);
id. at A19 (North Dakota, June 24, 1977); id. at A22
(Illinois, Oct. 27, 1980); id. at A39 (Kentucky, Sept. 6,
1983); id. at A40 (Alaska, Oct. 25, 1983); id. at A109
(Alaska, Feb. 6, 1992); id. at A112 (Oklahoma, Aug.
5, 1999).
In addition, in 1982, Treasury informed Massachusetts that under the state’s title-based escheat regime,
Treasury would “make payment to the Treasurer
of the Commonwealth where the Commonwealth,
through appropriate court proceedings, takes the
owner’s title to itself.” Id. at A38 (observing that
“[i]n that event, [Treasury] would pay the owner
in the person of its successor, the Commonwealth”).
Further, Treasury referred Massachusetts to 31
C.F.R. §§ 315.23(a) and 353.23(a) as the sources of
“the proper evidence to be submitted if this approach
is followed.” Id.
Notwithstanding the foregoing, the government
contends now, as it did in the context of its motion to
dismiss, that the Court should discount Treasury’s
pre-2000 statements because they “did not address

77a
the applicability of section 315.20(b) to title-based
escheat judgments for bonds a state did not possess.”
Def.’s Mot. at 20 (emphasis added). But there is
nothing in § 315.20(b) that purports to make possession of bond certificates a condition for Treasury’s
recognition of ownership claims based on valid judicial proceedings. More to the point, under Treasury’s
interpretation, state judgments of escheat can never
confer ownership, regardless of whether the state has
possession of the bond certificates. That is, under
Treasury’s interpretation, even a state that: (1) has
obtained title to the bonds through state escheatment proceedings; (2) possesses the bond certificates;
and (3) presents those certificates to Treasury for
redemption cannot claim an entitlement to the proceeds of the bonds. The factual distinction Treasury
asks the Court to draw thus is not relevant to the
legal position it advances—i.e., that the Court ought
to accept its assertion that it does not recognize
claims against bond holders based on state-court
escheat judgments under § 315.20(b).
Indeed, Treasury’s litigating position here is that
to redeem even the bonds in possession to which it
holds title pursuant to valid judicial proceedings, the
state must persuade Treasury to waive its regulations. See Def.’s Mot. to Dismiss at 15 (contending
that “[p]ursuant to [its] discretionary authority,
Treasury elected to waive its regulations for the
bonds in Kansas’ possession” but “found no basis to
waive its regulations for the Absent Bonds”). But
until this litigation, Treasury never mentioned its
waiver authority in any of its many pronouncements
concerning states’ rights to redeem bond proceeds
under title-based escheat regimes; instead, it cited
§ 315.20. Thus, Treasury’s ever-shifting explanations
for denying states’ requests to redeem absent bonds

78a
resemble nothing so much as a game of “whack-amole” in which the federal government’s rationale for
denying such requests changes each time the states
satisfy the most recently articulated condition for
doing so.
In that regard, the government also draws the
Court’s attention to certain 2004 correspondence
between Treasury and several states that were then
seeking information about the redemption of absent
bonds under their custody-based escheat statutes.
See Def.’s Mot. at 19-20. That correspondence, which
was not before the Court when it ruled in Estes,
contained a passage advising the inquiring states
that “[i]n order for the bonds to be paid to [the state],
[it] must have possession of the bonds, . . . obtain an
order of escheat from a court of competent jurisdiction vesting title in the state to the individual bonds,
and apply to the Department of the Treasury for
payment.” E.g., Def.’s Mot. App. at A134.
The passing mention of a possession requirement
in the 2004 correspondence does not persuade the
Court to depart from its prior interpretation of the
plain text of the applicable Treasury regulations.
For one thing, that correspondence did not purport to
interpret § 315.20(b). Nor did it address Treasury’s
treatment of claims brought under title-based
escheat judgments for bonds that a state did not
possess, as the correspondence arose in the context of
state claims for bond proceeds under custody-based
escheat regimes. The correspondence thus did not
identify possession of the bonds as a condition of
recognizing the state’s claim of ownership under a
title-based escheat regime, as Treasury appears to
argue.

79a
Further, the Court notes that in Treasury’s subsequent 2006 correspondence with the state of Florida,
there is no mention of a possession requirement.
Instead, Treasury advised the State that “[t]he applicable regulations would permit the State of Florida
to be paid for the bonds, pursuant to an appropriate
state statute and after due process, by obtaining an
order of escheat from a court of competent jurisdiction vesting title in the state, and then applying for
payment to the Department of the Treasury pursuant to the procedures established by the regulations
that all bond holders must utilize.” Id. at A148.
Accordingly, Treasury’s mention of a possession
requirement in the 2004 correspondence does not
cast doubt upon its assurances over the more than
sixty preceding years, or the representations that it
made to the Supreme Court almost ten years later,
all of which clearly confirmed that Treasury would
recognize claims of ownership based on valid state
court escheatment proceedings.14
14 In support of its argument that § 315.20(b) is inapplicable
to escheat judgments, the government cites the recent decision
of the U.S. District Court for the District of Columbia in the
litigation brought by Kansas and several other states to challenge Treasury’s new rule. See Def.’s Mot. at 4, 20-21 n.3 & 5
(citing Estes v. U.S. Dep’t of Treasury, 219 F.Supp.3d at 32. As
noted, the new rule, among other things, explicitly requires a
state to possess the escheated bond in order to redeem it. See
Estes v. U.S. Dep’t of Treasury, 219 F.Supp.3d at 27-28. As the
district court itself acknowledged, however, the issues in that
case are “distinct in numerous respects” from the issues in this
one. See id. at 28 n.4. Thus, in that case, the plaintiffs argued
(among other things) that the new rule violated the APA
“because it capriciously abandon[ed] prior Treasury policy.” Id.
at 22. The issue before the district court was therefore whether
the new rule “altered a clearly established policy without sufficient explanation.” Id. at 28 n.4 (emphasis omitted). As noted

80a
For the reasons set forth above and in its opinion
in Estes, the Court is of the view that, under
§ 315.20(b), title and ownership of the absent bonds
was transferred to Kansas pursuant to the state
court escheat judgment. It turns now to the government’s alternative argument that, even if Kansas has
succeeded to ownership of the absent bonds, presentation of the escheated bonds is a prerequisite to
their redemption. Def.’s Mot. at 20-26; Def.’s Reply
at 25-30.
2. Whether Kansas Must Present the Certificates for the Bonds it Owns as a Condition
to Securing their Redemption
As noted, the government contends that even
assuming that Kansas secured ownership of the
absent bonds through the state escheatment proceedings, it cannot redeem the bonds because it does not
possess them. This argument—whose premise is
that the Treasury’s regulations allow it to keep
the proceeds of bonds indefinitely even if Kansas’s
ownership of the bonds has been established by valid
judicial proceedings—does not withstand scrutiny.
Treasury’s regulations make its payment obligation
clear: under 31 C.F.R. § 315.35(a), “[p]ayment . . .
will be made to the person or persons entitled under
the provisions of these regulations.” Id. Generally,
above, the district court concluded only that there was no clearly established prior policy recognizing state claims of ownership
pursuant to escheatment proceedings where the bonds were not
in the state’s possession, and that, in any event, if there was
such a policy, Treasury had adequately explained its reasons for
changing it. See id. at 28-30, 33. To the extent that the district
court’s decision, while addressing a different issue, can be read
to endorse an interpretation of the former § 315.20(b) that is
at odds with this Court’s interpretation, the Court respectfully
disagrees.

81a
in order to redeem the proceeds of a bond, the bond
owner must surrender the bond certificate to Treasury. See id. § 315.35. But (as noted) Treasury has
the authority to waive any portion of its regulations.
See id. § 315.90. And in any event, as the Court
already explained in Estes, presentation of the bond
certificate is not the exclusive means for an individual to establish his or her ownership of the bond and
consequent entitlement to redeem its proceeds. See
123 Fed.Cl. at 88-89. Thus, the regulations provide
procedures by which a bond owner can secure
redemption of bonds whose certificates have been
“lost,” or subject to “theft, destruction, mutilation, or
defacement.” 31 C.F.R. § 315.25 (authorizing “[r]elief,
by the issue of a substitute bond or by payment” for
lost, stolen, destroyed, or mutilated bonds). In such
circumstances, the owner is required to provide
either the serial number of the bond or other
information that will allow Treasury to identify it
by serial number. Id. § 315.26. Presumably, the
purpose of these requirements is to enable Treasury
to confirm through its records that the claimant
is the bond owner, notwithstanding that he or she
cannot produce the physical bond certificate.15
Counsel for the government in this case has taken
the position that the certificates for the absent bonds
cannot be deemed “lost” within the meaning of
the regulations because Kansas never physically
possessed them. But it is not apparent to the Court
why an item is not “lost” where its owner is unaware
of its location, whether or not the owner ever had the
15 It bears noting that under the regulations, where Treasury
redeems bonds that are lost, it may protect itself against duplicate claims by “requir[ing] a bond of indemnity” as “necessary to
protect the interests of the United States.” 31 C.F.R. § 315.25.

82a
item in his possession. Moreover, the government
has not supplied the Court with any basis for determining whether Treasury’s official interpretation of
the scope of 31 C.F.R. § 315.25 is as narrow as the
one counsel proposes, or how Treasury has applied
the regulation in the past.
In fact, counsel’s narrow interpretation of § 315.25
appears to conflict with the requirement in
§ 315.20(b) that Treasury “recognize” claims against
registered owners of savings bonds if established
by valid, judicial proceedings, as well as 31 C.F.R.
§ 315.23(a), which provides that the validity of the
judicial proceedings is established by presentation of
certified copies of the final judgment. For if prior
possession of the paper certificate is invariably
required in order for an owner to claim them “lost,”
then Treasury in fact would be unable to “recognize”
claims of ownership based on valid judicial proceedings, as § 315.20(b) requires, where, for example, the
prior owner of a bond had lost the physical certificates. It could also not recognize ownership claims
where the prior owner refused to turn over the physical certificates, such as, for example, in the wake of a
contentious divorce.16
It is certainly clear that 31 C.F.R. § 315.25 was
intended to afford relief to bond owners in circumstances in which, for reasons beyond their control,
16 In that vein, the Court notes that the regulation specific to
divorce proceedings does not mention surrendering the physical
bond; rather, it states (1) that Treasury will “recognize a divorce
decree that ratifies or confirms a property settlement agreement disposing of bonds or that otherwise settles the interests
of the parties in a bond”; (2) that “[t]he evidence required
under § 315.23 must be submitted in every case”; and (3) that
“[p]ayment, rather than reissue, will be made if requested.” See
31 C.F.R. § 315.22(a).

83a
they are unable to prove their ownership by presenting the bond certificate. And where ownership is
conferred by a judicial determination, it would seem
that submission of the certified judgment would
suffice to prove such ownership. See id. § 315.23.
But even leaving that aside, in light of the remedial
purposes of § 315.25, and the anomalous results that
would ensue if counsel’s position were adopted, the
Court finds unpersuasive Treasury’s argument that
bond certificates can never be considered “lost”
unless they were once in the current bond owner’s
possession.
Finally, in any case, it is neither necessary nor
appropriate for the Court to determine at this stage
in the proceedings whether Kansas is entitled to
redeem the bonds under the provisions of 31 C.F.R.
§ 315.25. For one thing, Kansas has not yet been
afforded its rights as an owner of the bonds to make
a claim for their proceeds based on the theory that
they are “lost.” It also has not been given access to
the information that it needs to make such a claim,
including the serial numbers of the absent bonds, or
the names of their original owners. Presumably,
with additional identifying information in hand,
Kansas may be able to determine whether or not the
certificates can be located or whether instead they
have been “lost” or destroyed.
******
On the basis of the foregoing, and for the reasons
set forth more fully in Estes, the Court stands by
its ruling that state court proceedings leading to
judgments of escheat are among the valid judicial
proceedings referenced in Treasury’s regulations at
31 C.F.R. § 315.20(b). It also continues to find unpersuasive Treasury’s argument that possession of
the bond certificates is a prerequisite to the recog-

84a
nition of a state’s ownership rights under Treasury’s
regulations, where such ownership is conferred
through valid judicial proceedings. Finally, it rejects
as unpersuasive and premature Treasury’s argument
that its regulations preclude Kansas from redeeming
the bonds that it owns unless it supplies Treasury
with the bond certificates. The Court turns now
to the government’s additional bases for refusing to
recognize Kansas’s ownership of the absent bonds.
B. Whether Kansas’s Escheatment Law is
Preempted
In addition to its argument that § 315.20(b) does
not by its terms apply to claims of ownership based
on state court escheat judgments, the government
contends that Kansas cannot be the “rightful owner
of the Absent Bonds because its ownership claim is
based on a state court escheat judgment that rests on
a state statute that is preempted by Federal law.”
Def.’s Mot. at 10. Treasury’s preemption argument is
without merit.
1. Preemption Standards
It is well established that where a state law comes
into conflict with a federal law, the state law must
give way. E.g., Hillsborough Cty. v. Automated Med.
Labs., Inc., 471 U.S. 707, 712, 105 S.Ct. 2371, 85
L.Ed.2d 714 (1985); see also Free, 369 U.S. at 669, 82
S.Ct. 1089. This principle applies not only when the
state law “actually conflicts” with federal law, but
also if the state law “stands as an obstacle to the
accomplishment and execution of the full purposes
and objectives” of the federal government. Fidelity
Fed. Sav. & Loan Ass’n v. de la Cuesta, 458 U.S. 141,
153, 102 S.Ct. 3014, 73 L.Ed.2d 664 (1982) (quoting
Hines v. Davidowitz, 312 U.S. 52, 67, 61 S.Ct. 399,
85 L.Ed. 581 (1941)); see also Wyeth v. Levine, 555
U.S. 555, 565, 129 S.Ct. 1187, 173 L.Ed.2d 51 (2009);

85a
Allergan Inc. v. Athena Cosmetics, Inc., 738 F.3d
1350, 1355 (Fed. Cir. 2013).
“In all pre-emption cases,” the court “start[s] with
the assumption that the historic police powers of the
States were not to be superseded by the Federal Act
unless that was the clear and manifest purpose of
Congress.’ ” Wyeth, 555 U.S. at 565, 129 S.Ct. 1187
(quoting Medtronic, Inc. v. Lohr, 518 U.S. 470, 485,
116 S.Ct. 2240, 135 L.Ed.2d 700 (1996)). “[T]he
purpose of Congress,” therefore, “is the ultimate
touchstone in every pre-emption case.” Id. (quoting
Medtronic, Inc., 518 U.S. at 485, 116 S.Ct. 2240);
see also Retail Clerks Int’l Ass’n v. Schermerhorn, 375
U.S. 96, 103, 84 S.Ct. 219, 11 L.Ed.2d 179 (1963).
Where Congress leaves the implementation of a
statute to an agency, a “regulation with the force of
law [may] pre-empt conflicting state requirements.”
Wyeth, 555 U.S. at 576, 129 S.Ct. 1187; see also
Hillsborough Cty., 471 U.S. at 713, 105 S.Ct. 2371
(“[S]tate laws can be preempted by federal regulations as well as by federal statutes.”); Free, 369 U.S.
at 666-69, 82 S.Ct. 1089 (operation of state community property law displaced by right of survivorship
embedded in Treasury’s savings bond regulations).
Unless Congress has specified otherwise, agencies
have no special authority to pronounce on preemption. See Wyeth, 555 U.S. at 576-77, 129 S.Ct. 1187.
Nevertheless, agencies are “likely to have a thorough
understanding of [their] own regulation[s] and [their]
objectives,” Geier v. Am. Honda Motor Co., 529 U.S.
861, 883, 120 S.Ct. 1913, 146 L.Ed.2d 914 (2000),
and thus may have “an attendant ability to make
informed determinations about how state requirements may pose an obstacle” to federal law, Wyeth,
555 U.S. at 577, 129 S.Ct. 1187 (quotation omitted);
see also Geier, 529 U.S. at 883, 120 S.Ct. 1913. The

86a
weight accorded to the agency’s explanation “depends
on its thoroughness, consistency, and persuasiveness.” Wyeth, 555 U.S. at 577, 129 S.Ct. 1187 (citing
United States v. Mead Corp., 533 U.S. 218, 234-35,
121 S.Ct. 2164, 150 L.Ed.2d 292 (2001) and Skidmore
v. Swift & Co., 323 U.S. 134, 140, 65 S.Ct. 161, 89
L.Ed. 124 (1944)).
2. Application of Standards
Treasury urges the Court to find that the Kansas
law, which presumes bonds abandoned five years
after their maturity date if the owner has not
communicated with Treasury, conflicts with federal
law, which it contends “allows savings bond owners
to hold their bonds after maturity and has no deadline for owners to redeem their bonds.”17 Def.’s Mot.
at 10-12; Def.’s Reply at 3-15. Further, the federal
government argues, the Kansas law creates an
obstacle to the accomplishment of the objectives of
the federal savings bond program. It reasons that
“[f ]ederal savings bonds are attractive to purchasers
in part because they have no expiration date,” and
that “confidence in the U.S. savings bond program
would be undermined” if a state were permitted
“to impair [the bond owner’s] contract rights.” Def.’s
Mot. at 12.
Treasury’s arguments that the Kansas law and
federal law are in conflict lack merit. First and foremost, for the reasons set forth above, and in Estes,
this Court has concluded that federal law itself (i.e.,
31 C.F.R. § 315.20(b)) requires Treasury to recognize
claims of ownership based on title-based escheat17 As noted above, under its Unclaimed Property Act, bonds
that have been presumed abandoned do not escheat to Kansas
until three years after the end of this five-year period. See Kan.
Stat. Ann. § 58-3979(a).

87a
ment statutes. In fact, Treasury has not only represented to both the Third Circuit and the Supreme
Court that it so interprets its regulations, it redeemed
the bonds in Kansas’s possession that Kansas
obtained via the very unclaimed property law that
Treasury now argues is preempted. Pl.’s Mot. App.
at A358-59, 362.
Further, Kansas’s law determines the identity of
the bond owner, and not the time period within
which the bond owner may redeem it. If Kansas
lawfully becomes the owner of bonds pursuant to
Treasury’s regulations via a judgment of escheat (as
the Court has already concluded), then the former
bond holders no longer have a right under federal
law to redeem the bonds because they no longer own
them. As Treasury expressly observed in its 1952
Escheat Decision, in such circumstances payment of
the proceeds to the State is “not regarded as a violation of the agreement, but, on the contrary, as payment to the bondholder in the person of his successor
or representative.”18 Def.’s Mot. App. at A3 (emphasis omitted).
For similar reasons, the Court is not persuaded by
the government’s argument that the Kansas law
18 Treasury’s argument based on 31 U.S.C. § 3105(b)(2)(A)
fails for similar reasons. That provision authorizes Treasury to
“prescribe regulations providing that . . . owners of savings bonds
may keep the bonds after maturity or after a period beyond
maturity during which the bonds have earned interest and continue to earn interest.” Id. Section 3105(b)(2)(A) thus concerns
the rights that Treasury may choose to confer upon “owners”; it
is agnostic as to who the owner is. Further, Treasury’s argument
is purely academic, as Treasury has not, in fact, prescribed
regulations allowing the absent bonds at issue in this case to
continue to earn interest. The Court therefore is not confronted
with a situation where a state seeks recognition of its ownership of bonds that are still earning interest.

88a
makes ownership of federal bonds less attractive,
thereby impairing the objectives of the federal savings bond program. The Court does not agree with
Kansas that there is no value at all to a right to hold
onto a bond over an extended period of time after it
has stopped earning interest. But even under Treasury’s own interpretation of its regulations, that right
is subject to another party’s claim of ownership based
on “valid, judicial proceedings” for at least some
categories of judgments. See 31 C.F.R. § 315.20(b).
Put another way, Treasury’s regulations themselves expressly contemplate that the original bond
owner may be deprived of his ownership interest in
the bond, and thereby lose the right he once held
as the owner to redeem the bond at any time after
maturity. Thus, anyone who chooses to purchase a
savings bond is already aware (at least constructively) that his right to hold onto the bond after it
matures (and even while it is still earning interest) is
not unlimited and may be affected by rulings issued
in the course of valid judicial proceedings.
Finally, Treasury’s reliance upon the Third Circuit’s
decision in Treasurer of New Jersey, which found
certain custody-based state escheatment laws preempted by federal law, is unavailing. In that case,
the Third Circuit held that “the federal statutes
and regulations pertaining to United States savings
bonds preempt the States’ unclaimed property acts
insofar as the States seek to apply their acts to take
custody of the proceeds of the matured but unredeemed savings bonds.” 684 F.3d at 407. “Most
critically,” it stated, “application of the States’ unclaimed property acts would interfere with the terms
of the contracts between the United States and the
owners of the bonds because, according to the States’
complaint, they effectively would substitute the

89a
respective States for the United States as the obligor
on affected savings bonds.” Id. at 408. Therefore,
once the states took custody of the bonds’ proceeds,
the bonds’ owners would have to follow the “procedures set forth in the various States’ unclaimed
property acts” rather than the federal redemption
process, in order to secure their proceeds. See id.
Further, the Third Circuit observed, the original
bondholders (who remained the bond’s owners) “still
would have a contractual right to payment from
the United States based on the terms of the bonds,”
exposing the federal government to the risk of double
liability on the bonds. Id. at 409.
Title-based escheatment statutes do not raise the
concerns identified by the Third Circuit in Treasurer
of New Jersey because once ownership transfers to
a state, the state is not the obligor on the bonds; it
is their owner. And when the state takes title, the
former owners’ rights to payment from the federal
government are extinguished. The government therefore cannot be liable for double payment. Further,
the state must follow existing federal regulations to
redeem the bonds. Thus, as the Third Circuit recognized, its holding “does not nullify state escheat laws
for, as provided in the federal regulations and as
recognized by the Treasury, third parties, including
the States, may obtain ownership of the bonds—and
consequently the right to redemption—through ‘valid[ ]
judicial proceedings.’ ”19 Id. at 412-13 (quoting 31
C.F.R. § 315.20(b) (alteration in original)).
19

In Treasurer of New Jersey, the Third Circuit explicitly
observed that “in concluding that the State custody-based
unclaimed property acts are preempted we are distinguishing,
as does the Government itself, those acts from title-based acts.”
684 F.3d at 413 n.28. It stated, however, that it did not wish
to “imply that our result would be different” in the event that

90a
In short, the federal government’s argument that
the Kansas law is preempted because it conflicts with
or presents an obstacle to federal law is without
merit. The Court now turns to its related argument
that the Kansas law is inconsistent with principles of
intergovernmental immunity.
C. Whether the State Statute Violates Principles of Intergovernmental Immunity
Under the principle of intergovernmental immunity,
states may not “directly regulate the federal government’s operations or property.” Id. at 410 (citing
Arizona v. Bowsher, 935 F.2d 332, 334 (D.C. Cir.
1991)); see also Hancock v. Train, 426 U.S. 167, 17880, 96 S.Ct. 2006, 48 L.Ed.2d 555 (1976); McCulloch
v. Maryland, 17 U.S. (4 Wheat.) 316, 426-27, 4 L.Ed.
579 (1819). In other words, states may not “regulate
the [federal] [g]overnment directly.” North Dakota v.
United States, 495 U.S. 423, 434, 110 S.Ct. 1986, 109
L.Ed.2d 420 (1990) (plurality opinion); see also United
States v. City of Arcata, 629 F.3d 986, 991 (9th Cir.
2010) (invalidating local ordinances prohibiting military recruiters from contacting teenagers because the
ordinances “s[ought] to directly regulate the conduct
of agents of the federal government”).
Treasury argues that Kansas’s unclaimed property
law directly regulates the federal government because
(1) the government was “confronted with a judgment of escheat
under a title-based escheat act,” and (2) Treasury “abandoned
its long held position as reflected in the Escheat Decision and
refused to recognize the enforceability of the judgment with
respect to savings bonds or their proceeds.” Id. Thus, the Third
Circuit recognized that so long as Treasury’s regulations require
Treasury to recognize state claims of ownership based on titlebased escheatment statutes (which the Court has concluded the
former regulations did), such statutes are not pre-empted by
federal law.

91a
that law seeks to “compel payment of unredeemed
bond proceeds from the Federal Treasury based on
[a] state imposed deadline[ ] for registered owners to
redeem their bonds.” Def.’s Mot. at 15. According to
the government, “Kansas would then be able to use
money now in the Federal Treasury to fund its own
state programs and operations.” Id.
This argument lacks merit for many of the reasons
articulated above. First, it is incompatible with
Treasury’s decision to redeem the bonds in Kansas’s
possession, which Kansas obtained via the same unclaimed property law Treasury now contests. Second,
nothing in Kansas’s law requires the government to
pay funds to Kansas on terms set by Kansas. Rather,
Kansas seeks payment pursuant to Treasury’s own
regulations—i.e., by obtaining title to the bonds via
judicial proceedings under 31 C.F.R. § 315.20(b) and
then seeking redemption as the owner of the bonds.
Treasury’s reliance on Treasurer of New Jersey and
Bowsher is thus unavailing. In the Treasurer of New
Jersey litigation, the states acknowledged that they
did not own the bonds they wanted to redeem and
framed their claim as an APA claim seeking relief
other than monetary damages. See McCormac v.
U.S. Dep’t of Treasury, 185 Fed.Appx. 954, 956 (Fed.
Cir. 2006) (concluding that it would be improper
to transfer the Treasurer of New Jersey litigation to
the Court of Federal Claims and observing that “the
States neither assert[ed] that they currently ha[d]
title to the bonds, nor s[ought] transfer of title to the
bonds”). Bowsher similarly involved states seeking
only custody over funds in the government’s hands.
See 935 F.2d at 334 (observing that states seeking
custody over funds in a federal unclaimed property
fund “claim[ed] no escheat,” but rather “s[ought] only

92a
temporary custody over the money until the rightful
owners appear with valid claims”).
Indeed, the court in Bowsher seemingly anticipated
a situation like this one, noting that “escheat of the
claimant’s right might well substitute the state for
the claimant and entitle it to payment.” See id. at
335. In such a case, the court cautioned, the substitution would need to occur in a manner “consistent”
with the relevant statutes. See id. As described
above, Treasury has long acknowledged that transfers pursuant to title-based escheat proceedings are
consistent with its regulations, leaving open the
possibility that Kansas might be substituted for the
original owners of the absent bonds pursuant to such
proceedings. Bowsher thus does not support Treasury’s intergovernmental immunity argument.
In sum, because under Treasury’s regulations, the
operation of Kansas’s Unclaimed Property Act grants
Kansas title over the savings bonds at issue, the Act
does not directly regulate the federal government’s
operations or property.
The principle of intergovernmental immunity therefore does not invalidate
Kansas’s unclaimed property law.
D. Whether the State Proceedings Were Invalid Because They Did Not Comport with
the Due Process Clause
The government’s final contention is that the state
court proceedings did not effect a valid transfer of
ownership because those proceedings did not comport
with the due process requirements of the Fourteenth
Amendment.20 Def.’s Mot. at 17-18; Def.’s Reply
20 Kansas asserts that the government lacks standing to raise
the due process issue “on behalf of the bond owners.” See Pl.’s
Mot. at 43. But the government is not raising the due process
issue on behalf of the owners; rather, it asserts the issue as a

93a
at 20-25. First, it argues that the judgment was
defective because the “state court did not identify a
constitutional basis for exercising in rem jurisdiction
over the Absent Bonds.” Def.’s Mot. at 17; see also
Def.’s Reply at 24-25. Second, it claims that “the
state court failed to give the owners of the Absent
Bonds constitutionally adequate notice of the escheat
proceeding.” Def.’s Mot. at 18; see also Def.’s Reply at
23. Both arguments lack merit.
Regarding the first issue, as Kansas correctly
observes, savings bonds are a form of intangible
property. See Pl.’s Mot. at 46-47 (citing Blodgett v.
Silberman, 277 U.S. 1, 10, 48 S.Ct. 410, 72 L.Ed. 749
(1928)). As the Supreme Court has observed, “intangible property, such as a debt which a person is
entitled to collect, is not physical matter which can
be located on a map.” Texas, 379 U.S. at 677, 85
S.Ct. 626; see also Hanson v. Denckla, 357 U.S. 235,
246-47, 78 S.Ct. 1228, 2 L.Ed.2d 1283 (1958) (noting,
with respect to in rem jurisdiction, that “the situs of
intangibles is often a matter of controversy” and that
“[i]n considering restrictions on the power to tax,
th[e] Court has concluded that jurisdiction over
intangible property is not limited to a single State”
(quotation, citations, and footnote omitted)); Mullane
v. Cent. Hanover Bank & Trust Co., 339 U.S. 306,
312, 70 S.Ct. 652, 94 L.Ed. 865 (1950) (observing that
“[t]he legal recognition and rise in economic importance of incorporeal or intangible forms of property
have upset the ancient simplicity of property law and
basis for finding that the state’s claims of ownership are not
based on valid judicial proceedings, so that Treasury is not
contractually obligated to honor them. The Court therefore rejects
Kansas’s suggestion that the government somehow lacks standing to raise this defense to Kansas’s breach of contract action.

94a
the clarity of its distinctions” between in rem and in
personam proceedings).
Further, in Texas, the Supreme Court held in a
similar context that when in rem escheat proceedings
involve intangible property that may be subject to
several states’ unclaimed property regimes, “the
right and power to escheat the debt should be
accorded to the State of the creditor’s last known
address as shown by the debtor’s books and records.”
379 U.S. at 680-81, 85 S.Ct. 626. According to the
Court, this “clear rule” would “govern all types of
intangible obligations.” Id. at 678, 85 S.Ct. 626. The
Court stated that the virtues of this rule include that
it involves only “a factual issue [that is] simple and
easy to resolve”; that it “recognizes that the debt was
an asset of the creditor”; and that it “tend[s] to distribute escheats among the States in the proportion
of the commercial activities of their residents.” Id. at
681, 85 S.Ct. 626. “It may well be that some addresses left by vanished creditors will be in States other
than those in which they lived at the time the obligation arose or at the time of the escheat,” the Court
continued, “[b]ut such situations probably will be the
exception, and any errors thus created, if indeed they
could be called errors, probably will tend to a large
extent to cancel each other out.” Id.
Treasury offers no persuasive reason why the Texas
rule ought not apply here. Its observation that “the
state court did not find that the Absent Bonds are
in Kansas” is of no moment: because the bonds
are intangible property, the inquiry turns on what
the facts reveal about the bondholders’ last known
addresses. See Def.’s Mot. at 17. Treasury’s concern
that addresses in its records may “reveal[ ] nothing
about the present location of the bonds or their
current owners” was addressed in Texas, as just

95a
described. See id. And its protest that bonds may
“pass by inheritance to persons other than the
purchaser” who live elsewhere is unavailing: under
31 C.F.R. § 315.70, surviving heirs may request
reissue or payment upon the bondholder’s death,
obviating Treasury’s concern. See id. at 18.
There is also no merit to Treasury’s argument that
Texas is distinguishable because, unlike the property
at issue in that case, U.S. savings bonds are “a form
of property created under Federal laws that establish
the registered owners’ right to redeem them at any
time and the United States’ expectation that the
physical bond be presented for payment in all but
exceptional cases.” Def.’s Reply at 24. This contention, like Treasury’s preemption argument, cannot
be reconciled with the governing regulations, which
provide for transfers of ownership that displace the
original registered owners’ expectations regarding
redemption.
Treasury’s argument as to the constitutional
adequacy of the notice Kansas provided to the absent
bondholders is also inconsistent with Supreme Court
precedent. In Mullane, the Court held that to
comport with the Due Process clause, notice must be
“reasonably calculated, under all the circumstances,
to apprise interested parties of the pendency of the
action and afford them an opportunity to present
their objections.” 339 U.S. at 314, 70 S.Ct. 652.
Whether this standard has been met depends on
“the practicalities and peculiarities” of the individual
case. Id. And, as Mullane shows, the Due Process
Clause allows for the disposition of property interests
where, as here, notice by publication is the only
practical option.
Thus, in Mullane, a state law allowing for common
administration of small trusts permitted the admin-

96a
istrator from time to time to seek judicial settlement
of claims arising against the trustee. Id. at 307-09,
70 S.Ct. 652. Regarding notice, the law required only
that the administrator publish notice of the settlement proceedings in a local newspaper for four
consecutive weeks. Id. at 309-10, 70 S.Ct. 652.
In assessing the adequacy of this procedure under
the Due Process Clause, the Court divided the trust’s
beneficiaries into two categories: beneficiaries “whose
interests or whereabouts could not with due diligence
be ascertained,” and “known present beneficiaries
of known place of residence.” Id. at 317-18, 70 S.Ct.
652. The Court held that notice by publication satisfied the Due Process Clause with respect to the first
category of beneficiaries. Id. Acknowledging that
“publication alone” was hardly a “reliable means of
acquainting interested parties of the fact that their
rights are before the courts,” id. at 315, 70 S.Ct. 652,
the Court nevertheless concluded that it was “not
in the typical case much more likely to fail than any
of the choices open to legislators endeavoring to
prescribe the best notice practicable,” id. at 317, 70
S.Ct. 652.
In contrast, “[a]s to [the] known present beneficiaries of known place of residence,” notice by publication
did not suffice. Id. at 318, 70 S.Ct. 652 (observing
that “[e]xceptions in the name of necessity do not
sweep away the rule that within the limits of practicability notice must be such as is reasonably calculated to reach interested parties” and that “[w]here
the names and . . . addresses of those affected by
a proceeding are at hand, the reasons disappear for
resort to means less likely than the mails to apprise
them of its pendency.”).
According to the Court, “[i]t [was] not an accident
that the greater number of cases reaching th[e] Court

97a
on the question of adequacy of notice have been concerned with actions founded on process constructively
served through local newspapers.” Id. at 315, 70
S.Ct. 652. Among these were several cases involving
state unclaimed property regimes and their treatment
of languishing bank deposits. See Anderson Nat’l
Bank v. Luckett, 321 U.S. 233, 64 S.Ct. 599, 88 L.Ed.
692 (1944); Sec. Sav. Bank v. California, 263 U.S.
282, 44 S.Ct. 108, 68 L.Ed. 301 (1923). As most
relevant here, the Court in Luckett held that, in
addition to the notice afforded by publication, “[t]he
[unclaimed property] statute itself is notice to all
depositors of banks within the state[ ] of the conditions on which the balances of inactive accounts
will be deemed presumptively abandoned, and their
surrender to the state compelled.” 321 U.S. at 243,
64 S.Ct. 599. Further, the Court cautioned, “[a]ll
persons having property located within a state and
subject to its dominion must take note of its statutes
affecting the control or disposition of such property
and of the procedure which they set up for those
purposes.” Id.
Here, as in Mullane, the necessary notice had to be
provided to two categories of property owners: the
individuals whose bonds were in Kansas’s possession
and the original owners of the absent bonds. Regarding the bonds-in-possession, Kansas attempted to
locate bond owners “us[ing] both internet search
sites and LexisNexis record searches . . . . as well
as searching obituaries[ ] and records of probate proceedings.” Pl.’s Mot. App. at A189. Upon locating
potential owners, Kansas sent them “claim packets
. . . informing them of the existence” of the bonds. Id.
With respect to the absent bonds, Kansas attempted to obtain information about the original owners’
names and last known addresses from Treasury, but

98a
Treasury refused to provide it. See id. at A208-09
(denying FOIA request); id. at A345-47 (same); id. at
A355 (denying FOIA appeal). Notably, Treasury did
not deny that such bondholders existed; instead, it
stated that it withheld the requested records because,
in Treasury’s view, they were FOIA-exempt. See id.
at A347.
Thus, as in Mullane, Kansas could not discover
individualized information about the absent bondholders through the exercise of reasonable diligence.
Further, as in Luckett, the 2000 amendment to Kansas’s unclaimed property law (as well as Treasury’s
regulations and its decades-long position regarding
states’ rights to secure title to federal savings bonds
pursuant to valid judicial proceedings) provided some
notice of the possibility that bonds might escheat in
the future. Accordingly, considering the “practicalities
and peculiarities” of this case, the Court concludes
that Kansas supplied constitutionally adequate notice
of the state court proceedings to the absent bondholders.
In summary, the Court concludes that the state
court did not violate the Due Process Clause when it
asserted in rem jurisdiction over the absent bonds,
and that Kansas’s efforts to notify the absent bondholders of the proceeding via publication passed
constitutional muster. Accordingly, for the reasons
discussed above, the Court rejects the government’s
argument that the state court escheatment proceedings were not valid judicial proceedings within the
meaning of 31 C.F.R. § 315.20(b).21
21

In Count IV of its complaint, Kansas argues that the government should be equitably estopped from denying its requests
to redeem the absent bonds based on its recognition of Kansas’s
ownership of the bonds in possession, and upon the 1952 Escheat
Decision as well as “other, similar statements made over the

99a
E. Kansas’s Fifth Amendment Takings Claim
As noted above, in Count VII of its complaint,
Kansas alleged that Treasury’s failure to redeem the
absent bonds amounted to a taking of its property
without just compensation. See Compl. ¶¶ 141-43.
In its ruling on the government’s motion to dismiss,
the Court denied the government’s motion with
respect to the takings claim because, under Federal
Circuit precedent, a plaintiff may “alleg[e] in the
same complaint two alternative theories for recovery
against the Government . . . one for breach of contract
and one for a taking under the Fifth Amendment to
the Constitution.” See Estes, 123 Fed.Cl. at 91 (quoting Stockton E. Water Dist. v. United States, 583 F.3d
1344, 1368 (Fed. Cir. 2009)). In Stockton East, the
Federal Circuit also observed that “[i]t has long been
the policy of the courts to decide cases on nonconstitutional grounds when that is available, rather
than reach out for the constitutional issue.” 583 F.3d
at 1368. For that reason, “when a case arises in
which both a contract and a taking cause of action
are pled, the trial court may properly defer the
taking issue . . . in favor of first addressing the contract issue.” Id. “[O]f course,” the Federal Circuit
continued, “when a plaintiff is awarded recovery for
the alleged wrong under one theory, there is no
reason to address the other theories.” Id.
past sixty years that Treasury would recognize title-based state
escheat statutes.” Compl. ¶ 118. As the government points out,
however, equitable estoppel may not be used as a basis to
impose liability on the United States. See Office of Pers. Mgmt.
v. Richmond, 496 U.S. 414, 426-30, 110 S.Ct. 2465, 110 L.Ed.2d
387 (1990); Doe v. United States, 372 F.3d 1347, 1356-57 (Fed.
Cir. 2004) (citing Schweiker v. Hansen, 450 U.S. 785, 101 S.Ct.
1468, 67 L.Ed.2d 685 (1981)). Accordingly, the government is
entitled to judgment as a matter of law with respect to Count
IV.

100a
Here, the Court has determined that Kansas has
succeeded to title over the bonds but it has not yet
“awarded recovery” to Kansas on its breach-ofcontract claims. Accordingly, the Court will defer
ruling on the parties’ cross-motions for summary
judgment as to Kansas’s takings claim pending further proceedings in the case.
CONCLUSION
For the reasons discussed above, the Court concludes that Kansas is the lawful owner of the absent
bonds pursuant to 31 C.F.R. § 315.20(b). As such, it
is entitled to receive from the government the information necessary to allow it to make a request to
redeem the bonds. Accordingly, Plaintiff’s motion
for partial summary judgment as to liability is
GRANTED as to Counts I, II, III, and VI of its
complaint. The government’s motion for summary
judgment is GRANTED as to Count IV of Plaintiff ’s
complaint; otherwise it is DENIED.
The parties shall file a joint status report by
August 21, 2017, suggesting further proceedings in
this case.
IT IS SO ORDERED.

101a
UNITED STATES COURT OF FEDERAL CLAIMS
__________
No. 13-1011C
RON ESTES, TREASURER OF THE
STATE OF KANSAS,
Plaintiff,
v.
UNITED STATES,
__________

Defendant.

[Filed: August 20, 2015]
__________
OPINION AND ORDER
KAPLAN, Judge.
In this action, Plaintiff Ron Estes, Treasurer of the
State of Kansas (“Kansas” or “the State”), requests
an award of damages equal to the matured value
(plus interest) of all lost, stolen, destroyed or otherwise abandoned U.S. savings bonds that are registered to individuals with last known addresses in
Kansas. According to Kansas, it has succeeded to
ownership of these bonds by virtue of a state court
judgment in which title to the bonds escheated to
the State under the Kansas Disposition of Unclaimed
Property Act, Kan. Stat. Ann. § 58-3979 (West 2000).
In its complaint, Kansas states its belief that the
value of the abandoned bonds is in excess of $151
million. It asserts a number of causes of action,
including, among others, breach of contract, equitable
estoppel, and Fifth Amendment takings. Kansas also
seeks an accounting of the benefits to which it claims

102a
entitlement, including serial numbers, addresses,
and other information that would identify those
bonds registered with last known addresses in the
State of Kansas.
Before the Court is the government’s motion to
dismiss for lack of jurisdiction under Rule 12(b)(1) of
the Rules of the Court of Federal Claims (“RCFC”)
and for failure to state a claim under RCFC 12(b)(6).
For the reasons that follow, the government’s motion
under Rule 12(b)(1) is DENIED. Its motion to dismiss
pursuant to Rule 12(b)(6) is GRANTED IN PART
AND DENIED IN PART.
BACKGROUND
I. The United States Savings Bond Program
Pursuant to its power “[t]o borrow money on the
credit of the United States” under Article I, section 8,
clause 2 of the Constitution, Congress has delegated
authority to the Secretary of the Treasury (“the Secretary”), with the approval of the President, to issue
savings bonds, the proceeds of which may be used
“for expenditures authorized by law.” 31 U.S.C.
§ 3105(a); Free v. Bland, 369 U.S. 663, 666-67, 82
S.Ct. 1089, 8 L.Ed.2d 180 (1962). The statute gives
the Secretary the authority to prescribe regulations
governing, among other things, the bonds’ investment
yield, maturity period, redemption, ownership and
transfer. See § 3105(b)-(c). These regulations appear
in Title 31 of the Code of Federal Regulations, Parts
315, 353, and 360.1
1 Savings bonds are issued in various Series, designated by
letters of the alphabet. Part 315 of Title 31 of the Code of Federal Regulations governs Series A, B, C, D, E, F, G, H, J, and K.
Part 353 governs Series EE and HH. Part 360 governs Series I.
In general, the corresponding sections of each part—e.g.,
§§ 315.5, 353.5, and 360.5—are identical. The bonds at issue in

103a
Section 315.5 provides that the person to whom a
bond is registered is the owner of the bond. 31 C.F.R.
§ 315.5(a) (“Registration is conclusive of ownership.”).
The regulations do not impose any time limits for
bond owners to redeem the savings bonds that are
the subject matter of this case. Therefore, owners
can present them for payment at any time. See 31
U.S.C. § 3105(b)(2)(A) (authorizing the Secretary to
promulgate regulations providing that “owners of
savings bonds may keep the bonds after maturity”).
As of 1989, and at least up through 2012, the Department of the Treasury (“Treasury”) was receiving
claims of $7,000 to $10,000 a day for payment on
savings bonds that had matured many years earlier.
Treasurer of N.J. v. U.S. Dep’t of Treasury, 684 F.3d
382, 388 (3d Cir. 2012).2
Section 315.15 provides that savings bonds are
“not transferable and are payable only to the owners
named on the bonds, except as specifically provided
in these regulations and then only in the manner and
to the extent so provided.” 31 C.F.R. § 315.15. This
case concerns the interpretation of the Secretary’s
regulations governing the redemption of bonds by
parties other than their registered owner. In particular, 31 C.F.R. § 315.20(b) provides that:
The Department of the Treasury will recognize a
claim against an owner of a savings bond and
this case are Series E, A-D, F, G, H, J, and K, and therefore are
subject to Part 315. Compl. ¶ 44.
2 The relevant statutes and regulations do not contain provisions for locating owners of matured but unredeemed bonds.
In 2000, the Treasury Department created a “Treasury Hunt”
website, which provides information on matured but unredeemed
Series E bonds issued after 1974 in a database searchable by
Social Security Number. Treasurer of N.J., 684 F.3d at 388-389.

104a
conflicting claims of ownership of, or interest in,
a bond between coowners or between the registered owner and the beneficiary, if established by
valid, judicial proceedings, but only as specifically
provided in this subpart. Section 315.23 specifies
the evidence required to establish the validity of
the judicial proceedings.
II. States’ Unclaimed Property Statutes and
Their Claims for Payment on Savings Bonds
Historically, at least as early as the 1950s, states
have sought to recover the proceeds from matured
but unredeemed savings bonds pursuant to their
unclaimed property statutes. Treasurer of N.J.,
684 F.3d at 390. Most of these state statutes have
been based on the Uniform Unclaimed Property Act
(“Uniform Act”). Id. at 389. Under the Uniform Act,
a state may acquire rights to abandoned property
if the last known address of the apparent owner is
in the state.3 Uniform Unclaimed Property Act § 4
(1995), available at http://www.uniformlaws.org/
shared/docs/unclaimedproperty/uupa95.pdf.
The Uniform Act is rooted in the common-law
doctrine of escheat, Treasurer of N.J., 684 F.3d at
389, under which “[s]tates as sovereigns may take
custody of or assume title to abandoned . . . property.” Delaware v. New York, 507 U.S. 490, 497, 113
S.Ct. 1550, 123 L.Ed.2d 211 (1993).4 Under the
3

To register a savings bond, the owner completes a registration form, on which the owner identifies his or her address
at the time of registration. Treasury initially kept registration
records for Series E savings bonds on paper but later converted
the paper records to microfiche. Treasury is currently in the
process of digitizing those records. Compl. ¶ 46.
4 “At common law, abandoned personal property was not the
subject of escheat, but was subject only to the right of appropri-

105a
Uniform Act—and consequently, under many states’
unclaimed property acts—“the State does not take
title to unclaimed property, but takes custody only,
and holds the property in perpetuity for the owner.”
Uniform Unclaimed Property Act prefatory note.
As explained in greater detail below, however, the
Kansas statute at issue in this case, as amended in
2000, allows the State to take title as well as custody
to unclaimed U.S. savings bonds, based upon a state
court judgment.
In 1952, Treasury issued Bulletin No. 111, setting
forth its position with respect to “state statutes purporting to vest abandoned property, including United
States securities, in certain State officers.” Pl.’s Resp.
to Def.’s Mot. to Dismiss [hereinafter “Pl.’s Resp.”]
App. 281. The Bulletin reproduced a letter dated
January 28, 1952 [hereinafter the “Escheat Decision”]
from the Secretary to the Comptroller of the State
of New York. Pl.’s Resp. App. 281-84; Treasurer of
N.J., 684 F.3d at 390. In that letter, the Secretary
explained that Treasury would pay the proceeds of
savings bonds to New York if it actually obtained
title to the bonds based upon a judgment of escheat,
but it would not do so if the state merely acquired a
right to take custody of the proceeds. Pl.’s Resp. App.
283-84; Treasurer of N.J., 684 F.3d at 390. The Secretary reasoned as follows:
“[p]ayment according to [the] explicit terms of
[the] regulations is plainly an obligation of the
Government . . . . But even where no explicit refation by the sovereign as bona vacantia. [Supreme Court] opinions, however, have understood ‘escheat’ as encompassing the
appropriation of both real and personal property . . . .” Delaware
v. New York, 507 U.S. at 497 n. 9, 113 S.Ct. 1550 (internal citations omitted).

106a
erence is made in the regulations to a particular
case, the Department will pay one who succeeds
to the title of the bondholder. This is not regarded as a violation of the agreement, but, on the
contrary, as payment to the bondholder in the
person of his successor or representative. Thus,
although the regulations do not mention such a
case, the Department recognizes the title of the
state when it makes claim based upon a judgment of escheat.
Id. App. 283.
More recently, Treasury articulated the same position in a page on its website entitled “EE/E Savings
Bonds FAQs.” Pl.’s Resp. App. 289-90 (providing a
screenshot of the FAQs page). Among a list of frequently asked questions, the page poses the following: “In a state that has a permanent escheatment
law, can the state claim the money represented by
securities that the state has in its possession[?] For
example, can a state cash savings bonds that it’s
gotten from abandoned safe deposit boxes?” Pl.’s
Resp. App. 290. Treasury’s answer mirrors the position it stated in the Escheat Decision:
The Department of the Treasury will recognize
claims by States for payment of United States
securities where the States have succeeded to the
title and ownership of the securities pursuant
to valid escheat proceedings. The Department,
however, does not recognize claims for payment
by a State acting merely as custodian of unclaimed or abandoned securities and not as
successor in title and ownership of the securities.
Id.
Since promulgating its view distinguishing between
custody- and title-based escheat statutes, Treasury

107a
has cited it consistently to defeat claims for payment
on unredeemed savings bonds by states with custodybased unclaimed property statutes. See, e.g., Treasurer of N.J., 684 F.3d at 391 (noting the parties’
stipulation that Escheat Decision “ ‘is defendants’
interpretation of federal savings bond regulations . . .
and reflects defendants’ understanding of existing
laws” and that “the Department has no intention of
deviating from the statement”). As recently as April
of 2013, the Solicitor General, opposing the State of
Montana’s petition for certiorari seeking review of
the Third Circuit’s decision in Treasurer of New Jersey, observed that: (1) “the Department [of Treasury]
has long advised the States that to receive payment
on a U.S. savings bond a State must complete an
escheat proceeding that satisfies due process and
that awards title to the bond to the State, substituting the State for the original bondholder as the
lawful owner”; and (2) “given the regulatory prohibition on payment to anyone other than the lawful
owner, the Department has also made clear that it
will not make payment to a State on a bond if a State
does not obtain title to the bond but instead merely
seeks ‘custody’ of bond proceeds until the bondholder
redeems the bond.” Pl.’s Resp. App. 9.
III. Kansas’s Unclaimed Property Act and
Escheatment Proceedings
Prior to 2000, Kansas’s unclaimed property statute
allowed the state to take custody of, but not title to,
such property. Pl.’s Resp. 14. In 2000, however, the
Kansas legislature amended the statute specifically
to allow Kansas to take title to unclaimed U.S.
savings bonds. Id. Thus, the Kansas Disposition of
Unclaimed Property Act now provides:

108a
(a) . . . United States savings bonds which are
unclaimed property5 . . . shall escheat to the
state of Kansas three years after becoming unclaimed property . . . and all property rights to
such United States savings bonds or proceeds
from such bonds shall vest solely in the state of
Kansas.
(b) Within 180 days after the three years in subsection (a), if no claim has been filed [with the
administrator] . . . for such United States savings bonds, the administrator shall commence
a civil action in the district court of Shawnee
county for a determination that such United
States savings bonds shall escheat to the state.
The administrator may postpone the bringing
of such action until sufficient United States
savings bonds have accumulated in the administrators [sic] custody to justify the expense of
such proceedings.
(c) If no person shall file a claim or appear at the
hearing to substantiate a claim or where the
court shall determine that a claimant is not entitled to the property claimed by such claimant,
5

Under § 58-3935(c) of the Kansas Disposition of Unclaimed
Property Act, “[p]roperty is unclaimed if,”
for the applicable period set forth in subsection (a) [for the
specific type of property], the apparent owner has not
communicated in writing or by other means reflected in a
contemporaneous record prepared by or on behalf of the
holder, with the holder concerning the property or the
account in which the property is held, and has not otherwise indicated an interest in the property. A communication by an owner with a person other than the holder or the
holder’s representative who has not in writing identified
the property to the owner is not an indication of interest in
the property by the owner.

109a
then the court, if satisfied by evidence that the
administrator has substantially complied with
the laws of this state, shall enter a judgment
that the subject United States savings bonds
have escheated to the state.
(d) The administrator shall redeem such United
States savings bonds escheated to the state and
the proceeds from such redemption of United
States savings bonds shall be deposited in the
state general fund . . . .
Kan. Stat. Ann. § 58–3979.
Pursuant to this statutory scheme, on January 3,
2013, Kansas filed a Petition for Declaratory Judgment in the district court of Shawnee County,
Kansas, requesting “a determination that all right
and legal title in, and ownership of, certain matured,
unredeemed United States savings bonds, which are
unclaimed property under the Kansas Disposition
of Unclaimed Property Act, . . . shall escheat to the
State of Kansas.” Pl.’s Resp. App. 87 (Petition ¶ 49).
Of the bonds referenced in the petition, some were
in the physical possession of the Kansas Treasurer
(“Bonds in Possession”), whereas others had been
“lost, stolen, destroyed, or otherwise made unavailable” and thus were not in the possession of the
Kansas Treasurer (“Absent Bonds”). Id. App. 88-89
(Petition ¶¶ 52-53). In Kansas’s estimation, the total
matured value of the Bonds in Possession is
$876,836.18, and the total matured value of the
Absent Bonds is approximately $151.8 million. Id.
According to the petition, “extensive efforts were
made to identify and verify accurate addresses of
bond owners and to the extent possible reunite [the
Bonds in Possession] with their owners,” but such
efforts failed. Id. App. 88. To give notice of the

110a
proceedings to the owners whose interests were
implicated by them, the court authorized service by
publication. Id. App. 157. On March 29, 2013, the
court held a hearing on the petition, at which no
bond owner appeared. Id. App. 166 (Judgment of
Escheatment 8). After reviewing the evidence, the
court entered a judgment of escheatment, in which it
declared that all rights and legal title to, and ownership of both the Bonds in Possession and the Absent
Bonds, “shall escheat to the State of Kansas.” Id.
App. 167 (Judgment of Escheatment 9).
IV. Requests by Kansas to Redeem the Bonds
On May 13, 2013, Kansas filed a claim with Treasury for redemption of the bonds now owned, according to the Kansas court’s escheatment judgment, by
the State. Id. App. 251-54. On October 9, 2013,
Treasury responded to Kansas’s request with respect
to the Bonds in Possession, informed Kansas of the
redemption procedures, and noted that Treasury
anticipated “redeeming [the Bonds in Possession] in
the normal course.” Id. App. 276-77. Kansas has
since delivered the Bonds in Possession to Treasury
and received the proceeds. Compl. ¶ 82.
On October 16, 2013, however, Treasury denied
Kansas’s claim with respect to the Absent Bonds.
Pl.’s Resp. App. 279-80. It explained that “under
Treasury’s regulations, Treasury is bound to its
contract with the registered owners of these savings
bonds, and would violate that contract if it redeemed
them to a third party.” Id. App. 279. Further,
Treasury observed, “[i]f the registered owner of one of
the Absent Bonds were to present that bond, Treasury would be obligated to redeem that bond.” Id.
According to the letter, Treasury regulations provided
that in the absence of an exception or waiver, Treas-

111a
ury could only redeem a savings bond to its registered owner. Id. It asserted that “[e]scheatment
claims by states are not an explicit exception to
the conclusive ownership requirements of 31 C.F.R.
§ 315.5(a).”
Id.
Moreover, the Treasury letter
explained, the exceptions to the ownership requirements of 31 C.F.R. § 315.5(a) set forth in § 315.5(b)
for “rights established by valid, judicial proceedings”
include only ownership claims pursuant to a divorce
decree (§ 315.22(a)) and claims based on gifts causa
mortis (§ 315.22(b)). Id. App. 279 n.5.
The letter stated that “[i]n the past, Treasury has
interpreted its regulations to allow some state escheatment claims, but only when the state possesses the
savings bonds in its claim.” Id. App. 279-80. Kansas
could not redeem the Absent Bonds, the letter
concluded, “because it is not the registered owner of
the bonds, nor does it possess them.” Id. App. 280.
V. Kansas’s Claims in This Court
On December 20, 2013, Kansas filed this lawsuit.
Its complaint consists of eight counts: (1) breach of
express contract; (2) breach of implied-in-fact contract;
(3) breach of fiduciary duties with respect to express
contracts; (4) equitable estoppel; (5) third-party
beneficiary contract; (6) declaratory judgment; (7) Fifth
Amendment taking of property for public use; and
(8) action for accounting. Compl. 22-38. For counts
I, II, III, IV, V, and VII, Kansas seeks “damages in
an amount equal to the matured value, plus applicable interest, of [the Absent Bonds]—believed to be in
excess of $151,800,000,” as well as “the expense of
this action” and any “further relief that this Court
deems just and equitable.” Compl. 24-25, 27-29, 31,
33, 36. In addition, for Count VI, Kansas requests
“that this Court enter an order declaring:”

112a
that Defendants have no right, title, or interest
to the Absent Bonds; that Defendant has wrongfully asserted custody and/or ownership over
Plaintiff ’s Absent Bonds, and failed to turn over
to Plaintiff required and necessary information
regarding the Absent Bonds, namely serial
numbers, addresses, and other information which
would identify those bonds with last known
addresses in the State of Kansas; that Plaintiff,
having been awarded all right, title and interest
in the Absent Bonds and their proceeds by valid
judicial escheat proceedings, should not be deprived of its property and Defendant must therefore provide Plaintiff the information necessary
to identify those Absent Bonds registered with
last known addresses in the State of Kansas;
that Defendant accept Plaintiff’s presentment and
redemption of the subject Absent Bonds; [and]
that Plaintiff be awarded [the damages and costs
specified in Counts I, II, III, IV, V, and VII].
Compl. 35. Finally, for Count VIII, Kansas requests
that this Court order the government to “provide
an accounting of the Absent Bonds, namely serial
numbers, addresses, and other information which
would identify those bonds registered with last
known addresses in the State of Kansas, and [the]
value of the Absent Bonds and their proceeds,” as
well as “the expense of this action” and any other
relief. Compl. at 38.
VI. The Government’s Motion to Dismiss
The government has moved to dismiss Kansas’s
complaint. It contends that Kansas’s contract claims,
its equitable estoppel claim, and its declaratory
judgment claim must be dismissed for lack of subject
matter jurisdiction pursuant to RCFC 12(b)(1).

113a
Moreover, although it does not dispute that Kansas’s
takings claim falls within this Court’s Tucker Act
jurisdiction, the government contends that this claim
must be dismissed for failure to state a claim upon
which relief can be granted pursuant to RCFC
12(b)(6).
The Court held oral argument on the government’s
motion to dismiss on October 21, 2014. Subsequent
to the argument, the Court requested and the parties
filed two rounds of supplemental briefs. Most recently, on June 30, 2015, the government submitted a
Notice of Proposed Rulemaking, to which Kansas has
since responded.
For the reasons that follow, the Court concludes
that it has jurisdiction over the claims in the
complaint. Therefore, the government’s motion to
dismiss under Rule 12(b)(1) is DENIED. The Court
further finds that Kansas has stated claims on which
relief can be granted with respect to its allegations of
breach of contract and a Fifth Amendment taking of
property. On the other hand, it finds that Kansas’s
allegations do not support a claim for relief as a
third party beneficiary. Therefore, the government’s
motion to dismiss pursuant to Rule 12(b)(6) is
GRANTED IN PART AND DENIED IN PART.
DISCUSSION
I. Standards for Motions to Dismiss
In deciding a motion to dismiss for lack of subject
matter jurisdiction, the court accepts as true all undisputed facts in the pleadings and draws all reasonable inferences in favor of the plaintiff. Trusted Integration, Inc. v. United States, 659 F.3d 1159, 1163
(Fed. Cir. 2011). The court may “inquire into jurisdictional facts” to determine whether it has jurisdiction.
Rocovich v. United States, 933 F.2d 991, 993 (Fed.

114a
Cir. 1991). The burden of establishing jurisdiction is
on the plaintiff. Trusted Integration, 659 F.3d at
1163.
When considering a motion to dismiss for failure to
state a claim under RCFC 12(b)(6), the court “must
accept all well-pleaded factual allegations as true
and draw all reasonable inferences in [the plaintiff ’s]
favor.” Boyle v. United States, 200 F.3d 1369, 1372
(Fed. Cir. 2000). The motion will be granted when
the facts asserted by the plaintiff fail “to raise a right
to relief above the speculative level.” Am. Contractors
Indem. Co. v. United States, 570 F.3d 1373, 1376
(Fed. Cir. 2009) (quoting Bell Atl. Corp. v. Twombly,
550 U.S. 544, 555, 127 S.Ct. 1955, 167 L.Ed.2d 929
(2007)). In other words, plaintiff ’s claim must be
plausible on its face. Twombly, 550 U.S. at 570,
127 S.Ct. 1955; Acceptance Ins. Cos., Inc. v. United
States, 583 F.3d 849, 853 (Fed. Cir. 2009). “A claim
has facial plausibility when the plaintiff pleads
factual content that allows the court to draw the
reasonable inference that the defendant is liable for
the misconduct alleged.” Ashcroft v. Iqbal, 556 U.S.
662, 678, 129 S.Ct. 1937, 173 L.Ed.2d 868 (2009)
(citing Twombly, 550 U.S. at 556, 127 S.Ct. 1955).
“Conclusory allegations of law and unwarranted
inferences of fact do not,” however, “suffice to support
a claim.” Bradley v. Chiron Corp., 136 F.3d 1317,
1322 (Fed. Cir. 1998) (citations omitted).
II. Subject Matter Jurisdiction
The United States Court of Federal Claims is a
court of limited jurisdiction that, pursuant to the
Tucker Act, may hear “any claim against the United
States founded either upon the Constitution, or any
Act of Congress or any regulation of an executive
department, or upon any express or implied contract

115a
with the United States, or for liquidated or unliquidated damages in cases not sounding in tort.” 28
U.S.C. § 1491(a)(1) (2012). In addition, the Tucker
Act gives this court limited jurisdiction to grant
equitable and declaratory relief, but only when such
relief is “an incident of and collateral to” a money
judgment. 28 U.S.C. § 1491(a)(2); Bobula v. U.S.
Dep’t of Justice, 970 F.2d 854, 859 (Fed. Cir. 1992).
A. Contract–Based Claims6
It is well established that savings bonds are contracts between the United States and the owners of
the bonds and that the regulations prescribed by the
Secretary constitute the contract terms. Treasurer
of N.J., 684 F.3d at 387 (citing Rotman v. United
States, 31 Fed.Cl. 724, 725 (1994)). The government
has nonetheless moved to dismiss Kansas’s complaint
for lack of subject matter jurisdiction, arguing that
the escheatment proceedings in Kansas state court
did not effect a valid transfer of ownership under
Treasury regulations with respect to the Absent
Bonds. See Def.’s Mot. to Dismiss 7-15. Because
Kansas is not the owner of the Absent Bonds, the
government reasons, it is not party to the contracts
that those bonds represent. Id. Therefore, the
government concludes, Kansas’s claims cannot be
“founded . . . upon any express or implied contract
with the United States,” as required for this Court
to exercise jurisdiction under the Tucker Act,
§ 1491(a)(1). Def.’s Mot. to Dismiss 7-8.

6 As the government did in its motion, the Court refers to the
following four of Kansas’s claims as its contract-based claims:
breach of express contract; breach of implied-in-fact contract;
breach of fiduciary duties with respect to express contracts; and
action for accounting.

116a
In the Court’s view, the government’s argument—
that Kansas was not a party to the contract because
under Treasury’s Regulations it was not the owner of
the Absent Bonds—goes to the merits of Kansas’s
contract claims, not this Court’s jurisdiction over
them. The Federal Circuit has long held that a wellpleaded allegation that an express or an impliedin-fact contract underlies the plaintiff ’s claim suffices
to confer subject matter jurisdiction in the Court of
Federal Claims. Trauma Serv. Grp. v. United States,
104 F.3d 1321, 1325 (Fed. Cir. 1997) (citing Gould,
Inc. v. United States, 67 F.3d 925, 929 (Fed. Cir.
1995)). See also Do-Well Mach. Shop, Inc. v. United
States, 870 F.2d 637, 639-40 (Fed. Cir. 1989) (“Jurisdiction, therefore, is not defeated . . . by the possibility that the averments might fail to state a cause of
action on which petitioners could actually recover.”
(quoting Bell v. Hood, 327 U.S. 678, 682, 66 S.Ct.
773, 90 L.Ed. 939 (1946))); Moden v. United States,
404 F.3d 1335, 1340 (Fed. Cir. 2005) (“The forum has
jurisdiction to hear the matter in the first instance—
that is, subject-matter jurisdiction existed—as long
as the petitioner asserted nonfrivolous claims” (quoting Spruill v. Merit Sys. Prot. Bd., 978 F.2d 679, 68788 (Fed. Cir. 1992))). See also Oswalt v. United States,
41 Fed.Appx. 471, 473 (Fed. Cir. 2002) (observing
that, “[b]ecause plaintiffs alleged contracts with the
United States, and resolution of the jurisdictional
issue of privity of contract under the Tucker Act is
intertwined with the merits of [plaintiffs’] express
and implied breach of contract claims,” the Court of
Federal Claims should not have dismissed for lack of
jurisdiction and should have analyzed the issue as
one on the merits).

117a
Here, Kansas’s complaint contains a well-pleaded
allegation that there is a contract between Kansas
and the United States. This allegation, moreover, is
not frivolous; indeed, as explained below, Kansas’s
allegations give rise to a plausible claim for relief.
See Twombly, 550 U.S. at 556, 127 S.Ct. 1955.
Therefore, this Court has subject matter jurisdiction
under the Tucker Act to resolve Kansas’s contract
claims.
B. Third-Party Beneficiary Claim
In moving to dismiss Kansas’s third-party beneficiary claim for lack of jurisdiction, the government
argues that, as a matter of law, Kansas does not
constitute a third-party beneficiary of the savings
bond contracts. Def.’s Mot. to Dismiss 16-17. The
Court also views this question as going to the merits
of Kansas’s claim, and not the Court’s jurisdiction.
Thus, the Court shall address the government’s
arguments with respect to Kansas’s third-party beneficiary claim, like the government’s arguments with
respect to Kansas’s contract claims, in connection
with its determination on the merits.
C. Equitable Estoppel and Declaratory Judgment Claims
The government’s argument that the Court should
dismiss Kansas’s equitable estoppel and declaratory
judgment claims proceeds as follows: per the Tucker
Act, 28 U.S.C. § 1491(a)(2), this Court has jurisdiction
over claims for equitable and declaratory relief only
when such claims are “an incident of and collateral
to” a claim for money damages; the Court must dismiss all of Kansas’s claims for money damages either
for lack of jurisdiction or for failure to state a claim
upon which relief can be granted; thus, the Court
also must dismiss Kansas’s equitable estoppel and

118a
declaratory judgment claims for lack of jurisdiction.
Def.’s Mot. to Dismiss 19-20. The government’s argument for dismissal of Kansas’s equitable estoppel and
declaratory judgment claims, therefore, depends
upon a dismissal of all of Kansas’s other claims. As
set forth below, the Court denies the government’s
motion to dismiss as to Kansas’s contract claims and
its takings claim. Accordingly, Kansas’s claims for
equitable estoppel and declaratory judgment remain
“an incident of and collateral to” claims for money
damages, and the government’s motion to dismiss
them pursuant to Rule 12(b)(1) must be denied.
III. Sufficiency of Kansas’s Claims Under
RCFC 12(b)(6)
A. Kansas’s Contract Claims
1. The Parties’ Contentions
As the basis for its motion to dismiss Kansas’s
contract claims, the government argues that, under
Treasury regulations—and therefore under the
savings bond contracts—Treasury was not required
to recognize Kansas’s claims of ownership of the
bonds based on the state escheatment proceedings.
See Mot. to Dismiss 8, 11. Thus, the merits of the
government’s motion to dismiss for failure to state a
claim hinge upon the meaning of the regulations.
The pertinent regulatory provisions are contained
at Subpart E of 31 C.F.R. Part 315 (captioned
“Limitations on Judicial Proceedings”).
Entitled
“General,” 31 C.F.R. § 315.20 states as follows:
The following general rules apply to the recognition of a judicial determination on adverse
claims affecting savings bonds:
(a) The Department of the Treasury will not
recognize a judicial determination that gives
effect to an attempted voluntary transfer inter

119a
vivos of a bond, or a judicial determination that
impairs the rights of survivorship conferred by
these regulations upon a coowner or beneficiary.
All provisions of this Subpart are subject to these
restrictions.
(b) The Department of the Treasury will recognize a claim against an owner of a savings bond
and conflicting claims of ownership of, or interest
in, a bond between coowners or between the
registered owner and the beneficiary, if established by valid, judicial proceedings, but only
as specifically provided in this subpart. Section
315.23 specifies the evidence required to establish the validity of the judicial proceedings.
(c) The Department of the Treasury and the
agencies that issue, reissue, or redeem savings
bonds will not accept a notice of an adverse claim
or notice of pending judicial proceedings, nor
undertake to protect the interests of a litigant
not in possession of a savings bond.
Kansas contends that its claim of ownership of
the Absent Bonds pursuant to the state court escheat
judgment is one that 31 C.F.R. § 315.20(b) requires
Treasury to recognize because it is a “claim against
an owner of a savings bond” that is “established by
valid, judicial proceedings.” Further, Kansas argues,
its claim is one “established by valid, judicial proceedings . . . as specifically provided” in Subpart E
because the state court judgment satisfies the
requirements that 31 C.F.R. § 315.23 (entitled
“Evidence”) sets forth for establishing the validity of
judicial proceedings. See Pl.’s Resp. 27-28; see also
31 C.F.R. § 315.23(a) (“To establish the validity of
judicial proceedings, certified copies of the final
judgment, decree, or court order, and of any neces-

120a
sary supplementary proceedings, must be submitted.
If the judgment, decree, or court order was rendered
more than six months prior to the presentation of the
bond, there must also be submitted a certificate from
the clerk of the court, under court seal, dated within
six months of the presentation of the bond, showing
that the judgment, decree, or court order is in full
force.”).7
The government, on the other hand, argues that
state court escheatment proceedings are not among
the “valid, judicial proceedings” to which section
315.20(b) refers. Def.’s Mot. 12-13. It focuses on
the phrase in that regulation stating that a claim
of ownership may be established by valid, judicial
proceedings “only as specifically provided in this
subpart.” Id. The government does not deny that
Kansas satisfied the evidentiary requirements set
7

Subsections 315.23(b) and (c), which are not directly at issue
in this case, set forth specific requirements for the recognition
of the validity of judicial proceedings in cases involving the
payment of the proceeds of a bond to a trustee in bankruptcy or
receiver in equity, as follows:
(b) Trustee in bankruptcy or receiver of an insolvent’s
estate. A request for payment by a trustee in bankruptcy
or a receiver of an insolvent’s estate must be supported by
appropriate evidence of appointment and qualification.
The evidence must be certified by the clerk of the court,
under court seal, as being in full force on a date that is not
more than six months prior to the presentation of the bond.
(c) Receiver in equity or similar court officer. A request
for payment by the receiver in equity or a similar court
officer, other than a receiver of an insolvent’s estate, must
be supported by a copy of an order that authorizes the
presentation of the bond for redemption, certified by the
clerk of the court, under court seal, as being in full force on
a date that is not more than six months prior to the presentation of the bond.

121a
forth in 31 C.F.R. § 315.23 to establish the validity of
the state court escheatment proceedings upon which
its claim of ownership is based. Rather, it argues
that the regulatory phrase providing that Treasury
will recognize a claim of ownership established
through valid, judicial proceedings “but only as
provided in this subpart” means that Treasury will
only recognize the specific categories of judgments
that are referenced elsewhere in Subpart E—i.e., the
judgments referenced in § 315.21, entitled “[p]ayment
to judgment creditors,”8 and those identified in
§ 315.22, entitled “[p]ayment or reissue pursuant to
judgment.”9 According to the government, “exceptions
8

Section 315.21 states as follows:

(a) Purchaser or officer under levy. The Department of
the Treasury will pay (but not reissue) a savings bond to
the purchaser at a sale under a levy or to the officer
authorized under appropriate process to levy upon property
of the registered owner or coowner to satisfy a money judgment. Payment will be made only to the extent necessary
to satisfy the money judgment. The amount paid is limited
to the redemption value 60 days after the termination of
the judicial proceedings. Payment of a bond registered in
coownership form pursuant to a judgment or a levy against
only one coowner is limited to the extent of that coowner’s
interest in the bond. That interest must be established
by an agreement between the coowners or by a judgment,
decree, or order of a court in a proceeding to which both
coowners are parties.
(b) Trustee in bankruptcy, receiver, or similar court officer.
The Department of the Treasury will pay, at current redemption value, a savings bond to a trustee in bankruptcy, a
receiver of an insolvent’s estate, a receiver in equity, or a
similar court officer under the provisions of paragraph (a)
of this section.
9

Section 315.22 states as follows:

(a) Divorce. The Department of the Treasury will recognize a divorce decree that ratifies or confirms a property

122a
to § 315.5(a) [the rule stating that registration is
conclusive of ownership] by judicial proceedings include claims of ownership based on a divorce decree
(§ 315.22(a)) and claims based on a gift causa mortis
(§ 315.22(b))” but not claims of ownership arising out
of an escheatment judgment because “escheatment
actions are not one of the ‘valid judicial proceedings’
recognized in the regulations.” Def.’s Mot. to Dismiss
12.
settlement agreement disposing of bonds or that otherwise
settles the interests of the parties in a bond. Reissue of a
savings bond may be made to eliminate the name of one
spouse as owner, coowner, or beneficiary, or to substitute
the name of one spouse for that of the other spouse as
owner, coowner, or beneficiary pursuant to the decree.
However, if the bond is registered in the name of one
spouse with another person as coowner, there must be
submitted either:
(1) A request for reissue by the other person or
(2) A certified copy of a judgment, decree, or court order
entered in proceedings to which the other person and the
spouse named on the bond are parties, determining the
extent of the interest of that spouse in the bond.
Reissue will be permitted only to the extent of that
spouse’s interest. The evidence required under § 315.23
must be submitted in every case. When the divorce decree
does not set out the terms of the property settlement
agreement, a certified copy of the agreement must be
submitted. Payment, rather than reissue, will be made if
requested.
(b) Gift causa mortis. A savings bond belonging solely to
one individual will be paid or reissued at the request of the
person found by a court to be entitled by reason of a gift
causa mortis from the sole owner.
(c) Date for determining rights. When payment or reissue
under this section is to be made, the rights of the parties
will be those existing under the regulations current at the
time of the entry of the final judgment, decree, or court
order.

123a
Thus, Kansas interprets the phrase “valid, judicial
proceedings” in § 315.20(b) as a catchall category,
subject only to the exceptions identified in § 315.20(a)
(for judicial determinations that “give[ ] effect to an
attempted voluntary transfer inter vivos of a bond,”
or that “impair[ ] the rights of survivorship conferred
by [the] regulations upon a coowner or beneficiary”).
Its argument is that the phrase “as specifically provided in this subpart” in § 315.20(b) was not intended
to limit the types of judicial proceedings that could
confer bond ownership rights but instead refers to
the manner in which the validity of judicial proceedings must be established. The government, on the
other hand, asserts that the otherwise broad term
“valid, judicial proceedings” is narrowed by the
“specifically provided” language, with the result that
only those claims of ownership that arise out of the
types of judicial proceedings explicitly referenced in
Subpart E must be recognized.10

10 In its first supplemental brief, the government raised
for the first time two new bases for refusing to recognize ownership rights arising out of state court escheatment proceedings:
(1) that such proceedings do not involve a claim against the
owner, coowner, or beneficiary of a savings bond, as required
under subsection 315.20(b), because an escheat judgment
involves a proceeding that is brought against the property itself
(in rem), and (2) that “[t]o the extent that Kansas claims title
over savings bonds with a co-owner or beneficiary,” such a claim
would be inconsistent with the language of § 315.20(a) “because
it would interfere with the rights of survivorship conferred by
Treasury regulations.” Def.’s 1st Supp. Br. 4-5. The Court addresses these arguments in subsection 3 below, which concerns
the apparent inconsistency of the positions the government has
taken both historically and in this matter concerning whether
rights of ownership based on title-based escheatment statutes
must be recognized under Treasury’s regulations.

124a
For the reasons set forth in greater detail below,
the Court concludes that Kansas’s reading of the
regulatory text is the more persuasive one. By
contrast, the government’s position is inconsistent
with the position that Treasury has articulated
for over sixty years through interpretive guidance,
statements on its website, and positions taken in
litigation as recently as April of 2013, just one month
before Kansas requested payment on the bonds
in this case. Accordingly, the Court concludes that
Kansas has stated a claim for relief with respect to
its allegations of breach of contract.
2. The Regulatory Text
To determine the meaning of the regulations, the
Court begins with their text. See Chase Bank USA,
N.A. v. McCoy, 562 U.S. 195, 204, 131 S.Ct. 871, 178
L.Ed.2d 716 (2011). As noted, 31 C.F.R. § 315.20(b)
states that Treasury “will recognize a claim against
an owner of a savings bond . . . if established by valid,
judicial proceedings, but only as specifically provided
in this subpart.” Subsection (a) of § 315.20, in turn,
identifies the specific judicial determinations that
Treasury will not recognize (those that give effect
to “an attempted voluntary transfer inter vivos of a
bond” and those that “impair[ ] the rights of survivorship conferred by these regulations upon a coowner
or beneficiary”).
In the Court’s view, the best reading of the phrase
“but only as specifically provided in this subpart” is
that it was intended to: (1) preclude the recognition
of claims of ownership where the evidentiary requirements set forth in Subpart E for establishing the
validity of judicial proceedings (§ 315.23) have not been
met; and (2) reference the particular requirements,
limitations and/or conditions that Subpart E imposes

125a
on the redemption or reissuance of bonds in the
context of the particular types of judicial proceedings
that are governed by §§ 315.21 and 315.22.
Thus, there are essentially two ways to read the
phrase “but only as specifically provided in this
subpart.” Kansas argues that the word “as” in this
context means “in the manner of.” Pl.’s 1st Supp. Br.
12-13, Feb. 16, 2015, ECF No. 29. It contends that
“used in the phrase ‘as specifically provided’ the word
‘as’ describes the manner in which Treasury should
determine the validity of a judicial proceeding, not
whether it will recognize a particular proceeding.”
Id. at 13. On the other hand, under the government’s
argument, the word “as” means “to the extent” or
“if ”—i.e. that Treasury will recognize claims based
on valid, judicial proceedings only to the extent that,
or if, such recognition is specifically provided for in
Subpart E.
The problem with reading the word “as” in the
manner the government would read it (to mean “if ”)
is that the result would be a construction of the
regulations that collides with the well-established
canon of interpretation that holds that regulatory
text should not be read in such a way as to render
any portion of the language superfluous. See Glover
v. West, 185 F.3d 1328, 1332 (Fed. Cir. 1999) (“[W]e
attempt to give full effect to all words contained
within [a] statute or regulation, thereby rendering
superfluous as little of the statutory or regulatory
language as possible.”). For if the government is
correct that only those categories of judgments
specifically referenced in §§ 315.21 and 315.22 are
entitled to recognition, then the exceptions set forth
in subsection (a) of § 315.20 to the general rule recognizing claims established pursuant to valid, judicial
proceedings would be unnecessary.

126a
Moreover, the government’s reading of the effect of
§§ 315.21 and 315.22 (which posits that those sections
contain an exhaustive enumeration of the particular
types of judicial proceedings that can confer ownership rights) ignores what appears to be their actual
purpose: to address specific considerations and concerns attendant to the types of judgments referenced
in those sections. Thus, section 315.21(a) places limitations on the extent to which Treasury will recognize claims of bond purchasers at a sale under levy or
to an officer authorized to levy upon the property of
an owner to satisfy a money judgment, specifying, for
example, that “[p]ayment will be made only to the
extent necessary to satisfy the money judgment” and
that “[t]he amount paid is limited to the redemption
value 60 days after the termination of the judicial
proceedings.” And § 315.21(b) specifies that, in contrast, Treasury will pay the proceeds of the bond to a
trustee in bankruptcy, receiver in equity, or similar
court officer “at current redemption value,” but does
not authorize the reissuance of the bonds in such
circumstances.
Similarly, § 315.22(a) concerns recognition of a
divorce decree ratifying a property settlement that
disposes of savings bonds or otherwise settles each
spouse’s interest in such bonds. It prescribes specific
rules for the reissuance of a bond in that particular
context. Section 315.22(a) also serves the purpose of
clarifying that such a decree would not fall within
the language of § 315.20(a), which states that Treasury will not recognize a judicial determination that
gives effect to “an attempted voluntary transfer inter
vivos of a bond.” And § 315.22(b) specifies that
Treasury will—upon request—either pay or reissue a
savings bond to a person found by a court to be entitled to such bond as the result of a gift causa mortis.

127a
For these reasons, the Court concludes that
Kansas’s reading of the scope of the phrase “valid,
judicial proceedings” contained in the regulations—
which includes state court escheatment proceedings
whose validity is established in accordance with
section 315.23—is more persuasive than the government’s. The Court now turns to the question of
whether, notwithstanding this conclusion, it owes
deference to Treasury’s interpretation of its regulations, as set forth in this litigation and in its October
2013 letter denying Kansas’s request for payment on
the Absent Bonds.
3. Previous Administrative Interpretation
of the Regulations
It is well established that an agency’s interpretation of its own regulations is “controlling unless
‘plainly erroneous or inconsistent with the regulation.’ ” Auer v. Robbins, 519 U.S. 452, 461, 117 S.Ct.
905, 137 L.Ed.2d 79 (1997) (quoting Robertson v.
Methow Valley Citizens Council, 490 U.S. 332, 359,
109 S.Ct. 1835, 104 L.Ed.2d 351 (1989) (quoting
Bowles v. Seminole Rock & Sand Co., 325 U.S. 410,
414, 65 S.Ct. 1215, 89 L.Ed. 1700 (1945))). “[T]his
general rule,” however, “does not apply in all cases.”
Christopher v. SmithKline Beecham Corp., ––– U.S.
-––, 132 S.Ct. 2156, 2166, 183 L.Ed.2d 153 (2012).
Thus, deference is “unwarranted” where “there is
reason to suspect that the agency’s interpretation
‘does not reflect the agency’s fair and considered
judgment on the matter in question.’ ” Christopher,
132 S.Ct. at 2166 (quoting Auer, 519 U.S. at 462, 117
S.Ct. 905). The Supreme Court has withheld deference on this basis, for instance, “when the agency’s
interpretation conflicts with a prior interpretation,”
id. (citing Thomas Jefferson Univ. v. Shalala, 512 U.S.

128a
504, 515, 114 S.Ct. 2381, 129 L.Ed.2d 405 (1994));
“when it appears that the interpretation is nothing
more than a ‘convenient litigating position,’ ” id.
(quoting Bowen v. Georgetown Hosp., 488 U.S. 204,
213, 109 S.Ct. 468, 102 L.Ed.2d 493 (1988)); or when
it appears that the interpretation is a “ ‘post hoc
rationalizatio[n]’ advanced by an agency seeking to
defend past agency action against attack,” id. (quoting Auer, 519 U.S. at 462, 117 S.Ct. 905).
Here, the Court does not believe that the government’s interpretation is “plainly erroneous or inconsistent with the regulation.” Auer, 519 U.S. at 461,
117 S.Ct. 905. There are ample reasons to find,
however, that the interpretation being proffered in
this case “ ‘does not reflect the agency’s fair and
considered judgment on the matter in question.’ ”
Christopher, 132 S.Ct. at 2166. Foremost among
these is the fact that the government’s “interpretation conflicts with [Treasury’s] prior interpretation”
of its regulations. Id. (citing Thomas Jefferson Univ.,
512 U.S. at 515, 114 S.Ct. 2381). Indeed, this conflict,
in conjunction with other inconsistencies within the
arguments the government has made in this litigation, convinces the Court that the position being
advanced in this case is merely a post-hoc rationalization for Treasury’s decision not to honor the
Kansas state court judgment as to the Absent Bonds.
Thus, as described above, in the Escheat Decision,
issued in 1952, Treasury rejected the State of New
York’s request to redeem bonds it held pursuant to
its custodial escheatment statute. The Secretary
explained that the critical criterion for granting such
a request by a state was that it possess legitimate
ownership of a bond. He noted that “even where
no explicit reference is made in the regulations to a

129a
particular case, the Department will pay one who
succeeds to the title of the bondholder” and that “[t]his
is not regarded as a violation of the agreement, but,
on the contrary, as payment to the bondholder in
the person of his successor or representative.” Pl.’s
Resp. App. 283 (emphasis in original). “Thus,” the
Secretary observed, “although the regulations do not
mention such a case, the Department recognizes the
title of the state when it makes claim based upon a
judgment of escheat.” Id.
Treasury reiterated this view in 1983, in a letter to
the Secretary of Revenue of the State of Kentucky. It
stated that “[b]asically, the Department’s position is
that claims by States for payment of United States
securities will be recognized only where the States
have actually succeeded to the title and ownership of
the securities pursuant to valid escheat proceedings.”
Id. App. 285.
This exact statement also had appeared on Treasury’s web site from 2000 until very recently.11 Id.
App. 290. Moreover, the government recently restated
and relied on this position and interpretation of its
regulations in litigation, including in briefs filed with
the Third Circuit and the Supreme Court in which
the government expressly characterized the position
as representing Treasury’s “considered interpretation
of federal law.” See, e.g., id. App. 9.
In the Treasurer of New Jersey case, six states
(New Jersey, Montana, Kentucky, Oklahoma, Mis11 The statement appeared on Treasury’s EE/E Savings
Bonds FAQs web page, a screen shot of which appears at Pl.’s
Resp. App. 289-90. At some point during this litigation, however, Treasury revised this page, and it now omits any mention of
escheatment. See https://www.treasurydirect.gov/indiv/research/
indepth/ebonds/res_e_bonds_eefaq.htm (last visited Aug. 20, 2015).

130a
souri, and Pennsylvania) sought payment on savings
bonds pursuant to their custody-based escheatment
statutes. In that case, the government told both the
Third Circuit and the Supreme Court that title-based
escheatment constitutes a “valid, judicial proceeding”
within the meaning of its regulations. Further, in
explaining its position, it made no mention of the “as
specifically provided in this subpart” proviso or of its
regulations at § 315.21 or § 315.22.
Thus, in its brief in the United States Court of
Appeals for the Third Circuit, the government observed that “Treasury regulations generally provide
that payment on a U.S. savings bond will be made
only to the registered owner” but that “[t]he regulations specify limited exceptions to this rule, including
cases in which a third party obtains ownership of the
bond through valid judicial proceedings.” Brief for
Appellees at 6, Treasurer of N.J. v. U.S. Dep’t of
Treasury, 684 F.3d 382 (3d Cir. 2012) (No. 10-1963),
2011 WL 6935510 (citing 31 C.F.R. §§ 315.20(b),
315.23, 353.20(b), 353.23). Significantly, it further
explained that “[a] State may satisfy this ownership
requirement ‘through escheat, a procedure with
ancient origins whereby a sovereign may acquire title
to abandoned property if after a number of years no
rightful owner appears.’ ”
Id. (emphasis added)
(quoting Texas v. New Jersey, 379 U.S. 674, 675, 85
S.Ct. 626, 13 L.Ed.2d 596 (1965)). The Third Circuit
agreed with Treasury and ruled against the states,
explaining that this “result does not nullify state
escheat laws for, as provided in the federal regulations
and as recognized by the Treasury, third parties,
including the States, may obtain ownership of the
bonds—and consequently the right to redemption—
through ‘valid[ ] judicial proceedings.’ ” Treasurer of
N.J., 684 F.3d at 412 (citing 31 C.F.R. § 315.20(b)).

131a
The states then filed a petition for certiorari in the
case. Then, as described above, the government’s
brief in opposition citing only 31 C.F.R. §§ 315.20(b),
315.23, and 353.23 (and not mentioning § 315.21 or
§ 315.22 at all) explained that it “has long advised
the States that to receive payment on a U.S. savings
bond a State must complete an escheat proceeding
that satisfies due process and that awards title to
the bond to the State,” and that this “represents the
Department’s considered interpretation of federal
law.” Pl.’s Resp. App. 9 (Brief for the Respondents in
Opposition, Dir. of Dep’t of Revenue of Montana v.
U.S. Dep’t of Treasury, cert. denied, ––– U.S. ––––,
133 S.Ct. 2735, 186 L.Ed.2d 192 (2013)).
Despite these unambiguous statements, Treasury
claims that it never actually took the position that its
regulations required it to recognize claims of ownership pursuant to an escheat judgment. See, e.g.,
Def.’s Reply 5 (calling the argument that Treasury
had stated many times in the past that it would
recognize title-based escheatment judgments a
“misapprehension of Treasury’s past statements”). It
attempts to reconcile its position in this litigation
with its past statements on the grounds that because
those statements “were made in the context of states
claiming title for bonds in their possession,” they
“pertain[ed] only to the effect of state escheatment
laws on bonds the state has in its possession.” Def.’s
Mot. 13 (emphasis in original).
This contention is unpersuasive. First, as Kansas
points out, the first paragraph in the Second Amended
Complaint in the Treasurer of New Jersey case clearly
states that the unclaimed bonds at issue in that
matter were “in the hands of missing owners” and
not the states. Pl.’s 1st Supp. Br. Add. 2. Second, and
in any event, even though Treasury had proffered

132a
its interpretation of its regulations in the context of
cases in which States were seeking redemption of
bonds in their possession, the rationale Treasury
offered for its position—that under the regulations,
“to receive payment on a U.S. savings bond a State
must complete an escheat proceeding that satisfies
due process and that awards title to the bond to the
State”—is not limited to circumstances in which a
State has the bonds in its possession. To the contrary,
that rationale was based on the understanding that a
judgment pursuant to a title-based escheat statute
would serve for purposes of Treasury regulations as
a “claim against an owner of a savings bond” that
Treasury would recognize, if “established by valid,
judicial proceedings.” 31 C.F.R. § 315.20(b).
In that regard, the Court is also not persuaded by
Treasury’s argument that possession of the bonds is
uniformly a prerequisite to their redemption under
the regulations. Def.’s Mot. to Dismiss 14 (citing 31
U.S.C. § 3105(b)(2)) (asserting that “Treasury regulations require presentation and surrender of the bonds
as a prerequisite for payment” and that “[p]hysical
surrender ensures that Treasury can close out the
bond contract, ensures that the bonds are legitimate,
and prevents double payment on the same bond”).
To begin with, the regulations explicitly provide for
the circumstance in which an owner does not possess
the bond, such as when a bond has been lost, stolen,
or destroyed. See 31 C.F.R. § 315.25. In such a case,
Treasury “may require a bond of indemnity, in the
form, and with the surety, or security . . . necessary
to protect the interests of the United States.” Id. In
addition, the regulations provide that a lost, stolen or
destroyed bond “for which relief has been granted”
(i.e., which has been paid) “is the property of the
United States and, if recovered, must be promptly

133a
submitted to the Bureau of Fiscal Service . . . for cancellation.” 31 C.F.R. § 315.28(b).
In addition, nothing in 31 C.F.R. § 315.20 states
that possession is required where a claim of
ownership is established pursuant to valid, judicial
proceedings. To the contrary, the only reference to a
possession requirement that is made in § 315.20 is
in subsection (c), which specifies that the government
will not accept a notice of an adverse claim or
of pending judicial proceedings, “nor undertake to
protect the interests of a litigant not in possession of
a savings bond.” 31 C.F.R. § 315.20(c). This section
addresses how Treasury will deal with unadjudicated
claims of ownership. Subsection (b), on the other
hand, concerns recognition of claims of ownership
that are no longer in litigation but that have been
established pursuant to valid, judicial proceedings.
Moreover, as the government explained in the
Supreme Court brief, the regulatory prohibition on
payment to anyone other than the lawful owner is
what prevents double payment on the same bond,
not a requirement of physical surrender. Pl.’s Resp.
App. 9. See also id. App. 285 (stating in the 1983
letter that payment to a state that has succeeded to
the legal ownership of the savings bonds “results in
the full discharge of the Treasury’s obligation”). If
Treasury recognizes that title to a bond transfers
from the original registrant to the state, and if it only
honors claims for redemption of that bond by one
who holds title to it, there is no chance that the
government would incur multiple obligations on a
single bond.
Finally, the position that Treasury is taking in this
litigation is internally inconsistent. Thus, it has
claimed for the first time in the briefing of its motion
to dismiss that its decision to allow Kansas to redeem

134a
the Bonds in Possession was based on an exercise of
its waiver authority under § 315.90(a) of the regulations,12 rather than the rationale expressed in its
Escheat Decision and in the briefs that it filed in the
Treasurer of New Jersey litigation. Def.’s Reply 7.
But the letter in which Treasury instructed Kansas
on how to proceed in redeeming the Bonds in Possession said nothing to indicate that Treasury was
exercising any waiver authority. See Pl.’s Resp. App.
276-77. To the contrary, Treasury noted that it
would redeem the bonds “in the normal course,” after
it received a certified copy of the Judgment of
Escheatment and other documentation. Id. at 277.
Treasury’s explanation of the basis for its denial of
Kansas’s request with respect to the Absent Bonds
has also continued to morph throughout this case.
In its October 2013 denial letter (and in its initial
motion to dismiss), Treasury relied upon its newly
articulated narrow interpretation of the “valid, judicial proceedings” language in § 315.20(b). But in its
first supplemental brief, the government argues for
the first time that an escheat judgment does not
involve “a claim against an owner of a savings bond”
within the meaning of § 315.20(b) because an escheat
proceeding was not against the owner of the bond;
12

31 C.F.R. § 315.90(a) provides that:

The Commissioner of the Fiscal Service, as designee of the
Secretary of the Treasury, may waive or modify any provision or provisions of these regulations. He may do so in any
particular case or class of cases for the convenience of the
United States or in order to relieve any person or persons
of unnecessary hardship:
(a) If such action would not be inconsistent with law or
equity, (b) if it does not impair any existing rights, and
(c) if he is satisfied that such action would not subject the
United States to any substantial expense or liability.

135a
it is an in rem proceeding against the property itself.
Def.’s 1st Supp. Br. 5, Jan. 15, 2015, ECF No. 28.
This post-hoc rationale is contrary to the position
Treasury has taken in the past and also lacks merit.
While an escheatment judgment is obtained by a proceeding “in rem” (i.e., against the property) the result
of such a judgment is the substitution of the state for
the bond’s lawful owner. Thus, an escheat proceeding
may readily be treated as “a claim against the owner
of the bond” for purposes of the Treasury regulations.
Indeed, as described above, it has been so treated (at
least implicitly) in Treasury’s prior statements on the
issue.
Treasury further argues (again for the first time
in its supplemental brief and again contrary to its
historically expressed views) that to the extent that
Kansas claims title to savings bonds for which there
exists a coowner or beneficiary, such claims would
be inconsistent with 31 C.F.R. § 315.20(a), which
provides that Treasury will not recognize “a judicial
determination that impairs the rights of survivorship
conferred by these regulations upon a coowner or
beneficiary.” Def.’s 1st Supp. Br. 4. This argument
is unpersuasive because once a determination is
made through an escheatment proceeding that the
former owner has abandoned the bond, the State
becomes its lawful owner. Therefore, the former
coowner or beneficiary no longer has any rights of
survivorship to be impaired.
In short, Treasury’s litigating position cannot be
reconciled with its prior statements expressing what
it then characterized as its “considered interpretation” of its regulations. Pl.’s Resp. App. 9. And while
an agency is certainly entitled to change its interpretation of its own regulations (see Perez v. Mortg.
Bankers Ass’n, ––– U.S. –––, 135 S.Ct. 1199, 1207,

136a
191 L.Ed.2d 186 (2015)), the Court cannot conclude
that the new position represents the agency’s considered judgment, where Treasury resists acknowledging that its position has changed, and where the
rationale for its position continues to shift as the
litigation itself progresses. Therefore, the Court
concludes that the interpretation of its regulations
that is set forth in Treasury’s briefs in this case is
entitled to no deference at all. If anything, deference
is due to the interpretation that Treasury expressed
for over sixty years until the instant controversy
arose. Accordingly, and for the reasons set forth
above in Part III.A.2, the Court concludes that
Kansas’s interpretation of the relevant Treasury
regulations is correct and that it has stated a claim
for relief with respect to its allegations of breach of
contract.13
13

On June 30, 2015, the government filed a notice with the
Court advising it that on June 26, 2015, Treasury had issued a
Notice of Proposed Rulemaking. The proposed regulation adds a
new subpart O, which requires states seeking to redeem bonds
to possess the bonds for which they claim title and to produce
evidence that the bonds have been abandoned by all persons
entitled to payment. 80 Fed. Reg. 37,559-01 (proposed July 1,
2015) (to be codified at 31 C.F.R. § 315.88). The government
appears to argue that this Notice has some bearing on the issues
before the Court in this case; it observes that “[w]hen evaluating the issue of deference, a court may consider an interpretation formally promulgated in a rulemaking after the controversy
or litigation arose.” Def.’s Notice of Proposed Rulemaking 2,
ECF No. 36 (citing Smiley v. Citibank, 517 U.S. 735, 741, 116
S.Ct. 1730, 135 L.Ed.2d 25 (1996) and Motorola, Inc. v. United
States, 436 F.3d 1357, 1366 (Fed. Cir. 2006)). But the Federal
Register Notice does not purport to interpret existing regulations (or a statute, as in Smiley and Motorola); its purpose
is to change those regulations to reflect the position that the
government is taking in this case. The Court, therefore, does
not consider the Notice relevant in any way to the proper interpretation of the existing regulations at issue in this case.

137a
B. Third-Party Beneficiary Claim
The Court turns next to Kansas’s third-party
beneficiary claim, which the government has moved
to dismiss for lack of jurisdiction but which, as noted
above, the Court tests for its sufficiency to state a
claim upon which relief can be granted. With respect
to this claim, Kansas alleges in its complaint that
the Treasury regulations “demonstrate the intent of
the parties to [the savings bond] contracts to provide
a means of transferring ownership of U.S. savings
bonds” and provide that valid, judicial proceedings
are one means of transferring such ownership.
Compl. ¶ 127. Thus, Kansas alleges, “Kansas falls
within the class clearly intended to benefit from the
U.S. savings bond contracts because it is an owner of
U.S. savings bonds and it has established its ownership of the contracts by valid judicial proceedings.”
Compl. ¶ 128. According to Kansas, these allegations
demonstrate that “the State of Kansas is a thirdparty beneficiary to the subject U.S. savings bond
contracts.” Id.
The Court agrees with the government that the
facts that Kansas has alleged do not support a
claim of third-party beneficiary status. A third-party
beneficiary is not a party to the contract but rather is
one on whom the contracting parties intend that the
contract will confer a direct benefit. Glass v. United
States, 258 F.3d 1349, 1354 (Fed. Cir. 2001) (citing
German Alliance Ins. Co. v. Home Water Supply Co.,
226 U.S. 220, 230, 33 S.Ct. 32, 57 L.Ed. 195 (1912)).
As discussed above, Kansas has adequately alleged
that it has become a party to the savings bonds
contracts, but nothing in its complaint suggests, in
contrast, that Treasury and the registered owners of
the bonds entered contracts with the intention of
benefitting Kansas. Therefore, the government’s

138a
motion to dismiss is granted with respect to Kansas’s
third-party beneficiary claim.
C. Fifth Amendment Takings Claim
The final issue that the government raises in its
motion is the sufficiency of Kansas’s claim that the
government’s refusal to allow redemption of the
Absent Bonds constituted a taking without just
compensation under the Fifth Amendment. In addition to repeating the argument rejected above, that
Kansas has not gained ownership of the bonds in
accordance with Treasury regulations, the government contends that Treasury’s actions in relation
to the savings bonds contracts were proprietary,
and therefore, Kansas’s claim, asserted as a Fifth
Amendment taking, is better treated as one for
breach of contract. Def.’s Mot. 19 (citing Hughes
Commc’ns Galaxy, Inc. v. United States, 271 F.3d
1060, 1070 (Fed. Cir. 2001)).
It is well established that “[c]ontract rights are
a form of property and as such may be taken for a
public purpose provided that just compensation is
paid.” U.S. Trust Co. of N.Y. v. New Jersey, 431
U.S. 1, 19 n. 16, 97 S.Ct. 1505, 52 L.Ed.2d 92 (1977)
(citing Contributors to Pa. Hosp. v. Philadelphia, 245
U.S. 20, 23, 38 S.Ct. 35, 62 L.Ed. 124 (1917)). See
also A & D Auto Sales, Inc. v. United States, 748 F.3d
1142, 1152 (Fed. Cir. 2014). As the government
argues in its motion, however, the Federal Circuit
has observed that “[t]aking claims rarely arise under
government contracts because the Government acts
in its commercial or proprietary capacity in entering
contracts, rather than in its sovereign capacity.”
Hughes Commc’ns Galaxy, 271 F.3d at 1070. “Proprietary government action typically involves bargaining
with private actors for the provision or procurement

139a
of goods and services; the action is deemed proprietary even though the government may enter into
the contractual relationship in pursuit of a larger
governmental objective.” A & D Auto Sales, 748 F.3d
at 1156. In such cases, the court of appeals continued, “remedies arise from the contracts themselves,
rather than from the constitutional protection of
private property rights.” Hughes Commc’ns Galaxy,
271 F.3d at 1070.
The Federal Circuit clarified this observation, however, in Stockton East Water District v. United States,
583 F.3d 1344 (Fed. Cir. 2009). Specifically, the court
explained that its statements in Hughes “cannot be
understood as precluding a party from alleging in the
same complaint two alternative theories for recovery
against the Government, for example, one for breach
of contract and one for a taking under the Fifth
Amendment to the Constitution.” Stockton, 583 F.3d
at 1368. “On the other hand,” the court further
explained,
it can be understood to mean that, when a case
arises in which both a contract and a taking
cause of action are pled, the trial court may
properly defer the taking issue, as it did here, in
favor of first addressing the contract issue. It
has long been the policy of the courts to decide
cases on non-constitutional grounds when that is
available, rather than reach out for the constitutional issue. See Nw. Austin Mun. Util. Dist. No.
One v. Holder, [557 U.S. 193, 205, 129 S.Ct. 2504,
174 L.Ed.2d 140] (2009). And of course when a
plaintiff is awarded recovery for the alleged
wrong under one theory, there is no reason to
address the other theories.
Stockton, 583 F.3d at 1368.

140a
Here, the Court takes instruction from Stockton
and finds that dismissal of Kansas’s claim under the
Takings Clause is inappropriate at this stage. Thus,
the government’s motion to dismiss is denied as to
this claim.
CONCLUSION
Based on the foregoing, the Court rules on the
government’s motion to dismiss as follows:
1. The government’s motion to dismiss Kansas’s
contract-based claims for lack of subject-matter
jurisdiction pursuant to RCFC 12(b)(1) is
DENIED.
2. The government’s motion to dismiss Kansas’s
claims for equitable estoppel and declaratory
judgment for lack of subject-matter jurisdiction
pursuant to RCFC 12(b)(1) is DENIED.
3. The government’s motion to dismiss Kansas’s
third-party beneficiary claim, construed as a
motion for failure to state a claim upon which
relief can be granted pursuant to RCFC
12(b)(6), is GRANTED.
4. The government’s motion to dismiss Kansas’s
claim under the Takings Clause of the Fifth
Amendment for failure to state a claim upon
which relief can be granted pursuant to RCFC
12(b)(6) is DENIED.
IT IS SO ORDERED.

141a
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
__________
Nos. 2018-1509 & 2018-1510
JAKE LATURNER, TREASURER OF THE
STATE OF KANSAS, ANDREA LEA, IN HER
OFFICIAL CAPACITY AS AUDITOR OF THE
STATE OF ARKANSAS,
Plaintiffs-Appellees,
v.
UNITED STATES,
Defendant-Appellant.
__________
[Filed: December 11, 2019]
__________
Appeals from the United States Court of Federal
Claims in Nos. 1:13-cv-01011-EDK, 1:16-cv-00043EDK, Judge Elaine Kaplan.
______________________
ON PETITIONS FOR REHEARING EN BANC
______________________
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO,
CHEN, HUGHES, AND STOLL, Circuit Judges.

142a
PER CURIAM.
ORDER
Appellee Jake LaTurner and Appellee Andrea Lea
filed separate petitions for rehearing en banc. A
response to the petitions was invited by the court and
filed by Appellant United States. The petitions were
first referred as petitions for rehearing to the panel
that heard the appeals, and thereafter the petitions
for rehearing en banc were referred to the circuit
judges who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petitions for panel rehearing are denied.
The petitions for rehearing en banc are denied.
The mandate of the court will issue on December
18, 2019.

December 11, 2019
Date

FOR THE COURT
/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

143a
STATUTORY AND REGULATORY
PROVISIONS INVOLVED
1.

Kansas Statutes Annotated § 58-3979 provides:

§ 58-3979. United States savings bonds; unclaimed property; escheat; procedure. (a) Notwithstanding the provisions of subsection (b) of
K.S.A. 58-3953, and amendments thereto, United
States savings bonds which are unclaimed property
and subject to the provisions of K.S.A. 58-3934
et seq., and amendments thereto, shall escheat to
the state of Kansas three years after becoming
unclaimed property and subject to the provisions of
K.S.A. 58-3934 et seq., and amendments thereto, and
all property rights to such United States savings
bonds or proceeds from such bonds shall vest solely
in the state of Kansas.
(b) Within 180 days after the three years in subsection (a), if no claim has been filed in accordance with
the provisions of K.S.A. 58-3934 et seq., and amendments thereto, for such United States savings bonds,
the administrator shall commence a civil action in
the district court of Shawnee county for a determination that such United States savings bonds shall
escheat to the state. The administrator may postpone the bringing of such action until sufficient
United States savings bonds have accumulated in
the administrators custody to justify the expense of
such proceedings.
(c) If no person shall file a claim or appear at the
hearing to substantiate a claim or where the court
shall determine that a claimant is not entitled to the
property claimed by such claimant, then the court,
if satisfied by evidence that the administrator has
substantially complied with the laws of this state,

144a
shall enter a judgment that the subject United States
savings bonds have escheated to the state.
(d) The administrator shall redeem such United
States savings bonds escheated to the state and the
proceeds from such redemption of United States
savings bonds shall be deposited in the state general
fund in accordance with the provisions of K.S.A.
58-3956, and amendments thereto.
2.

Kansas Statutes Annotated § 58-3980 provides:

§ 58-3980. United States savings bonds; claim
for such bonds. Any person making a claim for the
United States savings bonds escheated to the state
under K.S.A. 58-3979, and amendments thereto, or
for the proceeds from such bonds, may file a claim
in accordance with the provisions of K.S.A. 58-3934
et seq., and amendments thereto. Upon providing
sufficient proof the validity of such person’s claim,
the administrator may pay such claim in accordance
with the provisions of K.S.A. 58-3934 et seq., and
amendments thereto.
3.

31 C.F.R. § 315.20 (2014) provides:

§ 315.20 General.
The following general rules apply to the recognition
of a judicial determination on adverse claims affecting savings bonds:
(a) The Department of the Treasury will not recognize a judicial determination that gives effect to an
attempted voluntary transfer inter vivos of a bond,
or a judicial determination that impairs the rights
of survivorship conferred by these regulations upon a

145a
coowner or beneficiary. All provisions of this subpart
are subject to these restrictions.
(b) The Department of the Treasury will recognize
a claim against an owner of a savings bond and
conflicting claims of ownership of, or interest in,
a bond between coowners or between the registered
owner and the beneficiary, if established by valid,
judicial proceedings, but only as specifically provided
in this subpart. Section 315.23 specifies the evidence
required to establish the validity of the judicial proceedings.
(c) The Department of the Treasury and the
agencies that issue, reissue, or redeem savings bonds
will not accept a notice of an adverse claim or notice
of pending judicial proceedings, nor undertake to
protect the interests of a litigant not in possession of
a savings bond.
4.

31 C.F.R. § 315.25 (2014) provides:

§ 315.25 General.
Relief, by the issue of a substitute bond or by
payment, is authorized for the loss, theft, destruction, mutilation, or defacement of a bond after receipt
by the owner or his or her representative. As a
condition for granting relief, the Commissioner of the
Fiscal Service, as designee of the Secretary of the
Treasury, may require a bond of indemnity, in the
form, and with the surety, or security, he considers
necessary to protect the interests of the United
States. In all cases the savings bond must be identified by serial number and the applicant must submit
satisfactory evidence of the loss, theft, or destruction,
or a satisfactory explanation of the mutilation or
defacement.

146a
5.

31 C.F.R. § 315.29 (2014) provides:

§ 315.29 Adjudication of claims.
(a) General. The Bureau of the Fiscal Service will
adjudicate claims for lost, stolen or destroyed bonds
on the basis of records created and regularly maintained in the ordinary course of business.
(b) Claims filed ten years after payment. A bond for
which no claim has been filed within ten years of the
recorded date of redemption will be presumed to have
been properly paid. If a claim is subsequently filed,
a photographic copy of the bond will not be available
to support the disallowance. This provision will
be effective 60 days after the effective date of the
Eleventh Revision of Department of the Treasury
Circular No. 530 (31 CFR part 315).
(c) Claims filed six years after final maturity. No
claim filed six years or more after the final maturity
of a savings bond will be entertained, unless the
claimant supplies the serial number of the bond.
6.

31 C.F.R. § 315.71 (2014) provides:

§ 315.71 Decedent’s estate.
(a) Estate is being administered. (1) A legal representative of a deceased owner’s estate may request
payment of savings bonds to the estate, or may
distribute the savings bonds to the persons entitled.
(2) Appropriate proof of appointment for the legal
representative of the estate is required. Letters of
appointment must be dated not more than one year
prior to the date of submission of the letters of
appointment.
(b) Estate has been settled previously. If the estate
has been settled previously through judicial proceed-

147a
ings, the persons entitled may request payment or
reissue of the savings bonds. A certified copy of the
court-approved final accounting for the estate, the
court’s decree of distribution, or other appropriate
evidence is required.
(c) Special provisions under the law of the jurisdiction of the decedent’s domicile. If there is no formal
or regular administration and no representative of
the estate is to be appointed, the person appointed to
receive or distribute the assets of a decedent’s estate
without regular administration under summary or
small estates procedures under applicable local law
may request payment or reissue of savings bonds.
Appropriate evidence is required.
(d) When administration is required. If the total
redemption value of the Treasury securities and
undelivered payments, if any, held directly on our
records that are the property of the decedent’s estate
is greater than $100,000, administration of the
decedent’s estate will be required. The redemption
value of savings bonds and the principal amount of
marketable securities will be used to determine the
value of securities, and will be determined as of the
date of death. Administration may also be required
at the discretion of the Department for any case.
(e) Voluntary representative for small estates that
are not being otherwise administered—(1) General. A
voluntary representative is a person qualified according to paragraph (e)(3) of this section, to redeem or to
distribute a decedent’s savings bonds. The voluntary
representative procedures are for the convenience of
the Department; entitlement to the decedent’s savings bonds and held payments, if any, is determined
by the law of the jurisdiction in which the decedent
was domiciled at the date of death. Voluntary representative procedures may be used only if:

148a
(i) There has been no administration, no administration is contemplated, and no summary or small
estate procedures under applicable local law have
been used;
(ii) The total redemption value of the Treasury
securities and held payments, if any, held directly on
our records that are the property of the decedent’s
estate is $100,000 or less as of the date of death; and
(iii) There is a person eligible to serve as the
voluntary representative according to paragraph
(e)(3) of this section.
(2) Authority of voluntary representative. A voluntary representative may:
(i) Redeem the decedent’s savings bonds on behalf
of the persons entitled by the law of the jurisdiction
in which the decedent was domiciled at the date of
death;
(ii) Distribute the decedent’s savings bonds to the
persons entitled by the law of the jurisdiction in
which the decedent was domiciled at the date of
death.
(3) Order of precedence for voluntary representative.
An individual eighteen years of age or older may act
as a voluntary representative according to the following order of precedence: A surviving spouse; if there
is no surviving spouse, then a child of the decedent;
if there are none of the above, then a descendant of
a deceased child of the decedent; if there are none
of the above, then a parent of the decedent; if there
are none of the above, then a brother or sister of
the decedent; if there are none of the above, then a
descendant of a deceased brother or sister of the
decedent; if there are none of the above, then a next

149a
of kin of the decedent, as determined by the law of
the jurisdiction in which the decedent was domiciled
at the date of death. As used in this order of precedence, child means a natural or adopted child of the
decedent.
(4) Liability. By serving, the voluntary representative warrants that the distribution of payments or
savings bonds is to the persons entitled by the law of
the jurisdiction in which the decedent was domiciled
at the date of death. The United States is not liable
to any person for the improper distribution of payments or savings bonds. Upon payment or distribution of the savings bonds at the request of the voluntary representative, the United States is released to
the same extent as if it had paid or delivered to a
representative of the estate appointed pursuant to
the law of the jurisdiction in which the decedent
was domiciled at the date of death. The voluntary
representative shall indemnify and hold harmless
the United States and all creditors and persons entitled to the estate of the decedent. The amount of the
indemnification is limited to an amount no greater
than the value received by the voluntary representative.
(f ) Creditor. If there has been no administration,
no administration is contemplated, no summary or
small estate procedures under applicable local law
have been used, and there is no person eligible to
serve as a voluntary representative pursuant to
paragraph (e) of this section, then a creditor may
make a claim for payment for the amount of the debt,
providing the debt has not been barred by applicable
local law.

150a
Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001
SCOTT S. HARRIS
Clerk of the Court
(202) 479-3011

February 26, 2020
Mr. David C. Frederick
Kellogg, Hansen, Todd,
Figel & Frederick, P.L.L.C.
1615 M Street, NW
Suite 400
Washington, DC 20036
Re: Jake LaTurner, etc. v. United States, et al.
Application No. 19A948
Dear Mr. Frederick:
The application for an extension of time within
which to file a petition for a writ of certiorari in
the above-entitled case has been presented to The
Chief Justice, who on February 26, 2020, extended
the time to and including May 8, 2020.
This letter has been sent to those designated on the
attached notification list.
Sincerely,
Scott S. Harris, Clerk
by /s/ Lisa Nesbitt
LISA NESBITT
Case Analyst
[attached notification list omitted]

